No.

In the Supreme Court of the United States
ORACLE AMERICA, INC.,
PETITIONER,
v.
UNITED STATES AND AMAZON WEB SERVICES, INC.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
R. REEVES ANDERSON
ARNOLD & PORTER
KAYE SCHOLER LLP
1144 Fifteenth Street
Suite 3100
Denver, CO 80202
(303) 863-1000

ALLON KEDEM
Counsel of Record
CRAIG A. HOLMAN
SALLY L. PEI
SEAN A. MIRSKI
NATHANIEL E. CASTELLANO
ARNOLD & PORTER
KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
allon.kedem@arnoldporter.com

i
QUESTIONS PRESENTED

The Department of Defense structured its procurement
for cloud-computing services, worth up to $10 billion, for award
to a single bidder. Petitioner Oracle America, Inc. filed a bid
protest, arguing that the single-bidder award violated federal
law, which requires agencies to choose multiple bidders for
contracts of this size and type. The Federal Circuit agreed with
Oracle that the procurement violated federal law, yet declined
to remand the issue to the agency as required by SEC v.
Chenery Corp., 318 U.S. 80 (1943). Instead, the court applied its
own “harmless error” exception to conclude that even if the
agency were to conduct the procurement as a multiple-award
solicitation, Oracle would not stand a better chance of winning
the contract.
During the bid protest, the Defense Department uncovered
serious conflicts of interest between several of its employees and
a leading bidder. The Federal Circuit acknowledged that one or
more conflicts may have violated 18 U.S.C. § 208, the criminal
conflict-of-interest prohibition. It nevertheless upheld the
procurement, deferring to the Department’s view that the
conflicts had not “tainted” the solicitation.
The questions presented are:
1. Whether a bid protest that establishes a violation of
federal law may be denied for “harmless error” based on a
rationale not present in the administrative record.
2. Whether, in resolving a bid protest that establishes a
violation of the criminal conflict-of-interest statute, 18 U.S.C.
§ 208, the Federal Circuit can enforce the contract based on
deference to an agency’s assessment that the criminal violation
did not taint the procurement.

ii
PARTIES TO THE PROCEEDINGS

Petitioner Oracle America, Inc. was plaintiff in the U.S.
Court of Federal Claims and appellant in the Federal Circuit.
Respondent the United States was defendant in the U.S.
Court of Federal Claims and appellee in the Federal Circuit.
Respondent Amazon Web Services, Inc. was defendantintervenor in the U.S. Court of Federal Claims and appellee in
the Federal Circuit.
RULE 29.6 STATEMENT

Oracle America, Inc. is wholly owned by Oracle
Corporation, through one or more non-publicly held wholly
owned subsidiaries. Oracle Corporation is a publicly held
corporation. No other publicly held corporation owns 10% or
more of Oracle America, Inc.’s stock.
RELATED PROCEEDINGS

The following proceedings are directly related to this case
within the meaning of Rule 14.1(b)(iii):
 Oracle America, Inc. v. United States, No. 2019-2326
(Fed. Cir.), judgment entered on September 2, 2020; and
 Oracle America, Inc. v. United States, No. 18-1880C
(Fed. Cl.), judgment entered on July 19, 2019.

TABLE OF CONTENTS
Page

Introduction....................................................................................1
Opinions below ...............................................................................3
Jurisdiction .....................................................................................3
Statutory provisions involved .......................................................3
Statement .......................................................................................4
A. The JEDI Cloud solicitation ...........................................4
B. Oracle’s protest.................................................................7
C. The Federal Circuit’s decision ......................................11
Reasons for granting the petition ..............................................13
I. The Federal Circuit’s harmless-error approach to
procurement warrants review ............................................14
A. The Federal Circuit’s approach to agency error
is irreconcilable with this Court’s precedents .............15
B. This recurring issue goes to the heart of
executive accountability.................................................20
II. The Federal Circuit’s approach to criminal conflicts of
interest warrants review ........................................................25
A. The Federal Circuit’s enforcement of government
contracts infected by criminal misconduct is
irreconcilable with this Court’s precedent ..................25
B. Congress did not delegate discretion to agencies
to police their own criminal ethics violations ..............29
Conclusion.....................................................................................34
Appendix A: Opinion (Fed. Cir., Sept. 2, 2020) ........................1a
Appendix B: Opinion (Court of Fed. Claims, July 19, 2019)
(re-filed July 26, 2019) .......................................................40a
Appendix C: Statutory Provisions Involved ......................... 121a

(iii)

iv
TABLE OF AUTHORITIES
Cases

Page(s)

Abramski v. United States,
573 U.S. 169 (2014) .......................................................... 29
Advanced Data Concepts, Inc. v. United States,
216 F.3d 1054 (Fed. Cir. 2000) ....................................... 21
Am. Relocation Connections, L.L.C. v. United States,
789 F. App’x 221 (Fed. Cir. 2019) .................................. 22
Amazon Web Services, Inc. v. United States,
147 Fed. Cl. 146 (2020) ................................................. 3, 9
Bannum, Inc. v. United States,
404 F.3d 1346 (Fed. Cir. 2005) ....................................... 22
Burlington Truck Lines, Inc. v. United States,
371 U.S. 156 (1962) .......................................................... 16
Chevron U.S.A. Inc. v. Nat. Res. Defense Council,
Inc., 467 U.S. 837 (1984) ................................................. 29
Dep’t of Homeland Sec. v. Regents of the Univ.
of Cal., 140 S. Ct. 1891 (2020) ...................................16, 17
Emery Worldwide Airlines, Inc. v. United States,
264 F.3d 1071 (Fed. Cir. 2001) ....................................... 21
Godley v. United States,
5 F.3d 1473 (Fed. Cir. 1993)........................................... 27
Gonzales v. Oregon,
546 U.S. 243 (2006) .......................................................... 29
Gutierrez-Brizuela v. Lynch,
834 F.3d 1142 (10th Cir. 2016) ....................................... 29
H.G. Props. A, L.P. v. United States,
68 F. App’x 192 (Fed. Cir. 2003) .................................... 21
I.C.C. v. Brotherhood of Locomotive Eng’rs,
482 U.S. 270 (1987) .......................................................... 16

v
Cases—Continued

Page(s)

JWK Int’l Corp. v. United States,
279 F.3d 985 (Fed. Cir. 2002) ......................................... 21
Kingdomware Techs., Inc. v. United States,
136 S. Ct. 1969 (2016).................................................14, 24
Kisor v. Wilkie,
139 S. Ct. 2400 (2019)...................................................... 29
Kurzon v. U.S. Postal Serv.,
539 F.2d 788 (1st Cir. 1976) ........................................... 18
Mass. Trs. of E. Gas & Fuel Assocs. v. United States,
377 U.S. 235 (1964) .......................................................... 17
Michigan v. EPA,
576 U.S. 743 (2015) .......................................................... 15
NLRB v. Am. Geri-Care, Inc.,
697 F.2d 56 (2d Cir. 1982) ......................................... 18-19
NLRB v. CNN Am., Inc.,
865 F.3d 740 (D.C. Cir. 2017) ......................................... 19
NLRB v. Wyman-Gordon Co.,
394 U.S. 759 (1969) .......................................................... 18
Oracle Am., Inc. v. United States,
144 Fed. Cl. 88 (2019) ....................................................... 3
Oracle Am., Inc. v. United States,
975 F.3d 1279 (Fed. Cir. 2020) ......................................... 3
Peter v. Nantkwest, Inc.,
140 S. Ct. 365 (2019)........................................................ 14
Prill v. NLRB,
755 F.2d 941 (D.C. Cir. 1985) ......................................... 19
Safe Air for Everyone v. EPA,
488 F.3d 1088 (9th Cir. 2007) ......................................... 19

vi
Cases—Continued

Page(s)

Scanwell Labs., Inc. v. Shaffer,
424 F.2d 859 (D.C. Cir. 1970) ......................................... 24
Scenic Am., Inc. v. Dep’t of Transp.,
138 S. Ct. 2 (2017) ........................................................... 30
SEC v. Chenery Corp.,
318 U.S. 80 (1943) .................................................... passim
SEC v. Chenery Corp.,
332 U.S. 194 (1947) .......................................................... 16
Sierra Club, Inc. v. U.S. Forest Serv.,
897 F.3d 582 (4th Cir. 2018) ........................................... 19
United States v. Miss. Valley Generating Co.,
364 U.S. 520 (1961) .................................................. passim
WellPoint Military Care Corp. v. United States,
953 F.3d 1373 (Fed. Cir. 2020) ....................................... 22
Statutes

10 U.S.C. § 2304a........................................................ passim
18 U.S.C. § 208 ........................................................... passim
28 U.S.C.
§ 1294 .................................................................................. 3
§ 1295 ................................................................................ 20
§ 1491 ................................................................................ 15
Regulations

48 C.F.R. § 3.104-7(a) ........................................................ 30
80 Fed. Reg. 38,293 (July 2, 2015) ...................................... 5
Legislative Materials

H.R. Rep. No. 84, 116th Cong., 1st Sess. (2019) ............... 5
S. Rep. No. 258, 103d Cong., 2d Sess. (1994) .................... 4

vii
Other Authorities

Page(s)

FedRAMP, Frequently Asked Questions ......................... 7
Frank Konkel, Federal Government to Conclude
Fiscal 2020 With Record Spending,
Nextgov (Sept. 30, 2020) ................................................ 24
Frederick W. Claybrook Jr., Please Check Your
Crystal Ball at the Courtroom Door,
38 Pub. Cont. L.J. 375 (2009) ......................................... 22
Frederick W. Claybrook Jr., Standing, Prejudice,
and Prejudging in Bid Protest Cases,
33 Pub. Cont. L.J. 535 (2004) ......................................... 22
GDP (Current US$)—Sweden,
World Bank ..................................................................... 23
Gov’t Accountability Office, A Snapshot of
Government-wide Contracting for FY 2019,
WatchBlog (May 26, 2020) ........................................23, 24
Gov’t Accountability Office, GAO-18-412R, Use by
the Department of Defense of Indefinite-Delivery
Contracts (2018) ............................................................ 4, 5
Henry J. Friendly, Chenery Revisited,
1969 Duke L.J. 199 (1969) .........................................18, 19
Report on Defense Contracting Fraud, Office of the
Under Secretary of Defense for Acquisition and
Sustainment (Dec. 2018) ................................................ 33
Ron Miller, Why the Pentagon’s $10 billion JEDI
deal has cloud companies going nuts,
Tech Crunch (Sept. 15, 2018) ........................................... 5

viii
Other Authorities—Continued

Page(s)

U.S. Navy Admiral Sentenced to Prison for Lying
to Federal Investigators about His Relationship
with Foreign Defense Contractor in Massive
Navy Bribery and Fraud Investigation,
Dep’t of Justice (May 17, 2017) ..................................... 33
William E. Kovacic, Procurement Reform and the
Choice of Forum in Bid Protest Disputes,
9 Admin. L.J. Am. Univ. 461 (1996) .............................. 24

In the Supreme Court of the United States
ORACLE AMERICA, INC., PETITIONER,
v.
UNITED STATES AND AMAZON WEB SERVICES, INC.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

What happens to a $10 billion federal procurement
contract that is structured in violation of federal law and mired
in the criminal misconduct of its chief architects? One might
reasonably presume that the award would be set aside, so that
the procurement can be reconsidered by the agency, in the first
instance, in accordance with legal requirements. Certainly that
is the route required by this Court’s precedents.
But the Federal Circuit has charted a very different course.
Despite agreeing with Oracle that the Defense Department’s
10-year, $10 billion JEDI cloud-computing procurement violates
Congress’s statutory restriction on single-source awards, the
court rejected Oracle’s bid protest and left the unlawful
procurement in place. Rather than remanding so that the
agency could structure the procurement lawfully, the Federal
Circuit deemed the statutory violation “harmless,” based on
speculation about requirements the agency would have
imposed if the matter were remanded. The result: Despite a
judicial determination that federal law forbids the agency from
awarding the procurement to a single source, that violation
remains uncorrected; JEDI is still a single-source contract.
The Federal Circuit’s harmless-error doctrine runs counter
to this Court’s instruction that “[t]he grounds upon which an
(1)

2
administrative order must be judged are those upon which the
record discloses that its action was based.” SEC v. Chenery
Corp., 318 U.S. 80, 87 (1943). This simple but fundamental
principle of administrative law—that agency “action must be
measured by what the [agency] did, not by what it might have
done,” id. at 93-94—means that agencies, not courts, must
determine how best to respond to administrative errors. The
Federal Circuit’s repeated violation of the Chenery principle in
its procurement decisions warrants this Court’s review.
But there is more. The same Defense Department officials
who led the agency to structure the JEDI procurement as a
single-source award also violated 18 U.S.C. § 208, the federal
criminal conflict-of-interest prohibition. The Federal Circuit
again accepted that agency officials likely had broken the law,
yet declined to heed this Court’s instruction that such criminal
misconduct “renders the contract unenforceable.” United
States v. Mississippi Valley Generating Co., 364 U.S. 520, 563
(1961). Instead, the court upheld, as not “clearly erroneous,” a
determination by the Defense Department that its own
criminal ethics violations did not taint the procurement.
According to the Federal Circuit, Congress implicitly gave
contracting officers, rather than courts, primary responsibility
to decide whether a Section 208 violation requires setting aside
a procurement.
Both issues are recurring and important. The Federal
Circuit frequently upholds illegally structured or corrupted
contracts on the basis of “harmless error”—a practice that
abdicates judicial responsibility to check agency misconduct,
usurps administrative prerogatives, and undermines public
confidence in government spending. The decision below signals
that agencies can flout congressional safeguards established to
maintain the integrity of the procurement process, confident

3
that rule-breaking will later be excused through after-the-fact
justifications offered to deferential courts.
This petition is an ideal vehicle to address both questions
presented. The legal issues are dispositive; the material facts in
the administrative record are undisputed; and the questions
are timely. And unlike many government-contract disputes
that come before this Court, the underlying JEDI contract has
not yet gone into effect. Amazon Web Services, Inc. v. United
States, 147 Fed. Cl. 146, 150 (2020). Because the Federal
Circuit has exclusive jurisdiction over bid protests, only this
Court can restore an evenhanded commitment to fair
competition and reestablish the balance of power among the
three branches of government.
OPINIONS BELOW

The opinion of the Court of Federal Claims (App. 40a-120a)
is reported at 144 Fed. Cl. 88. The opinion of the Federal
Circuit (App. 1a-39a) is reported at 975 F.3d 1279.
JURISDICTION

The Federal Circuit entered judgment on September 2,
2020. App. 1a. This Court has jurisdiction pursuant to 28 U.S.C.
§ 1254(1).
STATUTORY PROVISIONS INVOLVED

Pertinent statutory
App. 121a-125a.

provisions

are

reproduced

at

4
STATEMENT
A.

The JEDI Cloud Solicitation

In 2018, the Department of Defense issued a request for
proposals to provide worldwide cloud-computing services for
the entire agency over a ten-year period. Valued at up to
$10 billion, the contract—known as the Joint Enterprise
Defense Infrastructure (JEDI) Cloud contract—is among the
largest information-technology contracts in the history of the
federal government.
1. The Department structured the JEDI Cloud procurement
as an “indefinite delivery, indefinite quantity” (IDIQ) contract,
sometimes called a “task order” contract. Unlike contracts that
identify in advance a firm quantity of desired goods or services,
IDIQ contracts create an open-ended agreement for the
awardee to supply an agency’s needs over time within broadly
stated parameters. “The [agency] then places orders through
the indefinite-delivery contract when it knows the timing and
quantity of its needs.” Gov’t Accountability Office, GAO-18412R, Use by the Department of Defense of Indefinite-Delivery
Contracts 1 (2018). Indefinite delivery contracts (roughly 80%
of which are IDIQ) are the federal government’s most
frequently used contract type, accounting for over $130 billion
in annual spending. Id. at 6.
Congress has recognized that IDIQ contracts create
substantial risks by locking an agency into long-term
commitments to pay for “broad categories of ill-defined
services,” which “unnecessarily diminishes competition and
results in the waste of taxpayer dollars.” S. Rep. No. 258, 103d
Cong., 2d Sess. 15 (1994). To promote innovation, flexibility,
competition, and cost-savings—and to prevent favoritism and
corruption—Congress has instructed agencies to prefer
“multiple awards,” ibid., which give winning bidders “a fair

5
chance to compete” to fulfill the agency’s needs as they arise
over the life of the contract, id. at 2.
Federal law restricts awarding large IDIQ contracts to a
single vendor. Congress has specified that “no task … order
contract in an amount estimated to exceed [$112 million] may
be awarded to a single source unless the head of the agency
determines in writing that” one of four statutory exceptions
applies. 10 U.S.C. § 2304a(d)(3)(A); see 80 Fed. Reg. 38,293,
38,997 (July 2, 2015) (adjusting for inflation). Despite
Congress’s strong “preference for making multiple awards of
IDIQ contracts,” agencies still routinely make single awards,
including for large, long-term procurements. GAO-18-412R at
1, 5. The Department of Defense is among the worst offenders:
It uses single-award IDIQ contracts more than 60% of the time.
Id. at 6.
2. a. From the outset, the Defense Department made clear
that it intended to award the decade-long JEDI Cloud contract
to a single provider. App. 44a-47a. Numerous industry
stakeholders expressed concerns with that approach,
observing that it contravened best practices in cloud
computing; would stifle competition and innovation; and could
reduce the agency’s flexibility and increase security risks. E.g.,
App. 48a; H.R. Rep. No. 84, 116th Cong., 1st Sess. 12 (2019)
(House Appropriations Committee expressing concern that
Department “is deviating from established OMB policy and
industry best practices, and may be failing to implement a
strategy that lowers costs and fully supports data innovation”).
Nevertheless, the Department announced that it would
award the JEDI Cloud contract to a single provider, App. 60a,
prompting media observers to comment that “the Pentagon
seems hell bent on going forward with the single vendor idea.”

6
Ron Miller, Why the Pentagon’s $10 billion JEDI deal has
cloud companies going nuts, Tech Crunch (Sept. 15, 2018).1
In a written determination justifying the agency’s decision,
the Under Secretary of Defense concluded that one of the
statutory exceptions to § 2304a(d)(3)’s single-award prohibition
applied. App. 57a. Specifically, she determined that the JEDI
Cloud contract “provides only for firm, fixed price (FFP) task
orders or delivery orders for services for which prices are
established in the contract for the specific tasks to be
performed.” Ibid.; see 10 U.S.C. § 2304a(d)(3)(A)(ii). The Under
Secretary so concluded even though the contract contemplated
the “incorporation of … new services into the contract” after
award, at prices to be determined at a later date. App. 57a-60a.
The Under Secretary did not invoke any other statutory
exception under § 2304a(d)(3).
b. The JEDI Cloud solicitation was unusual in other ways.
The request for proposals included several “gate” provisions
that prospective bidders were required to satisfy. A bidder’s
failure to satisfy any gate provision meant that, regardless of its
other qualities, the bid “w[ould] not be further evaluated.”
App. 61a.
One of the gate provisions (Gate 1.1) required the
contractor to demonstrate, prior to proposal submission, that
JEDI Cloud usage would represent less than 50% of the
contractor’s total commercial cloud usage. App. 61a-62a. Oracle
satisfied this gate at the time proposals were due.
Another gate provision (Gate 1.2) required the contractor
to have at least three geographically separated commercial
cloud datacenters, each of which must hold a “FedRAMP
Moderate” certification. C.A. App. 100792. FedRAMP is a
government-wide program that provides broad security
1

https://tcrn.ch/38u2pfA.

7
standards for cloud-computing.2 The JEDI Cloud contract
itself did not rely on or incorporate FedRAMP protocols,
however; to perform the contract, the winning bidder would
instead need to satisfy an entirely separate, contract-specific
set of security standards. C.A. App. 105495-96.
When it issued the JEDI Cloud solicitation in July 2018,
the Department knew that only two prospective bidders had
the requisite FedRAMP certification: Amazon Web Services
and Microsoft. See App. 105a. The Department nevertheless
required all bidders to obtain FedRAMP certification by the
date of proposal submission, due only two months later.
App. 63a. The Department thus intended, by imposing a presubmission certification requirement, to limit the universe of
potential bidders to Amazon and Microsoft. Even so, Oracle
expected to meet (and exceed) the Gate 1.2 requirement by the
time an award was made—and in fact did so.
B. Oracle’s Protest

Oracle filed a pre-award bid protest with the Government
Accountability Office to challenge the single-source decision
and other flaws in the JEDI Cloud solicitation. After the
challenge was denied, Oracle filed its protest in the Court of
Federal Claims in December 2018. App. 64a.
1. While the case was pending in the Claims Court—and as
a direct result of Oracle’s protest—the Department discovered
that several of its employees working on the JEDI Cloud
procurement had serious conflicts of interest involving
Amazon.
One conflict involved Deap Ubhi, an employee who had
engaged in “loud advocacy for a single award approach.”
2
Frequently Asked Questions, https://www.fedramp.gov/faqs. FedRAMP
stands for the Federal Risk and Authorization Management Program.

8
App. 115a. Ubhi pushed this position at key meetings with
Department decision-makers, and he “participated in drafting
and editing some of the first documents shaping the
procurement.” App. 28a. Unbeknownst to the Department,
however, Ubhi had been negotiating for employment with
Amazon while still working on the procurement. App. 69a-73a.
Ubhi eventually recused himself, but lied to the Department
about the reason: Rather than disclose his months-long
employment negotiations, he falsely represented that Amazon
had only recently expressed interest in purchasing a start-up
that he owned. App. 69a-70a.
Another employee, Tony DeMartino, worked on the JEDI
Cloud procurement despite having consulted for Amazon
before joining the Department. DeMartino reviewed and
commented on documents even after receiving a verbal
warning from the Department’s Standards of Conduct Office
that he should consider recusing himself from anything to do
with Amazon. App. 66a-68a.
A third employee, Victor Gavin, accepted a job with
Amazon but subsequently attended meetings about the JEDI
Cloud procurement. And after he began working at Amazon,
Gavin spoke with a colleague there about the procurement.
App. 79a-81a.
Once these improprieties came to light, proceedings in the
Court of Federal Claims were stayed while a Department
contracting officer reviewed the conflicts. App. 70a-71a. The
contracting officer concluded that these employees had acted
unethically, even unlawfully: The officer found that Gavin and
Ubhi had potentially violated 18 U.S.C. § 208, the criminal
conflict-of-interest prohibition for federal officials. App. 79a,
81a. Nevertheless, in the contracting officer’s opinion, the
employees’ conflicts ultimately did not “taint” the procurement
process. App. 107a.

9
2. While Oracle’s protest was pending in the Claims Court,
the Department of Defense continued to evaluate JEDI Cloud
bids. Four companies submitted proposals: Oracle, Amazon,
IBM, and Microsoft. App. 64a-65a. The Department eliminated
Oracle’s proposal under Gate 1.1, based on a measurement of
Oracle’s cloud capacity during an arbitrarily selected period
eight-to-nine months before proposal submission. The
Department did not consider whether Oracle met the other
gate criteria. App. 65a. The Department also removed IBM
from consideration, finding IBM’s proposal unacceptable under
Gate 1.2. Ibid.
The Department ultimately awarded the JEDI Cloud
contract to Microsoft in October 2019. Amazon filed a bid
protest, prompting the Department to revise and reconsider
parts of the procurement. The Department re-awarded the
contract to Microsoft in September 2020. Amazon then
renewed its bid protest, and the contract award is presently
enjoined pending resolution of Amazon’s lawsuit. See Amazon
Web Services, Inc. v. United States, 147 Fed. Cl. 146, 150 (2020).
3. The Court of Federal Claims denied Oracle’s bid
protest. App. 40a-120a.
At the outset, the Claims Court agreed with Oracle that the
Department’s decision to award the JEDI Cloud contract to a
single vendor violated federal law. As the court explained,
§ 2304a(d)(3) generally “prohibits awarding such large task
order contracts to a single vendor,” and none of the exceptions
to that statutory prohibition on single-vendor awards applied.
App. 92a. The Department had attempted to invoke the
exception for “firm fixed-price task or delivery orders,” 10
U.S.C. § 2304a(d)(3)(A)(ii), but the court rejected that
argument as “tortured.” App. 95a. The contract called for the
vendor to provide “new, additional services to be identified and

10
priced in the future,” and those services “are not, by definition,
fixed or established at the time of contracting.” Ibid.
Despite finding the JEDI Cloud procurement contrary to
congressional command, the Claims Court held that this
statutory violation did not require setting aside the solicitation.
The court reasoned that even if the agency had sought multiple
providers, “Oracle would not stand a better chance of being
awarded [the JEDI Cloud] contract.” App. 97a. To reach that
conclusion, the court did not point to any statement from the
Department regarding how it might structure a multiple-award
solicitation—because no such statement existed in the record.
Instead, the Claims Court relied on the speculation of
William Rayel, counsel for the government. Rayel argued that
even if the agency changed the procurement to a multipleaward solicitation, the agency would still insist on the Gate 1.2
requirement for each award (which, the Department argued,
Oracle could not meet). The following remarkable exchange
occurred at oral argument, with the court invoking “Rayel on
the facts”—shorthand for counsel’s representations:
THE COURT: I understand that we’re on Rayel on the
facts as opposed to the administrative record.
MR. RAYEL: Well, yeah, you asked me, Your Honor.
So yes, I mean, this isn’t all—
THE COURT: No, I understand.
MR. RAYEL: Because, I mean, this was a single award.
So the agency didn’t—I’ll admit it doesn’t say in [the
deputy director’s] memorandum [“]and my decision would
be the same if there were multiple awards.[”]
C.A. App. 2296 (115:16-25). The Claims Court stated that it had
“no reason to doubt” the agency’s assertion “that the Gate
Criteria 1.2 security requirements are the minimum that will
be necessary to perform even the least sensitive aspects of the

11
JEDI Cloud project.” App. 97a. The court accordingly
concluded that “if multiple awards were made, the security
concerns would ratchet up, not down,” and “Oracle would not
stand a better chance of being awarded this contract.” Ibid.
The Claims Court also rejected Oracle’s arguments that
conflicts of interest between Defense Department employees
and Amazon required setting aside the procurement. The court
again agreed with Oracle that the law had been broken,
including potential criminal violations of 18 U.S.C. § 208 by
Ubhi and Gavin. App. 110a-112a. The facts were more than
merely “sufficient to raise eyebrows,” the court explained; they
revealed “lax oversight” and the “constant gravitational pull on
agency employees by technology behemoths.” App. 107a. The
court noted that “one would hope the agency would be more
alert to the possibilities of an erosion of public confidence,
particularly given the risk to the agency in having to redo
procurements of this size.” Ibid.
Ultimately, however, the Claims Court viewed its mandate
narrowly: The court limited its review to whether the
contracting officer had a “rational basis” for asserting that
these conflicts of interest had not “tainted” the procurement.
App. 108a, 109a. And the court found “nothing irrational” in the
contracting officer’s decision to overlook the agency’s ethical
lapses. App. 112a, 118a.
C.

The Federal Circuit’s Decision

The Federal Circuit affirmed. App. 1a-39a.
Like the Claims Court, the Federal Circuit agreed with
Oracle that the Department of Defense’s decision to structure
the JEDI Cloud contract as a single-award procurement
violated 10 U.S.C. § 2304a(d)(3)(A), and was thus “legally
improper.” App. 16a. The Federal Circuit also acknowledged
the “foundational principle of administrative law,” articulated by

12
this Court in SEC v. Chenery Corp., 318 U.S. 80 (1943), that
judicial review of agency action “ is limited to ‘the grounds that
the agency invoked when it took the action.’ ” App. 15a. The
Federal Circuit nevertheless declined to send the case back for
the agency to reconsider, in the first instance, how to structure
the solicitation in a manner consistent with federal law.
Instead, the Federal Circuit asked a different question:
whether the agency’s violation of § 2304a(d)(3)(A) was
“harmless error.” App. 16a. To answer that question, the
Federal Circuit stated it would defer to the Claims Court’s
speculation that the statutory violation did not “prejudice”
Oracle. App. 17a. Such a determination, the Federal Circuit
said, was a factual finding reviewable “under the clearly
erroneous standard.” Ibid. In other words, the Federal Circuit
stated that it would uphold the procurement unless the Claims
Court had “clearly” erred in its view—which itself was based
on post hoc speculation from agency counsel—that upon
remand, the agency would ratchet up its security requirements,
such that Oracle would not fare better in a multiple-award
competition.
Like the Claims Court, the Federal Circuit identified no
statement by the Department regarding how it might structure
a multiple-award procurement for the JEDI Cloud contract.
The Federal Circuit nevertheless left the legally improper
procurement in place:
[T]he [Claims] [C]ourt’s conclusion that the Defense
Department would have included Gate 1.2 even if it had
modified the solicitation to allow for multiple awards, and
that Oracle therefore would not have had a substantial
chance of securing the contract, is not clearly erroneous.
We therefore will not disturb the Claims Court’s
determination that the case did not need to be remanded

13
to the Defense Department for a further determination
whether a single-source award is appropriate.
App. 18a.
The Federal Circuit also rejected Oracle’s argument based
on the conflicts of interest between Defense Department
employees and Amazon. Like the Claims Court, the Federal
Circuit did not dispute that the record reflected “conflicts of
interest that violate the federal criminal conflict-of-interest
statute, 18 U.S.C. § 208.” App. 25a. But even such egregious
ethical lapses do not suffice to overturn an award, the Federal
Circuit stated, absent proof of a “causal link between the
illegality and the contract provisions.” Ibid.
For that inquiry, too, the Federal Circuit stated it would
defer: The Department’s own contracting officer—rather than
the court itself—would determine whether such a causal link
existed, subject only to “highly deferential” judicial review.
App. 26a. Despite finding the conduct of agency employees
“troubling,” the court nevertheless upheld, as sufficiently
“rational,” the contracting officer’s assessment that the
procurement should be left in place. App. 27a.
REASONS FOR GRANTING THE PETITION

The Federal Circuit has crafted two significant “exceptions”
to this Court’s precedents regarding judicial review of agency
decision-making. The combined effect here led the Federal
Circuit to uphold agency action—a $10 billion Defense
procurement—that all agree violates federal law. The court’s
consistent use of these exceptions abdicates its exclusive
responsibility to scrutinize and remedy unlawful government
contracting.
Both questions call out for review. These issues have arisen
routinely and with increasing frequency in bid-protest
disputes; without this Court’s intervention, contracting

14
agencies will become further emboldened to skirt statutory
guardrails, confident that their decisions can later be
rationalized or excused by deferential courts. Waiting would
only magnify the waste and fraud exemplified by this case,
which presents an ideal vehicle to address both questions
presented. Because the Federal Circuit has exclusive appellate
oversight of bid protests, only this Court can provide the
necessary corrective review. E.g., Peter v. Nantkwest, Inc., 140
S. Ct. 365 (2019); Kingdomware Techs., Inc. v. United States,
136 S. Ct. 1969 (2016).
I.

The Federal Circuit’s Harmless-Error
Procurement Warrants Review

Approach

to

Congress has vested administrative agencies with authority
to commit billions of taxpayer dollars through the federal
procurement process—but only if the agency abides by
statutory constraints. Here, the Federal Circuit agreed with
Oracle that the JEDI Cloud procurement violates one such
constraint, 10 U.S.C. § 2304a(d)(3)(A). The court nevertheless
left the “legally improper” procurement in place, under
“principles of harmless error.” App. 16a. Worse still, in applying
those principles, the court deferred to agency counsel’s post
hoc speculation about the criteria that the agency might apply
if it conducts the procurement as federal law requires.
The Federal Circuit’s harmless-error approach creates a
perfect storm of governmental unaccountability: Congress’s
commands go unheeded, the agency is never forced to commit
fully to a position, and the judiciary cloaks its abdication in the
language of modesty. Only this Court can restore balance and
accountability to federal procurement law.

15
A.

The Federal Circuit’s Approach to Agency Error Is
Irreconcilable with This Court’s Precedents

Federal procurements are, at bottom, exercises of agency
decision-making. They are governed not only by a matrix of
procurement statutes and regulations, but also by the
strictures of the Administrative Procedure Act and principles
of administrative law. See 28 U.S.C. § 1491(b)(4) (in procurement
challenges, “the courts shall review the agency’s decision
pursuant to the standards set forth in section 706 of title 5”).
One such principle—which predates even the APA’s enactment—
is that “[t]he grounds upon which an administrative order must
be judged are those upon which the record discloses that its
action was based.” SEC v. Chenery Corp., 318 U.S. 80, 87 (1943).
1. At issue in Chenery was an order of the Securities and
Exchange Commission approving a stock reorganization plan. Id.
at 83. In evaluating the plan, the Commission thought itself
bound to rule “as it assumed a court of equity would have acted
in a similar case,” id. at 87, but this Court determined that the
agency was not so constrained, id. at 88-90. Despite that legal
error, the Commission argued “that [its] order should
nevertheless be sustained” on other grounds, id. at 90, which
this Court indicated were likely sufficient to support it, id. at
90-91.
Yet the Commission’s order still could not stand. As this
Court explained, “the considerations urged here in support of
the Commission’s order were not those upon which its action
was based.” Id. at 92. That flaw required vacatur of the
agency’s decision, because agency “action must be measured by
what the [agency] did, not by what it might have done.” Id. at
93-94. The Court accordingly remanded to the Commission, so
the agency could decide in the first instance whether and how
to “exercis[e] its powers” in a manner “upon which its action can
be sustained.” Id. at 95.

16
Eight decades later, Chenery stands for the “foundational
principle of administrative law that a court may uphold agency
action only on the grounds that the agency invoked when it took
the action.” Michigan v. EPA, 576 U.S. 743, 758 (2015) (citation
omitted). Courts reviewing agency action accordingly “may not
affirm on a basis containing any element of discretion—
including discretion to find facts and interpret statutory
ambiguities—that is not the basis the agency used, since that
would remove the discretionary judgment from the agency to
the court.” I.C.C. v. Brotherhood of Locomotive Eng’rs, 482
U.S. 270, 283 (1987). Nor may the court accept “post hoc
rationalizations” offered in litigation by the agency or its
counsel. Dep’t of Homeland Sec. v. Regents of the Univ. of Cal.,
140 S. Ct. 1891, 1909 (2020).
The Chenery rule reinforces “important values of
administrative law.” Id. at 1901. In requiring courts to remand
(rather than to rewrite) flawed agency decisions, the rule
serves “not to deprecate, but to vindicate the administrative
process, for the purpose of the rule is to avoid propelling the
court into the domain which Congress has set aside exclusively
for the administrative agency.” Burlington Truck Lines, Inc.
v. United States, 371 U.S. 156, 169 (1962) (punctuation omitted).
The rule also “promotes agency accountability by ensuring that
parties and the public can respond fully and in a timely manner
to an agency’s exercise of authority,” and it “instills confidence
that the reasons given are not simply convenient litigating
positions.” Regents, 140 S. Ct. at 1901 (citations omitted). In
short, Chenery ensures a process worthy of public trust—
grounded in the simple truth that “when so much is at stake, …
‘the Government should turn square corners in dealing with the
people.’ ” Id. at 1909 (citation omitted).
2. The decision below diverged sharply from Chenery’s
“simple but fundamental rule of administrative law.” SEC v.

17
Chenery Corp., 332 U.S. 194, 196 (1947). As the Federal Circuit
held, the Defense Department’s decision to structure the JEDI
Cloud contract as a single-source procurement was based on a
legal error: The agency had invoked an exception to § 2304a(d)(3)’s
prohibition on large single-source awards, but the exception did
not apply. App. 14a. Under Chenery, that should have been the
end of the matter; the court should have remanded for the
Department to consider, in the first instance, how to structure
the JEDI Cloud solicitation as a multiple-award procurement.
Instead, the Federal Circuit applied what it called
“principles of harmless error.” App. 16a. According to the
Federal Circuit, those principles involved two layers of judicial
deference. First, the Court of Claims deferred to speculation
from agency counsel regarding whether “the agency would
have reached the same decision if it had been aware that the
ground it invoked was legally unavailable.” Ibid. Second, the
Federal Circuit said it would affirm the Claims Court’s
harmless-error finding unless “clearly erroneous.” App. 17a.
Both layers of that analysis are flawed. Chenery forbids
reliance on “post hoc justifications [that] are raised in court by
those appearing on behalf of the agency.” Regents, 140 S. Ct. at
1909. Because the Department of Defense never stated on the
record what requirements or qualifications it would impose if
the JEDI Cloud contract were structured as a multiple-source
procurement, the Claims Court could not accept agency
counsel’s assertions on that issue—aptly called “Rayel on the
facts,” C.A. App. 2296. And the Federal Circuit compounded
that error by treating the Claims Court’s ruling as if it were a
factual finding, to be upheld unless “clearly erroneous.” The
combination of these errors turned Chenery on its head: The
Federal Circuit applied deferential appellate review to a
discretionary decision that the agency never even made.

18
3. The Federal Circuit justified its harmless-error
approach as fulfilling this Court’s instruction that “[a] remand
is unnecessary when the error in question ‘clearly had no
bearing on the procedure used or the substance of decision
reached.’ ” App. 16a (quoting Mass. Trs. of E. Gas & Fuel
Assocs. v. United States, 377 U.S. 235, 248 (1964)). But that
principle has no application here, because the Federal Circuit
agreed with Oracle that the agency’s decision to structure the
JEDI Cloud contract as a single-source procurement was
“legally improper.” App. 16a. A legal error of that caliber—
structuring a $10 billion procurement in direct violation of a
federal statute—plainly spoke to “the substance of [the]
decision reached.”
To be sure, Chenery does not demand that courts engage
in “idle and useless formalit[ies].” NLRB v. Wyman-Gordon
Co., 394 U.S. 759, 766 n.6 (1969). Courts need not reverse and
remand when doing so would be truly “meaningless” because
there is “not the slightest uncertainty as to the outcome of a
proceeding” on remand. Ibid. But the circumstances in which
courts may affirm notwithstanding agency error are narrow
and closely drawn. See Henry J. Friendly, Chenery Revisited,
1969 Duke L.J. 199, 222-224 (1969) (describing these categories).
They do not include a situation like this one, where—as in
Chenery itself—the agency’s decision was based solely on a
legally impermissible rationale. See id. at 222 (cases “[w]here
the agency has rested decision on an unsustainable reason”
implicate “the Chenery doctrine proprement dit”).
Here, numerous aspects of the case show that a remand
would not have been “meaningless.” NLRB, 394 U.S. at 766 n.6.
First and foremost, the only stated ground for the agency’s
decision was shown to be legally erroneous. That alone
distinguishes this case from the out-of-circuit precedents cited
by the Federal Circuit, App. 16a, in which the agency erred in

19
making a “subsidiary finding” of fact that was “essentially
irrelevant” to the ultimate finding, Kurzon v. U.S. Postal Serv.,
539 F.2d 788, 796-97 (1st Cir. 1976); or where the asserted legal
error was “unnecessary” to the decision, which was equally
supported by an alternative ground “specifically” stated in the
agency’s opinion, NLRB v. Am. Geri-Care, Inc., 697 F.2d 56,
63-64 (2d Cir. 1982) (citing Friendly, supra). Other courts of
appeals consistently remand where, as here, the agency’s legal
error vitiated the single ground upon which the agency’s
decision rested. E.g., Sierra Club, Inc. v. U.S. Forest Serv., 897
F.3d 582, 605 (4th Cir. 2018); Safe Air for Everyone v. EPA, 488
F.3d 1088, 1101 (9th Cir. 2007); NLRB v. CNN Am., Inc., 865
F.3d 740, 751 (D.C. Cir. 2017); Prill v. NLRB, 755 F.2d 941, 948
(D.C. Cir. 1985) (“[B]ecause the Board’s decision stands on a
faulty legal premise and without adequate rationale, we must
remand the case for reconsideration.”).
Additional features of the case call out for a remand. An
error can be “harmless” only if the agency’s policy would have
been formulated the same way absent the error. But extensive
record evidence—including directives from the Defense
Department—show that the agency in fact structures multipleaward procurements differently from single-award ones. See,
e.g., C.A. App. 105363, 105377, 105383.
The Federal Circuit (like the Claims Court) relied on
speculation from agency counsel that the Department would
require FedRAMP certification at proposal submission (rather
than at performance) even in a multiple-award procurement
because “if multiple awards were made, the security concerns
would ratchet up, not down.” App. 17a. But the agency itself
never said it would impose FedRAMP in any multiple-award
procurement, and for good reason: FedRAMP is not synonymous
with cloud security; it is just one of many possible ways to
demonstrate that a cloud meets minimum needs. The JEDI

20
Cloud contract contains a totally separate set of security
protocols that a FedRAMP-authorized provider might not
meet—but a non-FedRAMP-authorized provider might. See
C.A. App. 105495-96.
And even if the Department would choose to retain
FedRAMP certification as a qualification for winning bidders,
that hardly rules Oracle out. A multi-source procurement
might require certification prior to contract performance,
rather than prior to bid submission, as the agency has
repeatedly done for other cloud-computing procurements, e.g.,
C.A. App. 123432 (Defense Department solicitation required
FedRAMP certification six months after award); id. at 123506
(requiring FedRAMP authorization “[w]ithin 180 days” of
award). Indeed, Oracle met the FedRAMP standard when the
JEDI contract was awarded in 2019 and continues to exceed
those standards today. Or maybe the Department would apply
different security strata to each of multiple awards, for instance
by requiring FedRAMP certification for certain security
operations but not for routine administrative cloud services.
The point is, we cannot know how the agency would have
proceeded on remand, and neither did the Federal Circuit.
These complexities demonstrate the peril of allowing courts to
guess what an agency might do once the erroneous basis for its
decision has been exposed. William Rayel’s speculation could
prove right or he could be wrong. But either way, the decision
how to structure the JEDI Cloud solicitation as a multi-source
procurement must be made, in the first instance, by the agency
itself.
B. This Recurring Issue Goes to the Heart of Executive
Accountability

Notably, the decision below is not an outlier. In recent
years, the Federal Circuit has repeatedly upheld unlawful
procurement decisions based on post hoc speculation about

21
what the agency might do on remand. As a result, multi-million
(or as here, multi-billion) dollar procurements have been left in
place even when shown to be structured in violation of federal
law.
Congress has given the Federal Circuit exclusive
jurisdiction to review bid protests, 28 U.S.C. § 1295(a)(3), in
order “to prevent forum shopping and to promote uniformity in
government procurement award law.” Emery Worldwide
Airlines, Inc. v. United States, 264 F.3d 1071, 1079 (Fed. Cir.
2001). But the Federal Circuit’s sole appellate oversight over
bid protests also amplifies any deviations from sound practice.
Only this Court’s intervention can return administrative
accountability to the federal procurement process.
1. The “harmless error” ruling in this case reflects a trend
that began decades ago. An early example is Advanced Data
Concepts, Inc. v. United States, 216 F.3d 1054 (Fed. Cir. 2000),
where a bidder’s proposal was rejected —despite offering the
cheapest price—due to a low technical-evaluation score. Id. at
1056-57. The bidder showed that flaws in the agency’s decisionmaking process had artificially depressed its score, but the
Federal Circuit nonetheless left the procurement in place: It
reasoned that the protestor’s corrected score was still lower
than the winning bidder’s score, and the agency had expressed
a general preference for technical proficiency over cost. Id. at
1058. Though the agency itself never said how it would balance
those two considerations once the protestor’s score was
corrected, the Federal Circuit nevertheless concluded that the
agency would not have selected the protestor’s bid anyway, and
thus the protestor “suffered no prejudice from any [agency]
evaluation errors.” Ibid.
Following that decision, the Federal Circuit became
increasingly bold in its harmless-error predictions. See, e.g.,
H.G. Props. A, L.P. v. United States, 68 F. App’x 192, 195 (Fed.

22
Cir. 2003) (errors identified by protestor “not sufficient to show
that [the protestor] would likely be awarded a contract under
the revised requirements”); JWK Int’l Corp. v. United States,
279 F.3d 985, 988-89 (Fed. Cir. 2002) (similar). As one
commenter has described the pattern:
[T]he Federal Circuit has shown an unfortunate tendency
to prejudge how the agency would act if the agency
reviewed the matter on remand. In so doing, the Federal
Circuit has overstepped its authority and violated wellestablished principles under the APA.
Frederick W. Claybrook Jr., Standing, Prejudice, and
Prejudging in Bid Protest Cases, 33 Pub. Cont. L.J. 535, 536
(2004). And the trend has only escalated since. See, e.g.,
WellPoint Military Care Corp. v. United States, 953 F.3d 1373,
1382 (Fed. Cir. 2020); Am. Relocation Connections, L.L.C. v.
United States, 789 F. App’x 221, 228 (Fed. Cir. 2019); Bannum,
Inc. v. United States, 404 F.3d 1346, 1358 (Fed. Cir. 2005).
The Federal Circuit’s misguided approach to harmless error
has even affected the Court of Federal Claims. In upholding
unlawful agency actions by invoking alternative rationales
never endorsed by the agency itself, the Federal Circuit has
“sent an improper signal that crystal-ball prejudice
determinations not only would be tolerated, but also would be
given minimalist appellate review.” Frederick W. Claybrook
Jr., Please Check Your Crystal Ball at the Courtroom Door, 38
Pub. Cont. L.J. 375, 378 (2009). The Claims Court accordingly
“has fallen victim to the misconception that it should
prognosticate what an agency likely would do on remand after
it corrected error in its initial procurement action.” Ibid.; see
id. at 385-98 (discussing six recent “divinations” from the Court
of Federal Claims). This case is yet another prime example—
and the most consequential to date. App. 96a-98a.

23
2. This case underscores another damaging feature of the
Federal Circuit’s approach to harmless error: The court’s
refusal to remand means that a judicially identified statutory
violation remains uncorrected—not just as to Oracle, but for
everyone, including the American public footing the bill.
Although the Court of Federal Claims and the Federal Circuit
both agreed with Oracle that the Defense Department was not
statutorily authorized to award the $10 billion JEDI Cloud
contract to a single source, that is precisely how the contract is
structured to this day.
How could that happen? As the Claims Court explained,
there is “no connection” between the statutory error (structuring
JEDI Cloud as a single-award procurement) and the ground on
which the error was held to be harmless (Oracle’s purported
inability to satisfy Gate 1.2). App. 96a-98a. Thus, even though
Oracle—a party with standing and within the zone of interests
protected by § 2304a—has shown to judicial satisfaction that
the procurement violates a federal statute, the unlawful
contract remains in place. The Federal Circuit’s prejudice
doctrine thus allows issues unconnected to the agency’s legal
error to insulate the agency from accountability for its unlawful
decision-making.
3. The federal procurement system relies on the bidprotest process as a meaningful check on executive power.
The Federal Circuit’s willingness to uphold legally flawed
procurement decisions on the basis of post hoc speculation
removes important safeguards against administrative
overreach. And it threatens to erode taxpayer confidence in
governmental management of the public fisc.
The federal government is the world’s largest buyer of
goods and services. In 2019, federal-contract spending exceeded
$586 billion—a sum roughly the size of Sweden’s economy. See
Gov’t Accountability Office, A Snapshot of Government-wide

24
Contracting for FY 2019, WatchBlog (May 26, 2020).3 That
figure, which accounts for nearly 3% of the U.S. gross domestic
product, has risen steadily over the years and is set to increase
further. See Frank Konkel, Federal Government to Conclude
Fiscal 2020 With Record Spending, Nextgov (Sept. 30, 2020).4
The Defense Department alone accounts for approximately
65% of the federal government’s massive annual contract
spending. See A Snapshot, supra.
Given the vast taxpayer funds at stake, accountability in
government contracting is imperative. The bid protest is a
critical tool: “[T]he suit itself is brought in the public interest
by one acting essentially as a ‘private attorney general.’ ”
Scanwell Labs., Inc. v. Shaffer, 424 F.2d 859, 864 (D.C. Cir.
1970). Bid protests are thus “part of a large body of regulatory
safeguards that are deemed necessary to deter and punish
ineptitude, sloth, or corruption of public purchasing officials.”
William E. Kovacic, Procurement Reform and the Choice of
Forum in Bid Protest Disputes, 9 Admin. L.J. Am. Univ. 461,
469 (1996).
Although Oracle has the resources to pursue its protest all
the way to the Supreme Court, other prospective government
contractors may not. Nor are many bidders willing to spend
years litigating over a contract that may be partially or even
fully performed by the time the case reaches resolution. See
Kingdomware, 136 S. Ct. at 1976 (relying on exception to
mootness where “the procurements were fully performed in
less than two years after they were awarded”). This case is an
ideal opportunity to return judicial guardrails to the federal
procurement process, by instructing federal courts to leave
https://bit.ly/3mIyGor; GDP (Current US$)—Sweden, World Bank,
https://bit.ly/3pgnL75.
3

4

https://bit.ly/3r9b8MK.

25
congressionally delegated agency decision-making to the
agencies.
II. The Federal Circuit’s Approach to Criminal Conflicts of
Interest Warrants Review

The most serious conflicts of interest by government officials
constitute criminal offenses under federal law, 18 U.S.C. § 208.
Although an offender may himself be prosecuted for violating
Section 208, Congress did not leave “merely a criminal
prosecution” as the only protection for the public fisc. United
States v. Mississippi Valley Generating Co., 364 U.S. 520, 563
(1961). In order to prevent the public from “be[ing] forced to
bear the burden of complying with the very sort of contract
which the statute sought to prevent,” an official’s “illegal
conduct renders the contract unenforceable.” Ibid.
Yet the Federal Circuit has once again charted a different
course. Despite accepting that Defense Department employees
“personally and substantially” participated in the JEDI Cloud
solicitation while pursuing employment with a leading bidder,
18 U.S.C. § 208(a), the court nonetheless declared that nothing
could be done. It deferred to the agency’s view—asserted by
the same contracting officer who failed to screen for the
conflicts in the first place—that the conflicted individuals’
participation did not “taint” the procurement. The Federal
Circuit’s approach to criminal conflicts of interest ignores
precedent and reason, and abdicates the court’s congressionally
mandated responsibility to safeguard the integrity of the
government procurement process.
A.

The Federal Circuit’s Enforcement of Government
Contracts Infected by Criminal Misconduct Conflicts with
This Court’s Precedent

Six decades ago, this Court held that in order “to
guarantee the integrity of the federal contracting process and

26
to protect the public from … corruption,” government contracts
marred by criminal conflict-of-interest violations must be set
aside. Mississippi Valley, 364 U.S. at 565. The Federal
Circuit’s ruling in this case, which left the JEDI Cloud contract
in place on the ground that the ethical violations here had not
sufficiently “tainted” the procurement, runs counter to that
mandate.
1. Mississippi Valley involved a $100 million contract to
construct and operate a power plant. Id. at 523. In negotiating
the contract, the government relied on the guidance of Adolphe
Wenzell, the director of a private bank. Id. at 532-40. The
government eventually became aware that the bank (and thus
Wenzell) had a financial interest in the transaction—a conflict
that potentially violated the predecessor statute to Section 208.
Id. at 540-44. And once a court confirms that such a criminal
conflict exists, this Court held, “that fact alone” suffices to
invalidate a government contract. Id. at 525.
First, the Court examined the history of the contract, and
Wenzell’s conduct in relation to it, and concluded that “each of
the elements of the statutory prohibition was violated.” Id. at
550-51 (punctuation omitted). Wenzell had acted as an “ ‘officer
or agent of the United States,’ ” in relation to a contract in which
he had been “ ‘directly or indirectly interested.’ ” Id. at 551, 555
(quoting Section 208’s predecessor).
Second, the Court considered “whether Wenzell’s illegal
conduct render[ed] the contract unenforceable.” Id. at 563. The
Court said yes. Congress enacted the criminal prohibition “to
protect the public from the corrupting influences that might be
brought to bear upon government agents who are financially
interested in the business transactions which they are
conducting on behalf of the Government.” Id. at 563. For a
court to enforce a government contract despite a violation of
that prohibition, therefore, would be to “affirmatively sanction[]

27
the type of infected bargain which the statute outlaws,” thereby
“depriving the public of the protection which Congress has
conferred.” Ibid. Instead, the Court explained, Congress wants
the judiciary to employ an established “remedy” for violations
of the criminal conflict-of-interest prohibition—namely,
“[n]onenforcement of contracts made in violation of ” the
provision. Id. at 564.
2. Mississippi Valley should control the outcome here.
Section 208 applies to any “employee of the executive branch”
who “participates personally and substantially” in a “contract”
in which an “organization with whom he is negotiating or has
any arrangement concerning prospective employment[] has a
financial interest.” 18 U.S.C. § 208(a). No one who evaluated the
conflicts at issue in this case—not the contracting officer, not
the reviewing courts, and not even the government—contested
that Defense Department officials violated that criminal
prohibition. App. 29a-30a.
Deap Ubhi’s ethical conflicts were particularly egregious.
Ubhi participated on the five-person team charged with leading
the JEDI Cloud solicitation. App. 44a. In that capacity, Ubhi
pushed hard for the single-award approach, acting as the
Department’s lead advocate on this issue. App. 115a. But
throughout this period, Ubhi was actively engaged in
employment discussions with Amazon. App. 69a-73a. Given
that blatant statutory violation, “nonenforcement” of the
contract “is required in order to extend to the public the full
protection which Congress decreed by enacting Section [208].”
Mississippi Valley, 364 U.S. at 566.
3. The Federal Circuit nevertheless held that it was
required to leave the contract undisturbed unless the criminal
misconduct “tainted the procurement.” App. 24a. The court had
previously deemed Mississippi Valley as “best read” to mean
that “conflicts of interest invalidate government contracts only

28
if the conflicts materially affect the contracts.” App. 25a
(emphasis added); see Godley v. United States, 5 F.3d 1473,
1476 (Fed. Cir. 1993) (“[T]he record must show some causal link
between the illegality and the contract provisions.”). Based on
that reading, the Federal Circuit rejected Oracle’s argument
that the pervasive criminal conflicts of interest in this case
rendered the JEDI Cloud solicitation unenforceable. App. 27a.
The Federal Circuit’s approach contravenes key aspects of
Mississippi Valley’s second holding. This Court stressed that
Section 208’s predecessor created “an objective standard of
conduct,” under which contract validity does not turn on the
impact of conflicts on the procurement process. 364 U.S. at 549;
see id. at 548-51. Indeed, one of the parties had pressed the
Court to interpret the statute as turning on “the actual
consequences of proscribed action.” Id. at 550. But the Court
rejected that argument, holding that “the statute is more
concerned with what might have happened in a given situation
than with what actually happened.” Ibid. (emphases added);
see id. at 550 n.14 (statute’s “preventive nature” does not care
“what was done in the particular case” (citation omitted)).
The Federal Circuit’s interpretation also ignores that
Section 208 seeks to combat not only actual corruption, but also
the appearance and risk of corruption. Even serious “suspicions”
of impropriety can rob governmental actions of legitimacy. Id.
at 562. Congress recognized that a prophylactically broad
prohibition is necessary to protect “the public from the
corruption which might lie undetectable beneath the surface.”
Id. at 565. “It is this inherent difficulty in detecting corruption
which requires that contracts made in violation of Section [208]
be held unenforceable.” Ibid.

29
B. Congress Did Not Delegate Discretion to Agencies to
Police Their Own Criminal Ethics Violations

Even if, contrary to Mississippi Valley, the Federal
Circuit were correct to require a “causal link” between the
Section 208 violation and the challenged contract provision,
App. 25a, the court’s approach to that materiality inquiry is
flawed: The Federal Circuit allows the agency’s own
contracting officer to decide whether a contract has been
tainted by a criminal violation, subject only to “highly
deferential” arbitrary-and-capricious review. App. 26a. But if
anyone is to perform that materiality inquiry, it should be a
court, not an agency official—and certainly not the very official
who approved the contract in the first place.
1. Judicial deference to administrative decision-making
is “rooted in a presumption about congressional intent—a
presumption that Congress would generally want the agency to
play the primary role in resolving” certain questions. Kisor v.
Wilkie, 139 S. Ct. 2400, 2412 (2019). Congress’s express grant
of rulemaking power to an agency, for instance, is thought to
come along with “implicit” authority to issue reasonable
interpretations of ambiguous statutes that the agency administers.
Chevron U.S.A. Inc. v. Nat. Res. Defense Council, Inc., 467
U.S. 837, 844 (1984). But even accepting the “fiction” that
Congress does sometimes silently delegate such substantial
powers to administrative agencies, Gutierrez-Brizuela v.
Lynch, 834 F.3d 1142, 1153 (10th Cir. 2016) (Gorsuch, J.,
concurring), there are ample reasons to doubt that Congress
implicitly delegated to contracting officers the power at issue
here: authority to determine whether a Section 208 violation
has “tainted” a procurement.
First, no agency has been “charged with administering”
Section 208, Gonzales v. Oregon, 546 U.S. 243 (2006), nor does
the statutory text provide any administrative role in identifying

30
or punishing violations. Indeed, Section 208 is a criminal
prohibition—a field where the usual dynamic supporting
administrative deference is reversed: Judicial judgment
predominates, while administrative views are “not relevant.”
Abramski v. United States, 573 U.S. 169, 191 (2014).
Second, given the subject matter of Section 208, Congress
is particularly unlikely to have implicitly given agencies
primary authority to ascertain the effect of a violation. The
statute is “designed to protect the United States, as a
Government, from the mistakes, as well as the connivance, of
its own officers and agents.” Mississippi Valley, 364 U.S. at
561. This Court accordingly rejected an argument that the
contract at issue there could be saved, despite Wenzell’s
criminal violation, by proving the “knowledge of Wenzell’s
[agency] superiors and their approval of his activities.” Ibid.
Just as Section 208’s predecessor had not “empowered his
superiors to exempt him from the statute,” ibid., neither does
Section 208 silently authorize agency officials to decide that a
violation should be without effect.
Third, the “taint” question—whether an official’s criminal
conflict of interest affected the procurement—is one in which
the implicated agency is “at least usually a little selfinterested.” Scenic Am., Inc. v. Dep’t of Transp., 138 S. Ct. 2, 3
(2017) (Gorsuch, J., respecting certiorari). If a “causal link”
exists between a Section 208 violation and the procurement,
then by definition the agency’s decision-making reflects
“malfeasance and corruption.” Mississippi Valley, 364 U.S. at
562. Any agency would be loath to make such an admission
about itself.
2. To justify deferring to the contracting officer’s
materiality assessment, the Federal Circuit pointed to § 3.1047 of the Federal Acquisition Regulation (FAR), which requires
“a contracting officer who receives information about a conflict

31
of interest on the part of persons involved in a procurement ‘[to]
determine if the reported violation or possible violation has any
impact on the pending award or selection of the contractor.’ ”
App. 26a (quoting 48 C.F.R. § 3.104-7(a)). If the contracting
officer “determines that there is no impact on the procurement,”
and a designated agency official agrees, then “the procurement
may proceed.” Ibid. Since the contracting officer for the JEDI
Cloud procurement found no impact from the Section 208
violations, the Federal Circuit felt itself bound to uphold the
procurement so long as “the contracting officer’s findings
[we]re rational.” App. 27a.
That reasoning conflates distinct questions: (1) whether
the contracting officer properly discharged her duties under
§ 3.104-7 of the FAR; and (2) whether a criminal violation of
Section 208 has rendered the contract unenforceable. The
“rational[ity]” of the contracting officer’s decision under the FAR
may suffice for judicial review of the agency’s compliance with
that provision. But it says nothing about how a Section 208
violation should be handled. Still less can an administrative
regulation speak to the question whether Congress has silently
instructed courts to defer to an agency’s view that a contract
should be enforced notwithstanding a criminal conflict of
interest.
In sum, even if (contrary to Mississippi Valley) a court
must rule on the materiality of a Section 208 violation, the court
cannot defer to the agency’s assessment of its own criminal
violations.
3. The standard of review is often outcome-determinative.
It certainly was here: Any court that independently assessed
the impact of the pervasive criminal misconduct in this case
would have found it to be material.
Space limitations prevent a full treatment, but consider
just the influence of Deap Ubhi. In September 2017, he joined

32
a five-member team charged with designing the JEDI Cloud
solicitation. App. 44a. From the start, Ubhi engaged in “loud
advocacy for a single award approach” and soon became its
foremost champion. App. 115a. He crowed about bringing
multiple Pentagon officials to “our side” on the issue.
C.A. App. 160107; see C.A. App. 160176 (Ubhi: “if there are
people in the building that i need to go see and school [on single
v. multiple], or ally, let’s do that”); C.A. App. 160096-98. To that
end, Ubhi drafted a one-page primer “to crush single vs.
multiple,” C.A. App. 160151; he distributed it widely to put
“multi vs. single to bed once and for all,” C.A. App. 160166.
Since the question was not yet settled when the Steering
Group met in October 2017 “to tackle [the] question of one
versus multiple cloud providers,” Ubhi was put in charge
of convincing the Group to commit to a single award.
C.A. App. 160100. His presentation worked; a teammate
reported that “[s]ingle is assumed now,” adding: “Really glad
you [Ubhi] were here this week.” C.A. App. 160229. Two days
later, the Deputy Director agreed: “The single [vs.] multiple
conversation is done. Everyone that matters is now convinced.”
C.A. App. 160239. The Deputy Director identified the October
meeting as the moment when it became “decidedly clear that
we are all in favor of a single award.” Ibid. One week later, the
Deputy Secretary was informed of a “[g]eneral consensus” that
the agency “should press forward with a single provider
approach.” App. 47a.
Throughout this period, Ubhi secretly was in employment
negotiations with Amazon, the only major bidder that
supported a single-award approach. App. 48a, 69a-73a. Contrary
to policy, Pentagon officials failed to screen Ubhi for conflicts.
C.A. App. 123983-124126. Only after it became “decidedly
clear” that the single-award decision was sewn up did Ubhi
recuse himself from the JEDI Cloud project, falsely claiming

33
that Amazon was considering buying a company he owned.
App. 69a-70a. Ubhi then formally resigned to go work for
Amazon—roughly three weeks after the pivotal October
meeting. App. 73a.
No de novo review of these facts could conclude that Ubhi’s
conduct was immaterial to the single-award structure of JEDI.
Even if the contracting officer’s internal investigation could be
defended as sufficiently “rational” to survive arbitrary-andcapricious review, App. 27a, the materiality inquiry would have
come out differently had a court looked at the question with
fresh eyes (even assuming a court should be assessing
materiality at all).
4. Only this Court can correct the Federal Circuit’s handsoff approach to criminal conflicts of interest in government
contracting. That approach gives agencies something close to a
free pass when policing the misbehavior of their own officials:
Once a contracting officer declares that the procurement was
unaffected by the conflict—perhaps even based on the officer’s
“personal knowledge,” App. 73a n.9—the Federal Circuit will
leave that determination undisturbed if any “rational” basis
supports it, App. 27a. That dynamic creates perverse incentives
for contracting officers to whitewash their own mistakes.
This is no idle worry. Federal contracting is rife with
potential corruption, and nowhere is that truer than in defense
procurements. Each year, billions of dollars of governmental
contracts are tainted by the misconduct of agency personnel,
see Report on Defense Contracting Fraud, Office of the Under
Secretary of Defense for Acquisition and Sustainment 2-3 (Dec.
2018),5 many of whose crimes involve criminal conflicts of
interest, see, e.g., U.S. Navy Admiral Sentenced to Prison for
Lying to Federal Investigators about His Relationship with
5

https://bit.ly/3mODSap.

34
Foreign Defense Contractor in Massive Navy Bribery and
Fraud Investigation, Dep’t of Justice (May 17, 2017).6
Incentives matter: Courts, not agencies, must be the ones
policing criminal conflicts of interest.
CONCLUSION

The Court should grant the petition.
Respectfully submitted.
R. REEVES ANDERSON
ARNOLD & PORTER
KAYE SCHOLER LLP
1144 Fifteenth Street
Suite 3100
Denver, CO 80202
(303) 863-1000

JANUARY 2021

6

http://bit.ly/2WMcmQf.

ALLON KEDEM
Counsel of Record
CRAIG A. HOLMAN
SALLY L. PEI
SEAN A. MIRSKI
NATHANIEL E. CASTELLANO
ARNOLD & PORTER
KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
allon.kedem@arnoldporter.com

APPENDIX

1a
APPENDIX A

UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
Argued June 10, 2020 Decided September 2, 2020
No. 19-2326
ORACLE AMERICA, INC.,
PLAINTIFF-APPELLANT
v.
UNITED STATES, AMAZON WEB SERVICES, INC.,
DEFENDANT-APPELLEES
Appeal from the United States Court of Federal Claims
(No. 1:18-cv-01880)
CRAIG HOLMAN, Arnold & Porter Kaye Scholer LLP,
Washington, DC, argued for plaintiff-appellant. Also represented by KARA L. DANIELS, NATHANIEL EDWARD
CASTELLANO, AMANDA J. SHERWOOD.
WILLIAM PORTER RAYEL, Commercial Litigation
Branch, Civil Division, United States Department of Justice, Washington, DC, argued for defendant-appellee
United States. Also represented by ETHAN P. DAVIS,
ROBERT EDWARD KIRSCHMAN, JR., PATRICIA M. MCCARTHY.
DANIEL RUBEN FORMAN, Crowell & Moring, LLP,
Washington, DC, argued for defendant-appellee Amazon
Web Services, Inc. Also represented by ROBERT JOSEPH
SNECKENBERG, OLIVIA LOUISE LYNCH, ZACHARY H.
SCHROEDER; GABRIELLE TRUJILLO, Los Angeles, CA;
MARK ANDREW PERRY, Gibson, Dunn & Crutcher LLP,
Washington, DC.

2a
Before NEWMAN, BRYSON, and O’MALLEY, Circuit
Judges.
BRYSON, Circuit Judge.
This is a federal contract pre-award protest case. The
United States Court of Federal Claims (“the Claims
Court”) analyzed a number of legal challenges by Oracle
America, Inc., to a large Department of Defense procurement. After a thorough treatment of all the issues presented, the Claims Court rejected Oracle’s protest. Oracle
Am., Inc. v. United States, 144 Fed. Cl. 88 (2019). We affirm.
I
The procurement at issue in this case, known as the
Joint Enterprise Defense Infrastructure (“JEDI”) Cloud
procurement, is directed to the long-term provision of enterprise-wide cloud computing services to the Department of Defense. The JEDI Cloud solicitation contemplated a ten-year indefinite delivery, indefinite quantity
contract. The Defense Department decided to award the
contract to a single provider rather than making awards
to multiple providers.
The JEDI Cloud solicitation included several “gate”
provisions that prospective bidders would be required to
satisfy. One of the gate provisions, referred to as Gate Criteria 1.2 or Gate 1.2, required that the contractor have at
least three existing physical commercial cloud offering
data centers within the United States, each separated
from the others by at least 150 miles. Those data centers
were required to provide certain offerings that were
“FedRAMP Moderate Authorized” at the time of proposal. The Federal Risk and Authorization Management
Program (“FedRAMP”) is an approach to security assessment, authorization, and continuous monitoring for cloud
products and services. “FedRAMP Moderate Authorized” is a designation given to systems that have

3a
successfully completed the FedRAMP Moderate authorization process. FedRAMP Moderate is the Defense Department’s minimum security level for processing or storing the Department’s least sensitive information. Oracle
did not satisfy the FedRAMP Moderate Authorized requirement as of the time the proposals were to be submitted.
Oracle filed a pre-bid protest challenging the solicitation. Oracle’s protest focused on the Department’s adoption of Gate 1.2 and on the Department’s decision to conduct the procurement on a single-source basis, rather
than providing for multi-source contracts.
Following a hearing and briefing, the U.S. Government Accountability Office (“GAO”) denied the protest.
Oracle then filed suit in the Claims Court challenging the
solicitation. The court analyzed Oracle’s claims in detail
and rejected Oracle’s protest in a lengthy opinion.
The court first addressed Oracle’s claim that the contracting officer and the Under Secretary of Defense violated separate provisions of 10 U.S.C. § 2304a when they
each determined that it was appropriate to structure the
JEDI Cloud procurement on a single-award basis rather
than providing for multiple awards. Section 2304a sets out
the conditions under which the Department may enter
into large task and delivery order contracts with a single
awardee, as opposed to awarding such contracts to two or
more sources.
Section 2304a(d)(3) generally prohibits the award of a
task or delivery order contract in excess of $100 million1
to a single vendor unless the head of the agency determines in writing that one of four exceptions to that general prohibition applies. The exceptions are:

The statutorily defined threshold amount is subject to an inflation
adjustment requirement. See 41 U.S.C. § 1908.
1

4a
(i) the task or delivery orders expected under the contract are so integrally related that only a single source
can efficiently perform the work;
(ii) the contract provides only for firm, fixed price task
orders or delivery orders for—
(I)
products for which unit prices are established in the contract; or
(II) services for which prices are established in
the contract for the specific tasks to be performed;
(iii) only one source is qualified and capable of performing the work at a reasonable price to the government; or
(iv) because of exceptional circumstances, it is necessary in the public interest to award the contract to a
single source.
10 U.S.C. § 2304a(d)(3)(A).
In addition to that provision, section 2304a(d)(4) requires that regulations implementing section 2304a(d)
“establish a preference for awarding, to the maximum extent practicable, multiple task or delivery order contracts
for the same or similar services,” and that they “establish
criteria for determining when award of multiple task or
delivery order contracts would not be in the best interest
of the Federal Government.” 10 U.S.C. § 2304a(d)(4). Pursuant to that directive, the Federal Acquisition Regulation (“FAR”) provides that, except for indefinite-quantity
contracts for advisory and assistance services, “the contracting officer must, to the maximum extent practicable,
give preference to making multiple awards of indefinitequantity contracts under a single solicitation for the same
or similar supplies or services to two or more sources.” 48
C.F.R. § 16.504(c)(1)(i) (“FAR 16.504(c)(1)(i)”). The FAR
further provides, however, that the contracting officer
must not elect to use a multiple-contract award if one or
more of several conditions applies:

5a
(1) Only one contractor is capable of providing performance at the level of quality required because the
supplies or services are unique or highly specialized;
(2) Based on the contracting officer’s knowledge of the
market, more favorable terms and conditions, including pricing, will be provided if a single award is made;
(3) The expected cost of administration of multiple
contracts outweighs the expected benefits of making
multiple awards;
(4) The projected orders are so integrally related that
only a single contractor can reasonably perform the
work;
(5) The total estimated value of the contract is less
than the simplified acquisition threshold; or
(6) Multiple awards would not be in the best interests
of the Government.
FAR 16.504(c)(1)(ii)(B).2
The head of the agency—in this case, Under Secretary of Defense Ellen Lord—made a finding under section
2304a(d)(3)(B)(ii) that a single-source contract was permissible because the solicitation provides exclusively for
firm, fixed price task orders, or delivery orders for services for which prices are established in the contract for
the specific tasks to be performed. For her part, the contracting officer found that three of the reasons set forth in
FAR 16.504(c)(1)(ii)(B) prohibited the use of the multipleaward approach for the JEDI Cloud procurement: (1)
more favorable terms and conditions, including pricing,
would be provided in the case of a single award; (2) the
expected cost of administering multiple contracts
On August 3, 2020, the regulation was amended to replace the
phrase “less than” with “at or below.” Federal Acquisition Regulation: Evaluation Factors for Multiple-Award Contracts, 85 Fed. Reg.
40068-01 (July 2, 2020).
2

6a
outweighed the expected benefits of making multiple
awards; and (3) multiple awards would not be in the best
interests of the government.
Before the Claims Court, Oracle challenged the determinations of both the contracting officer and Under
Secretary Lord. As to the contracting officer, Oracle argued that she failed to properly balance the multipleaward preference against a single-award approach. As to
Under Secretary Lord, Oracle argued that the JEDI
Cloud solicitation contained provisions for future services
that were not specifically defined and for which specific
prices were not given. For that reason, Oracle contended,
the contract did not qualify as one providing only for firm,
fixed prices for services for which prices are established
in the contract for the specific tasks to be performed.
The Claims Court held that the contracting officer’s
determination complied with the requirements of section
2304a(d)(4) and FAR 16.504(c). The court concluded that
the contracting officer, based on her knowledge of the
market, “drew the reasonable conclusion that a single
award was more likely to result in favorable terms, including price.” Oracle, 144 Fed. Cl. at 113. In addition, the
court found that it was “completely reasonable” for the
contracting officer to find that a multisource award would
be more expensive to administer and that a single cloud
services provider would be best positioned to provide the
necessary security for the agency’s data. Id. The court
concluded that Oracle had pointed to no reason to disturb
the contracting officer’s determination that multiple
awards should not be employed.
With respect to section 2304a(d)(3), however, the
Claims Court reached a different conclusion. The court
held that the solicitation did not qualify for a single-source
award under the exception relied on by Under Secretary
Lord to the statutory prohibition against awarding large
task order contracts to a single vendor. Specifically, the

7a
court found that the solicitation contemplated that during
the life of the contract, services not envisioned at the time
of the initial award would likely be needed. New services
would likely have to be added to the contract in light of the
fact that cloud computing technology was constantly
evolving. The solicitation provided that if at some point
during the pendency of the contract the cloud services
provider created a new service, it would be required to offer that service to the Department at a price no higher
than the price publicly available in the commercial marketplace in the continental United States. The solicitation
also permitted the Department to obtain services before
they were offered on the commercial market, even if those
services would never be offered commercially. Those services, the court explained, could not be identified as “specific tasks” much less “priced[] at the time of the award.”
Oracle, 144 Fed. Cl. at 114. Accordingly, the court concluded, “the Under Secretary apparently chose an exception under § 2304a(d)(3) which does not fit the contract.”
Id. at 115.
The Claims Court then turned to the question
whether Oracle was prejudiced by the Department’s failure to comply with section 2304a(d)(3). Oracle argued that
if the Department had employed a multiple-award procurement, Oracle might have had the chance to compete,
because the agency’s needs, as expressed in the gate criteria, might have been different in that setting. The government responded that the agency’s minimum security
needs would not have changed in a multiple-award scenario. In a multiple-award procurement, according to the
government, the Department still would have insisted on
gate criteria in general and Gate 1.2 in particular.
The Claims Court agreed with the government. The
court acknowledged that “Oracle may well be correct that
some aspects of the gate criteria are driven by the
agency’s insistence on using a single provider to manage

8a
an immense amount of data.” Oracle, 144 Fed. Cl. at 115.
The court observed, however, that “one critical aspect of
the gate criteria is not connected to the choice of a single
provider: data security.” Id. The court pointed in particular to a memorandum prepared by Tim Van Name, Deputy Director of the Defense Digital Service. In that memorandum, Mr. Van Name stated that FedRAMP Moderate, which was incorporated as a requirement in Gate 1.2,
represented the Department’s minimum level of security
required for processing and storing the Department’s
least sensitive information. That level of security, according to Mr. Van Name’s memorandum, was “the minimum
criteria necessary for DoD to have confidence that the Offeror’s proposed data centers have met the underlying
physical security requirements necessary to successfully
perform the contract.” J.A. 100947.
In addition, the court noted that many of the acquisition documents “bolster the agency’s conviction that use
of multiple cloud service providers exponentially increases the challenge of securing data.” Oracle, 144 Fed.
Cl. at 116. The court explained that it had “no reason to
doubt” that the security requirements of Gate 1.2 “are the
minimum that will be necessary to perform even the least
sensitive aspects of the JEDI Cloud project.” Id. Based
on that evidence, the court stated that “the only logical
conclusion is that, if multiple awards were made, the security concerns would ratchet up, not down.” Id. Because
the agency’s security concerns would not change, the
court explained, Oracle “would not stand a better chance
of being awarded this contract if the agency determined
that the procurement must be changed to multiple
award.” Id. The court therefore concluded that the decision to proceed with the procurement on a single-source
basis did not prejudice Oracle.
The Claims Court next addressed Oracle’s claim that
Gate 1.2 was unenforceable, both because the agency did

9a
not have a demonstrated need to impose the requirements
set forth in Gate 1.2 and because Gate 1.2 is an impermissible “qualification requirement” imposed without satisfying the preconditions set forth in 10 U.S.C. § 2319. Section
2319(a) defines a “qualification requirement” as “a requirement for testing or other quality assurance demonstration that must be completed by an offeror before
award of a contract.” Section 2319(b) provides that, except
in limited circumstances, the agency must satisfy several
prerequisites before establishing a qualification requirement. One such prerequisite is that “the head of the
agency shall . . . prepare a written justification stating the
necessity for establishing the qualification requirement
and specify why the qualification requirement must be
demonstrated before contract award.” 10 U.S.C. §
2319(b)(1).
The Claims Court rejected both of Oracle’s arguments that Gate 1.2 was unenforceable. As to the issue of
need, the court agreed with the government that Gate 1.2
was tied to the agency’s minimum needs. The court referred to the memorandum from Mr. Van Name, one of
the principal architects of the solicitation requirement,
which justified imposing the FedRAMP Moderate Authorized requirement on the ground that FedRAMP Moderate represents the Department’s minimum security requirements for processing or storing the Department’s
least sensitive information. As noted, Mr. Van Name explained that FedRAMP Moderate was the minimum level
of security necessary for the Defense Department to have
confidence that the Offeror’s proposed data centers would
have been able to timely meet the physical security requirements needed to successfully perform the contract.
Based on the record evidence, the court found that the requirement to satisfy FedRAMP Moderate is “a useful
proxy . . . for the agency’s real need. If an offeror were
unable to meet the lower threshold, it could not hope to

10a
meet the higher” security requirements that would be required during the performance of the contract. Oracle,
144 Fed. Cl. at 117.
As for Oracle’s argument that the government improperly used Gate 1.2 as a “qualification requirement”
without satisfying the preconditions set forth in section
2319, the Claims Court ruled that Oracle had waived that
argument by not raising it before the bids were due. Oracle did not raise the argument about the impermissible
use of a qualification requirement until its post-hearing
comments submitted to the GAO after the close of the bidding on the procurement.
In any event, the court concluded that there was no
merit to the argument, because Gate 1.2 did not constitute
“a requirement for testing or other quality assurance
demonstration that must be completed by an offeror before award of a contract.” Id. (quoting 10 U.S.C. §
2319(a)). Instead, according to the Claims Court, Gate 1.2
constituted a specification. The statute describes a qualification requirement as generally consisting of “a qualified bidders list, qualified manufacturers list, or qualified
products list.” 10 U.S.C. § 2319(c)(3). A specification, by
contrast, is a requirement “of the particular project for
which the bids are sought, such as design requirements,
functional requirements, or performance requirements.”
W.G. Yates & Sons Constr. Co. v. Caldera, 192 F.3d 987,
994 (Fed. Cir. 1999) (citing 10 U.S.C. § 2305(a)(1)(C)).
The court concluded that Gate 1.2 is not a qualification requirement, because the agency did not require an
offeror to prequalify in order to submit a proposal. In addition, the court explained, FedRAMP Moderate authorization is not an independent requirement that the Department regularly imposes in its procurements. Finally, the
court pointed out that the security features that
FedRAMP Moderate authorization imposes are the same
security features that the Department believed were the

11a
minimum necessary to store the Department’s data for
the JEDI Cloud project. Accordingly, the court found, the
Department was not using the FedRAMP standard as a
way to examine the offeror’s past performance in storing
government data. Rather, “it [was] a uniform way to determine which offerors have certain security capabilities
on a number of their cloud offerings.” Oracle, 144 Fed. Cl.
at 118.
The Claims Court next rejected Oracle’s argument
that Gate 1.2 transformed the procurement into one that
uses other than competitive procedures, in violation of 10
U.S.C. § 2304. The court found that the agency structured
the procurement as a full and open competition, and that
satisfying the gate criteria was merely the first step in ensuring that the Department’s time in the evaluation process was not wasted on offerors who could not meet the
agency’s minimum needs.
Finally, the Claims Court examined Oracle’s claims
that several Department officials who were involved in
some way with the procurement had conflicts of interest,
and that Amazon Web Services, Inc., (“AWS”), one of the
bidders on the contract, had an organizational conflict, all
of which infected the procurement. The court addressed
the question whether the contracting officer had properly
assessed the impact of the conflicts on the procurement
and found that she had. The court then concluded that the
contracting officer had properly exercised her discretion
in finding that the individual and organizational conflicts
complained of by Oracle did not affect the integrity of the
procurement.
Based on the court’s determination that Gate 1.2 is
enforceable and Oracle’s concession that it could not meet
the requirements of Gate 1.2 at the time of proposal submission, the Claims Court found that Oracle could not
“demonstrate prejudice as a result of any other possible
errors.” Oracle, 144 Fed. Cl. at 126. The court therefore

12a
denied Oracle’s motion for judgment on the administrative record and granted the cross-motions filed by the
government and intervenor AWS. Oracle then took this
appeal.
II
Oracle’s principal argument on appeal is that the Defense Department committed legal error when it elected
to conduct the JEDI Cloud procurement as a singlesource procurement. Although the Claims Court agreed
with Oracle that the Department committed legal error
with respect to the ground it invoked to justify the use of
a single-source procurement, the court found the error to
be harmless. The court concluded that the error was
harmless because even if the Department had opted for a
multi-source procurement, Oracle would not have been
able to satisfy the requirements of Gate 1.2, which the Department would have imposed regardless of whether the
procurement was conducted on a single-source or multisource basis.
A
In challenging the Department’s decision to conduct
the JEDI Cloud procurement on a single-source basis,
Oracle begins by pointing out that Congress has expressed its preference for awarding, “to the maximum extent practicable, multiple task or delivery order contracts
for the same or similar services or property.”10 U.S.C. §
2304a(d)(4). Section 2304a(d) and the regulations issued
pursuant to that provision state that the contracting officer and the agency head must make certain specified determinations before the agency can proceed with a singlesource award in a large procurement such as this one. On
appeal, Oracle does not take issue with the Claims Court’s
finding that the contracting officer’s determination was
reasonable. And Oracle agrees with the Claims Court that
Under Secretary Lord’s rationale for approving the use of
a single-source award for the JEDI Cloud procurement

13a
did not satisfy the exception to section 2304a(d)(3) that
she invoked. Oracle takes issue, however, with the Claims
Court’s conclusion that Oracle was not prejudiced by Under Secretary Lord’s determination.
In response, the government endorses the Claims
Court’s “no-prejudice” ruling. In the alternative, the government argues that, apart from the merits of the court’s
prejudice analysis, we may still affirm because the Claims
Court incorrectly rejected Under Secretary Lord’s determination that a single-source award was justified under
section 2304a(d)(3). Under Secretary Lord based that determination on the exception set forth in section
2304a(d)(3)(B)(ii) for contracts that provide for “firm,
fixed price task orders or delivery orders” for services for
which “prices are established in the contract for the specific tasks to be performed.” The Claims Court, however,
held that the JEDI Cloud solicitation did not provide for
“firm, fixed price task orders” for which prices were established in the contract, because the solicitation contained provisions for the awardee to supply unspecified
services in the future at as-yet unspecified prices.
The government’s argument that the contract provides only for firm, fixed price task orders is unpersuasive
for the reasons given by the Claims Court. The JEDI
Cloud contract contains a technology refresh provision
(section H2) that allows the addition of new cloud services
during the period of contract performance, when those
services did not exist at the time of award, in order “to
keep pace with advancements in the industry.” Under that
clause, it is anticipated that there will be updates to the
cloud services during the pendency of the contract. Thus,
the solicitation provides that new services will be added,
with new prices, that are not provided for in the initial contract.
The government argues that the exception in section
2304a(d)(3)(B)(ii) applies here because the statute does

14a
not require that “all tasks/prices must be established ‘at
the time of the award.’” Rather, the government argues,
the requirement that tasks and prices be “established in
the contract” does not address when the “tasks and prices
upon which future orders will be based must be ‘established.’” It is enough, according to the government, that
new tasks and prices are set pursuant to the terms of the
contract, including section H2, and the subsequent task
orders are issued on a fixed-price basis.
The Claims Court properly rejected the government’s argument. As the court explained, the language of
section 2304a(d)(3) makes clear that the services to be
performed under the contract and the prices for those services must be established in the contract at the time of
award. That follows from the provision in the statute that
“no . . . contract . . . may be awarded” unless the agency
head determines that the “contract provides only for firm,
fixed price task orders or delivery orders for . . . services
for which prices are established in the contract.”10 U.S.C.
§ 2304a(d)(3). The plain language of the statute refers to
conditions that must exist at the time of the contract
award.
B
Having found that the statutory prerequisite for use
of a single-source contract had not been satisfied, the
Claims Court moved to the question whether that flaw in
the process prejudiced Oracle. The court found no prejudice from the error based on the court’s finding that the
agency’s minimum needs, as expressed in Gate 1.2, would
not have been different in a multi-award scenario than in
a single-award scenario. Therefore, the court concluded,
even if the agency had been required to conduct the procurement on a multiple-award basis, the requirements of
Gate 1.2 would have applied. And because Oracle would
not have been able to satisfy those requirements, it would

15a
have had no chance of a contract award, so the flaw in the
procurement process did not harm Oracle.
Oracle takes issue with the Claims Court’s harmless
error analysis. In particular, Oracle argues that the
Claims Court erred by accepting the government’s argument that under a multiple-award solicitation the Department would still have insisted on imposing Gate 1.2. That
decision, Oracle argues, was one that should have been
made by the agency. It was improper, according to Oracle,
for the court to decide that the agency would have insisted
on Gate 1.2 even if it had known that it was required to
use a multiple-award solicitation for the JEDI Cloud procurement. Citing SEC v. Chenery Corp., 318 U.S. 80
(1943), Oracle contends that the Claims Court should not
have “presume[d] how DoD would structure a multipleaward procurement as DoD must make that decision in
the first instance.” Appellant’s Br. 35–36.
The Supreme Court has referred to the Chenery doctrine as embodying a “‘foundational principle of administrative law’ that judicial review of agency action is limited
to ‘the grounds that the agency invoked when it took the
action.’” Dep’t of Homeland Sec. v. Regents of the Univ. of
Cal., 140 S. Ct. 1891, 1907 (2020) (quoting Michigan v.
EPA, 576 U.S. 743, 758 (2015)). In Chenery, the Supreme
Court explained the rationale for that rule:
If an order is valid only as a determination of policy
or judgment which the agency alone is authorized to
make and which it has not made, a judicial judgment
cannot be made to do service for an administrative
judgment. For purposes of affirming no less than reversing its orders, an appellate court cannot intrude
upon the domain which Congress has exclusively entrusted to an administrative agency.
318 U.S. at 88.

16a
The Chenery doctrine, however, does not invariably
require a remand to the agency whenever a court holds
that the agency’s action was based on legally improper
grounds. As the Supreme Court, this court, and other circuit courts have recognized, principles of harmless error
apply to judicial review of agency action generally. A remand is unnecessary when the error in question “clearly
had no bearing on the procedure used or the substance of
decision reached,” Mass. Trs. of E. Gas & Fuel Assocs. v.
United States, 377 U.S. 235, 248 (1964); if there is no reason to believe that the decision would have been different,
In re Watts, 354 F.3d 1362, 1370 (Fed. Cir. 2004); if it is
clear that the agency would have reached the same result,
Fleshman v. West, 138 F.3d 1429, 1433 (Fed. Cir. 1998); if
the result is “foreordained,” Bethlehem Steel Corp. v. Gorsuch, 742 F.2d 1028, 1036 (7th Cir. 1984); if the court is not
“in substantial doubt whether the administrative agency
would have made the same ultimate finding with the erroneous finding removed,” Kurzon v. U.S. Postal Serv., 539
F.2d 788, 796 (1st Cir. 1976); or where there is no “significant chance that but for the error, the agency might have
reached a different result,” NLRB v. Am. Geri-Care, Inc.,
697 F.2d 56, 64 (2d Cir. 1982).
As this court has summed up the rule, a court may
affirm the decision of an agency on a ground other than
the ground given by the agency, so long as it is clear that
the agency would have reached the same decision if it had
been aware that the ground it invoked was legally unavailable, or if the decision does not depend on making a finding of fact not previously made by the agency. See Ford
Motor Co. v. United States, 811 F.3d 1371, 1380 (Fed. Cir.
2016); Killip v. OPM, 991 F.2d 1564, 1568–69 (Fed. Cir.
1993); Ward v. Merit Sys. Prot. Bd., 981 F.2d 521, 528
(Fed. Cir. 1992).
In this case, the Claims Court found, based on the evidence in the administrative record, that the Defense

17a
Department would have stuck with Gate 1.2 even if it had
been required to conduct the procurement on a multipleaward basis. As the court explained:
[T]he only logical conclusion is that, if multiple
awards were made, the security concerns would
ratchet up, not down. They are, indeed, minimally
stated. If Oracle cannot meet Gate Criteria 1.2 as currently configured, it is thus not prejudiced by the decision to make a single award. The agency’s needs
would not change, so Oracle would not stand a better
chance of being awarded this contract if the agency
determined that the procurement must be changed to
[a] multiple award.
Oracle, 144 Fed. Cl. at 116.
This appeal is a review of a Claims Court decision on
an administrative record. We review a finding of prejudice
or no prejudice by the Claims Court in a trial on an administrative record under the clearly erroneous standard.
See Office Design Grp. v. United States, 951 F.3d 1366,
1374 (Fed. Cir. 2020); CliniComp Int’l, Inc. v. United
States, 904 F.3d 1353, 1359 (Fed. Cir. 2018); Diaz v.
United States, 853 F.3d 1355, 1359 (Fed. Cir. 2017); Bannum, Inc. v. United States, 404 F.3d 1346, 1354 (Fed. Cir.
2005). “To establish prejudicial error, a party must show
that “but for the error, it would have had a substantial
chance of securing the contract.” Labatt Food Serv., Inc.
v. United States, 577 F.3d 1375, 1378 (Fed. Cir. 2009).3 In
Oracle asserts that in pre-award protests, “nontrivial competitive
injury which can be redressed by judicial relief” establishes prejudice. Appellant’s Br. 33 (quoting Weeks Marine, Inc. v. United States,
575 F.3d 1352, 1361 (Fed. Cir. 2009)). In some pre-award cases, we
have used the “non-trivial competitive injury” test “because there is
an inadequate factual foundation for performing a ‘substantial
chance’ test.” Orion Tech., Inc. v. United States, 704 F.3d 1344, 1348
(Fed. Cir. 2013). In this case, however, there was an adequate factual
predicate to apply the “substantial chance” test.
3

18a
light of the Claims Court’s careful consideration of the
record evidence, the court’s conclusion that the Defense
Department would have included Gate 1.2 even if it had
modified the solicitation to allow for multiple awards, and
that Oracle therefore would not have had a substantial
chance of securing the contract, is not clearly erroneous.
We therefore will not disturb the Claims Court’s determination that the case did not need to be remanded to the
Defense Department for a further determination whether
a single-source award is appropriate.4
III
Oracle next argues that Gate 1.2 transformed the procurement into one that did not use competitive procedures.
Oracle further contends that the Defense Department was required to complete a mandatory justification
and approval process before using procedures other than
competitive procedures, such as Gate 1.2. According to
Oracle, the Defense Department failed to do so. The government responds that the Defense Department was not
required to engage in the justification and approval process because the JEDI Cloud procurement used competitive procedures. We agree with the government.
Section 2304 of Title 10 prohibits an agency from using “other than competitive procedures” in contracting,
except in certain limited circumstances. See 10 U.S.C. §
2304(c). Even in such circumstances, section 2304(f) further provides that the head of the agency generally “may
Oracle argues, inter alia, that a remand to the agency is justified
because Oracle now meets the FedRAMP Moderate Authorized
standard set forth in the solicitation and should be allowed to bid on
the contract based on its current qualifications. The issue before the
Claims Court and before us, however, is whether the agency committed prejudicial error in the solicitation as of the time that Oracle filed
its protest. Subsequent events are irrelevant to that inquiry.
4

19a
not award a contract using procedures other than competitive procedures unless . . . the contracting officer for the
contract justifies the use of such procedures in writing
and certifies the accuracy and completeness of the justification” and “the justification is approved.”
Oracle makes several arguments in support of its contention that the procurement used other than competitive
procedures. First, Oracle contends that the Department
knew that only two offerors, AWS and Microsoft, could
satisfy Gate 1.2 at the time the proposals were due. According to Oracle, the decision to adopt Gate 1.2 was
therefore equivalent to prohibiting any parties other than
AWS and Microsoft from bidding on the JEDI Cloud contract. Oracle adds that the evidence showed that the Department “devised the gated approach for the express
purpose of limiting the number of proposals received.”
Appellant’s Br. 41.
Oracle also relies on the regulations issued pursuant
to section 2304. In particular, Oracle relies on the regulation that provides that when there is “a reasonable basis
to conclude that the agency’s minimum needs can only be
satisfied by . . . a limited number of sources,” full and open
competition does not exist and the agency must follow the
justification and approval process. FAR 6.302-1(b)(1)(ii).
We see no error in the Claims Court’s rejection of Oracle’s arguments. Citing this court’s decision in National
Government Services, Inc. v. United States, 923 F.3d 977
(Fed. Cir. 2019), the Claims Court explained that a solicitation requirement is not necessarily objectionable simply
because the requirement has the effect of excluding certain offerors who cannot satisfy that requirement. The
Claims Court found that “[t]he few record statements Oracle highlights are insufficient to demonstrate” that the
Department was using “other than competitive procedures” in the JEDI Cloud procurement. Oracle, 144 Fed.
Cl. at 119. Rather, the court explained, the Department

20a
“structured this procurement to use full and open competition and the gate criteria are just the first step in the
evaluation of proposals.” Id. The court added that the use
of the gate criteria could have occurred at any point in the
evaluation of the proposals; “the agency simply put the
gate criteria first to ensure its evaluation was not wasted
on offerors who could not meet the agency’s minimum
needs.” Id.
As the Claims Court explained, “evaluation criteria
which have the effect of limiting competition do not necessarily trigger the procedures required by § 2304(c).” Id.
“Full and open competition . . . means that all responsible
sources are permitted to submit sealed bids or competitive proposals on the procurement.” 41 U.S.C. § 107; 10
U.S.C. § 2302(3)(D). Even if the agency expected that only
certain firms would be able to satisfy the agency’s minimum needs, the solicitation permitted all responsible
sources to submit proposals. Under these circumstances,
we agree with the Claims Court that the FedRAMP Moderate authorization component of Gate 1.2 did not transform the solicitation into one for less than full and open
competition.
Nor did the Department violate FAR 6.302-1. That
regulation is one of several “authorities” that “permit contracting without providing for full and open competition.”
FAR 6.302. In this case, the Department did not prohibit
any responsible sources from submitting proposals, so the
Department did not need to invoke section 6.302-1 as authority to contract without providing for full and open
competition.
IV
Oracle next argues that Gate 1.2 violated 10 U.S.C. §
2319, which requires, inter alia, a written justification
when the Defense Department imposes a “qualification
requirement” in a solicitation. Section 2319(a) defines a
“qualification requirement” as a “requirement for testing

21a
or other quality assurance demonstration that must be
completed by an offeror before award of a contract.” Oracle contends that Gate 1.2 constituted a qualification requirement, as that term has been interpreted, and that
because there was no advance written justification for
that requirement, Gate 1.2 is unenforceable.
The Claims Court held that Oracle waived the section
2319 argument by not raising it on a timely basis. The
court also held that even if the argument had been timely
raised, it failed on the merits, because Gate 1.2 is not a
“qualification requirement” within the meaning of that
term in section 2319.
The Claims Court correctly held that Gate 1.2 does
not constitute a “qualification requirement” within the
meaning of section 2319.5 “An essential step in every procurement involves a determination that the potential contractor is qualified to serve as a Government contractor.”
J. Cibinic, Jr. & R. Nash, Jr., Formation of Government
Contracts 403 (3d ed. 1998). That determination requires
consideration of whether the firm can be expected to complete the contract work on time and in a satisfactory manner. Id. In an individual procurement, the government
uses “nonresponsibility” determinations to avoid awarding contracts to unqualified firms. Id. Although the government is required to make a determination of responsibility in every case, see 10 U.S.C. 2305(b)(4)(C); FAR
9.103, we do not think that Congress intended to impose
the obligations enumerated in section 2319 on every government procurement.
Instead, as this court has explained, section 2319
draws a line between extraneous “qualification
Because we agree with the Claims Court that Gate1.2 is not a “qualification requirement,” we do not reach the issue of whether the
Claims Court correctly held that Oracle waived its section 2319 argument.
5

22a
requirements,” such as a qualified manufacturers list, and
requirements that are intrinsic to the particular solicitation, such as requirements that are directed to ensure that
the contractor will be able to satisfy the requirements of
that solicitation. In W.G. Yates & Sons Construction Co.
v. Caldera, 192 F.3d 987 (Fed. Cir. 1999), the case on
which Oracle principally relies, this court held that a particular prerequisite fell on the “extraneous requirement”
side of that line. There, a solicitation for the production of
aircraft hangar doors required that the manufacturer either be prequalified or have previously made similar
products. We held that those requirements constituted
qualification requirements because they were not directly
tied to the needs of the procurement.
Unlike the requirements in the Yates case, the agency
in this case used Gate 1.2 in a way that did not implicate
section 2319. Gate 1.2 is analogous to an “intrinsic” requirement in, for example, a contract for emergency military air transport services that the bidding companies
have a minimum number of certified pilots available at the
time proposals are submitted. Such a requirement would
ensure that the company would be ready to proceed on
day one of the contract and would not have to hire or train
pilots. Gate 1.2 serves a similar purpose in the JEDI
Cloud solicitation. In particular, the Department was
evaluating whether the actual data centers that would or
could be used to provide cloud services would be able to
meet the agency’s minimum security needs on the proposed schedule. As Mr. Van Name’s memorandum explained, the agency believed that if an offeror could not
satisfy the security requirements represented by
FedRAMP Moderate at the time of proposal, that offeror
would not be able to satisfy the more stringent security

23a
requirements the offeror would be required to meet
shortly after award.6
That is a standard type of responsibility determination that contracting officers regularly make. See FAR
9.104-1 (“To be determined responsible, a prospective
contractor must . . . [b]e able to comply with the required
or proposed delivery or performance schedule . . . [and]
[h]ave the necessary production, construction, and technical equipment and facilities, or the ability to obtain
them”); 50 State Sec. Serv., Inc., Comp. Gen. Dec. B272114, 96-2 CPD ¶ 123 (Sept. 24, 1996) (upholding contracting officer’s determination that the protestor did not
have the ability to have a sufficient number of prison
guards in place when performance of the contract was set
to begin); Sys. Dev. Corp., Comp. Gen. Dec. B-212624, 832 CPD ¶ 644 (Dec. 5, 1983) (upholding nonresponsibility
determination based on the agency’s conclusion that the
protestor would not be able to comply with the proposed
delivery schedule because the protestor had not yet secured “confirmation of supplier’s and subcontractor’s
commitments to deliver items and equipment with long
lead-times”). And in this case, because Gate 1.2 did not relate to an extraneous quality assurance demonstration,
such as the successful completion of other related projects, the responsibility determination did not implicate
section 2319.
V
Oracle next contends that Gate 1.2 was unreasonable
in light of the Defense Department’s needs, and that the
Under the solicitation, the awardee would be required, shortly after
the award, to meet a modified version of the FedRAMP High security
requirements, sometimes referred to in the record as “FedRAMP
High Plus.” According to Mr. Van Name’s testimony, there are “325
requirements that FedRAMP Moderate covers, and there is a difference of about 145 to get to FedRAMP High. But a few of those, we’ve
granted exemptions to . . . .” J.A. 105496.
6

24a
solicitation should be invalidated on the ground that it unnecessarily restricted competition. The Claims Court analyzed at some length the Department’s needs as the Department assessed them and found that the gating requirements, including Gate 1.2, were reasonable in light
of that context. For that reason, the court found that the
solicitation requirements did not unduly restrict competition.
Oracle has not provided a sufficient basis for overturning the Claims Court’s determination on that issue.
As the Claims Court observed, an agency’s assessment of
its needs in a procurement should not readily be secondguessed by a court. We are even more removed from a
detailed assessment of the needs of the procurement than
the Claims Court and therefore are even more hesitant to
override the agency’s judgment as to its needs. Oracle has
not shown that the Department’s determination as to its
need for a level of security represented by Gate 1.2 was
unreasonable; that clause of the solicitation therefore cannot be rejected as unnecessarily restrictive of competition.
VI
In the final section of its brief, Oracle contends that
conflicts of interest on the part of three former Defense
Department employees tainted the procurement in a way
that requires that the solicitation be set aside. When the
claimed conflicts surfaced, the contracting officer conducted a detailed investigation and made findings as to
the conflicts and their effects on the procurement. She determined that although there were conflicts of interest on
the part of two of the employees, those conflicts and the
asserted conflict on the part of the third employee did not
have any effect on the procurement. After reviewing the
contracting officer’s findings, the Claims Court concluded
that the contracting officer’s investigation was thorough
and her “no effect” determination was reasonable.

25a
A
Oracle raises a number of challenges to the Claims
Court’s ruling with respect to the conflicts of interest. At
the outset, Oracle argues that the Supreme Court’s decision in United States v. Mississippi Valley Generating
Co., 364 U.S. 520 (1961), sets forth a per se rule that conflicts of interest that violate the federal criminal conflictof-interest statute, 18 U.S.C. § 208, invalidate any government contracts to which the conflicts relate. Based on that
interpretation of the Mississippi Valley case, Oracle argues that the conflicts of interest on the part of the former
Defense Department employees invalidate the JEDI
Cloud solicitation regardless of whether their conflicts
had any effect on the solicitation.
Contrary to Oracle’s contention, the Mississippi Valley case is best read as providing that conflicts of interest
invalidate government contracts only if the conflicts materially affect the contracts. That is the way this court
read the Mississippi Valley case in Godley v. United
States, 5 F.3d 1473 (Fed. Cir. 1993). In that case, we noted
that the illegality in the Mississippi Valley case “permeated the contract.” Id. at 1475–76 (citing Mississippi Valley, 364 U.S. at 553). We then went on to explain:
A contract without the taint of fraud or wrongdoing,
however, does not fall within this rule. Illegal acts by
a Government contracting agent do not alone taint a
contract and invoke the void ab initio rule. Rather,
the record must show some causal link between the
illegality and the contract provisions. Determining
whether illegality taints a contract involves questions
of fact.
Id. at 1476; see also Long Island Sav. Bank, FSB v.
United States, 503 F.3d 1234, 1250 (Fed. Cir. 2007) (“In
Godley, we emphasized that for a government contract to
be tainted by fraud or wrong doing and thus void ab initio,

26a
the record must show some causal link between the fraud
and the contract.”).
We are bound by that ruling interpreting the Mississippi Valley case, and we therefore reject Oracle’s argument that the conflicts of interest in this case invalidate
the solicitation regardless of whether they had any effect
on the procurement.
B
The Claims Court separately addressed each of the
individual conflicts of interest as well as related allegations of an organizational conflict of interest on the part of
AWS. The court noted that under the FAR, a contracting
officer who receives information about a conflict of interest on the part of persons involved in a procurement
“must determine if the reported violation or possible violation has any impact on the pending award or selection of
the contractor.” Oracle, 144 Fed. Cl. at 121 (quoting FAR
3.104-7(a)). If the contracting officer determines that
there is no impact on the procurement, the contracting officer must forward the information to a designated individual within the agency, and if that individual agrees with
the contracting officer, the procurement may proceed. Id.
The contracting officer for the JEDI Cloud project
reviewed each of the alleged conflicts of interest and
found that while some of the conduct in question was improper, none of the activities by the individuals in question
affected the solicitation, and in particular that none of
those activities affected the decision to employ a singleaward approach or the use of the gating requirements for
the procurement. A designated Department official concurred in the contracting officer’s findings in each instance.
The standard for Claims Court review of a contracting officer’s decision with regard to a conflict of interest is
highly deferential. A contracting officer’s conflict of

27a
interest determination will be upheld unless it is “arbitrary, capricious, or otherwise contrary to law.” PAI
Corp. v. United States, 614 F.3d 1347, 1352 (Fed. Cir.
2010). If the contracting officer’s findings are rational,
they will be upheld on judicial review. See Turner Constr.
Co. v. United States, 645 F.3d 1377, 1383–87 (Fed. Cir.
2011).
The Claims Court upheld the contracting officer’s
conclusion that the alleged conflicts on the part of the
three Defense Department employees had no impact on
the procurement. Specifically, the court ruled that the
contracting officer was correct in concluding that the
three individuals “were bit players in the JEDI Cloud project,” in that none of them held responsible positions with
regard to the procurement. Oracle, 144 Fed. Cl. at 121.
Based on its analysis, the court concluded that “[w]hile
they should not have had the opportunity to work on the
JEDI Cloud procurement at all, or at least for certain periods of time, nevertheless, their involvement does not
taint the work of many other persons who had the real
control of the direction of the JEDI Cloud project.” Id.
The three former Defense Department employees
whose conduct is at issue are Deap Ubhi, Anthony DeMartino, and Victor Gavin. Oracle challenges the Claims
Court’s conclusions as to the conflict of interest claims
with respect to all three employees. Specifically, Oracle
contends that the conflicted employees influenced the
procurement by affecting the decision to use a single
award and the selection of the gate criteria. While we
share the views of the contracting officer and the Claims
Court that some of the conduct at issue is troubling, at the
end of the day we agree with the Claims Court that the
conflict of interest problems of those three individuals had
no effect on the JEDI Cloud solicitation.
The Claims Court, like the contracting officer, concluded that at least two of the Department officials, Mr.

28a
Ubhi and Mr. Gavin, disregarded their ethical obligations
by negotiating with AWS for employment while working
on the procurement. The court added that the Department, because of “lax oversight, or in the case of Ubhi, deception . . . was apparently unaware of this fact.” Id. at
120. As the Claims Court explained, however, the question
before it was “whether any of the actions called out make
a difference to the outcome,” and in particular, whether
the contracting officer’s conclusion of no impact was reasonable. Id. As to that issue, the court found that the contracting officer conducted a detailed examination of the
record, that her work was “thorough and even-handed,”
that she “understood the legal and factual questions and
considered the relevant evidence,” and that she “determined that, although there were some violations or possible violations of law relating to conflicts of interest, those
conflicted individuals did not impact the decision to use a
single award approach or the substance of the evaluation
factors.” Id. at 120–21.
1
Mr. Ubhi was employed by AWS until January 2016.
After a period of time working for the Defense Department between August 2016 and November 2017, he returned to AWS. The contracting officer found that during
Mr. Ubhi’s tenure in the Department, he was involved in
marketing research activities for the JEDI Cloud procurement and that he participated in drafting and editing
some of the first documents shaping the procurement.
In October 2017, Mr. Ubhi advised the Department
that a company he had founded might be engaging in discussions with Amazon, the owners of AWS, and that he
was recusing himself from further involvement in the
JEDI Cloud procurement. The contracting officer subsequently concluded that Mr. Ubhi’s involvement in the procurement did not materially impact the procurement, for
several reasons: the restrictions on his involvement based

29a
on his prior employment had expired by the time he began
working on the procurement; his participation in the procurement was limited; and he promptly recused himself
when the potential conflict arose.
It was later determined that the reason Mr. Ubhi
gave for his recusal was false, and that instead he was negotiating for employment with AWS during the period before his recusal. When that fact came to light, the contracting officer reassessed the impact of Mr. Ubhi’s actions in light of the new information. While the contracting officer found that Mr. Ubhi’s behavior was troubling,
she again determined that Mr. Ubhi’s conflict of interest
had not tainted the JEDI Cloud procurement.
The Claims Court agreed with the contracting officer
that Mr. Ubhi’s behavior was troubling. The court agreed
with the contracting officer that despite being aware of his
ethical obligations, Mr. Ubhi ignored them and remained
involved in the procurement when he should not have
been.
The situation with respect to Mr. Ubhi is more complex than is the case for the other alleged conflicts of interest. As the contracting officer recognized, his behavior
was “disconcerting,” as he was aware of his ethical obligations, but “ignored them.” Oracle, 144 Fed. Cl. at 122. The
contracting officer concluded that Mr. Ubhi had violated
FAR 3.101-1 and possibly other statutory and regulatory
provisions governing conflicts of interest, including 18
U.S.C. § 208. Nonetheless, the contracting officer and the
Claims Court noted that when Mr. Ubhi returned to AWS,
he did not work on the JEDI Cloud proposal team or in
AWS’s Federal Business Sector or its DoD Programs section.
Moreover, the contracting officer found no evidence
that Mr. Ubhi had shared any information with the team
at AWS that was working on the JEDI Cloud procurement. The court found that the contracting officer’s

30a
investigation in that regard was thorough and that there
was no reason to disturb it.
The contracting officer also found that even if Mr.
Ubhi had disclosed nonpublic information to AWS, none
of it would have been competitively useful. And she found
that his seven-week period of work on the preliminary
planning stage of the JEDI Cloud procurement did not
introduce bias in favor of AWS. The Claims Court found
the contracting officer’s conclusions on those issues to be
supported by the record. The Claims Court, moreover,
found that Mr. Ubhi’s primary role was industry liaison;
the record did not “warrant attributing to him any serious
involvement in the technical or security aspects of the
gate criteria.” Oracle, 144 Fed. Cl. at 123.
Based on its review of the record, the Claims Court
found that the contracting officer correctly concluded that
although Mr. Ubhi should not have worked on the JEDI
Cloud procurement, his involvement did not affect the
procurement in any material way. With regard to the decision whether to use a single award or multiple awards,
the Claims Court noted that the Defense Department’s
Cloud Executive Steering Group (of which Mr. Ubhi was
not a member) expressed a preference for a single-award
approach early on in the process, before Mr. Ubhi’s involvement. Yet even after Mr. Ubhi left the Department,
“the Deputy Secretary remained unconvinced regarding
which approach to use,” and the contracting officer recalled that as of April 2018, long after Mr. Ubhi was gone,
“the single award decision was still being vigorously debated.” Oracle, 144 Fed. Cl. at 123–24. Thus, the contracting officer concluded that Mr. Ubhi had no effect on the
decision to use a single-award approach or the fashioning
of the gate criteria. The Claims Court sustained that judgment.
Oracle first argues that the contracting officer “failed
to consider an important aspect of the problem” because

31a
she did not wait for the results of the Department of Defense inspector general’s investigation of the conflict of interest allegations with respect to Mr. Ubhi as well as Mr.
Gavin. That contention is meritless. The contracting officer found that Mr. Ubhi and Mr. Gavin had conflicts of
interest that violated federal regulations and possibly section 208. Neither the contracting officer nor the Claims
Court needed the results of the inspector general’s investigation to confirm whether Mr. Ubhi and Mr. Gavin had
acted improperly.7 The critical question for the
In April 2020, the Department of Defense Office of Inspector General (“OIG”) issued a report detailing its extensive review of the JEDI
Cloud procurement, including its conclusions regarding Mr. Ubhi’s
and Mr. Gavin’s alleged ethical violations and the impact of those violations on the procurement. With respect to Mr. Ubhi, the OIG
reached the following conclusion:
7

In sum, we concluded that Mr. Ubhi engaged in unethical conduct
when he made three false statements and failed to properly report
financial interests in Amazon. These actions, combined with his involvement in early Cloud Initiative activities in September and October 2017, also created the appearance of violation of laws and ethical standards. However, his early involvement in the Cloud Initiative was not substantial and did not provide any advantage to his
prospective employer, Amazon, in the JEDI Cloud contract competition, which was decided 2 years after Mr. Ubhi’s resignation
from the DoD. Although Mr. Ubhi’s Cloud actions from September
through October 2017 violated the JER and the FAR, his minimal
and limited contributions were largely discarded and did not affect
the conduct or outcome of the JEDI Cloud procurement.
Dep’t of Def. Off. of Inspector Gen., Rep. on the Joint Enterprise Def.
Infrastructure (JEDI) Cloud Procurement 157 (Apr. 13, 2020). The
OIG also noted that it presented its findings regarding Mr. Ubhi to
the United States Attorney for the Eastern District of Virginia for
consideration as a criminal matter, but prosecution was declined. Id.
at 154. With respect to Mr. Gavin, the OIG reached the following conclusion:
In sum, we concluded that Mr. Gavin should have used better judgment by not attending the April 5, 2018, JEDI Cloud Acquisition
strategy meeting after he had accepted a job with AWS, or by

32a
contracting officer and the Claims Court was whether
their improper conduct had impacted the procurement in
a way that required the solicitation to be set aside. On that
issue, the contracting officer’s investigation, which the
Claims Court held to be thorough and even-handed, was
sufficient.
Second, Oracle argues that the Claims Court improperly upheld the contracting officer’s determination with
respect to the impact of Mr. Ubhi’s conflict of interest on
a ground different from that adopted by the contracting
officer. According to Oracle, the Claims Court held, in effect, that Mr. Ubhi’s involvement in the JEDI Cloud procurement occurred too late to influence the single-award
decision, while the contracting officer concluded that Mr.
Ubhi’s involvement in the procurement occurred too
early, i.e., before the final decisions were made as to
whether to award one or multiple contracts.
That is too facile a characterization of the ground for
the Claims Court’s decision. The court recognized that, as
the contracting officer found, the decision whether to use
a single award or multiple awards was not made until long
after Mr. Ubhi left the Defense Department. In fact, the
Claims Court cited the contracting officer’s remark that
she had attended a meeting in April 2018, well after Mr.
Ubhi’s departure, in which the issue was “still being vigorously debated.” Oracle, 144 Fed. Cl. at 124. Yet, as the
court noted, the record also showed that at a September
2017 meeting of the Cloud Executive Steering Group, of
which Mr. Ubhi was not a member, the group expressed a
preference for a single award. The Claims Court’s point
sending someone else in his place, to avoid the appearance of a conflict. However, he did not violate ethical standards by following the
ethics advice he received, and his participation in the meeting did
not affect the JEDI Cloud procurement.
Id. at 166.

33a
was that there was an expressed preference among the
decisionmakers for a single award approach from prior to
the time Mr. Ubhi was involved in the procurement, but
the debate on that issue continued until after he was gone.
And a final decision was not made until months after his
departure. Under those circumstances, the contracting
officer and the Claims Court agreed, there was no indication that Mr. Ubhi’s brief seven-week involvement in the
procurement materially affected the decision to use a single-award approach.
Oracle next contends that the Ubhi no-impact determination “runs counter to the evidence before the
agency.” There is no force to this argument. Oracle’s contention that Mr. Ubhi “deliberately, systematically, and
successfully influenced individuals to adopt the singleaward approach” far outruns the limited evidence Oracle
cites to support it. First, Oracle cites two separate instant
messages in which a Department attorney told Mr. Ubhi,
“Single is assumed now,” and added, “Really glad you
were here this week.” That is not evidence that Mr. Ubhi’s
support for a single-award approach was important to the
decision. Moreover, as the contracting officer found, the
evidence shows that the issue of single-versus-multiple
contract awards was debated long after Mr. Ubhi’s departure from the agency, contrary to the implication in the
instant message. Second, Oracle cites an instant message
from Mr. Van Name in which he stated: “The single [vs.]
multiple conversation is done. Everyone that matters is
now convinced; Thursday’s meeting was decidedly clear
that we are all in favor of a single award.” That message,
however, does not remotely suggest that Mr. Ubhi’s preference for a single-award approach was important to, or
otherwise materially affected, the decisionmakers’ selection.
Oracle next argues that the contracting officer was
wrong to state that there was no evidence that Mr. Ubhi’s

34a
participation “had any substantive impact on the procurement decisions or documents,” because there was evidence that Mr. Ubhi “edited material in October 2017”
that the Department ultimately included in the solicitation. But the contracting officer reviewed Mr. Ubhi’s “edits” in detail, and concluded that Mr. Ubhi’s “influence and
direct edits to the documents were minimal.” The contracting officer estimated that Mr. Ubhi contributed an
estimated 100 changes to the Problem Statement, “ranging in significance from formatting and grammar to revision of sentences and paragraphs,” which were made as
part of a group effort. In addition, the contracting officer
noted, Mr. Ubhi’s participation “contributed a total of
eight (8) edits to the [request for information], all of which
were contained within two sentences.” Contrary to Oracle’s contention, the evidence amply supports the contracting officer’s conclusion that Mr. Ubhi did not materially impact the solicitation, particularly with respect to
the single-award approach and the gating requirements.
On a separate issue, Oracle briefly contends that the
contracting officer was wrong to find that there was “no
evidence that . . . [Mr.] Ubhi obtained or disclosed any
competitively useful nonpublic information.” In fact, Oracle argues, Mr. Ubhi had access to sensitive information,
including the JEDI Cloud team’s Google drive, which he
had on his computer. The contracting officer, however,
found that Mr. Ubhi did not share any competitively useful nonpublic information with AWS and was not in a position to do so. The contracting officer noted that when
Mr. Ubhi was rehired by AWS, he did not join AWS’s
JEDI Cloud proposal team, but joined the commercial
team that was not involved in government contracts.
Moreover, Mr. Ubhi was subject to firewalls within AWS,
and the contracting officer reviewed numerous affidavits
from AWS employees stating that he had not disclosed
nonpublic information and that he was excluded from any

35a
involvement with AWS’s JEDI Cloud proposal. In light of
the deferential standard of review for contracting officers’
findings regarding conflicts of interest, the finding that
Mr. Ubhi did not share sensitive information with AWS
must be sustained.
2
Mr. DeMartino was a consultant for AWS before joining the Defense Department and therefore was prohibited by applicable ethics rules from participating in matters involving AWS throughout his tenure at the Department. At the Department he occupied two positions at different times: Deputy Chief of Staff for the Secretary of
Defense and Chief of Staff for the Deputy Secretary. In
the course of his duties, Mr. DeMartino had limited involvement in the JEDI Cloud procurement. The contracting officer characterized Mr. DeMartino’s involvement in
the procurement as “ministerial and perfunctory” and
noted that he “provided no input into the JEDI Cloud acquisition documents.” The contracting officer noted that
the Department’s Standards of Conduct Office had determined that “Mr. DeMartino’s involvement in ministerial/administrative actions (such as scheduling meetings,
editing/drafting public relations,[] etc.) did not constitute
participating in the JEDI Cloud acquisition itself,” and
that Mr. DeMartino therefore was not in violation of the
applicable ethical standards. However, in light of the high
visibility of the procurement and in an abundance of caution Mr. DeMartino was advised that he should consider
recusing himself from even ministerial and administrative
matters related to the JEDI Cloud procurement, and he
did so. In light of Mr. DeMartino’s limited role, the contracting officer concluded that his activities “did not negatively impact the integrity” of the procurement.
The Claims Court upheld that determination, finding
that none of the facts in the case contradicted the contracting officer’s determination that Mr. DeMartino’s

36a
involvement with the JEDI Cloud project had no substantive impact on the procurement. According to the court,
the contracting officer rationally determined that Mr. DeMartino “was merely a go-between for the Deputy Secretary and did not have substantive input into the structure
or content of the solicitation.” Oracle, 144 Fed. Cl. at 121.
The court found that Mr. DeMartino “did not have a voice
in whether DoD should use a single or multiple award approach and did not craft the substance of the evaluation
factors.” Id.
Oracle contends that the contracting officer failed to
consider an important aspect of the problem and that her
conclusions were contrary to the evidence. Oracle points
to various communications among Department officials,
including Mr. DeMartino, and a draft public statement relating to the JEDI Cloud procurement that Mr. DeMartino participated in editing. The evidence cited by Oracle
does not establish that Mr. DeMartino was significantly
involved in crafting the substance of the procurement.8
We conclude that the record supports the contracting officer’s finding, upheld by the Claims Court, that Mr. DeMartino’s role in the procurement was limited, largely
nonsubstantive, and did not significantly impact the procurement.

Many of the record excerpts cited by Oracle are so cryptic as to be
of no value in supporting Oracle’s contention that Mr. DeMartino was
significantly involved in the substantive work of crafting the solicitation. Moreover, the list of 72 persons who the Department said were
“personally and substantially” involved in the JEDI Cloud procurement between September 2017 and August 2018 did not include Mr.
DeMartino’s name. Oracle’s suggestion that the inclusion of the name
of the Deputy Secretary of Defense must have implicitly included Mr.
DeMartino is entirely speculative, particularly because Mr. DeMartino was recused from involvement in the JEDI Cloud procurement
after April 2018.
8

37a
3
During the procurement, Mr. Gavin was a Deputy Assistant Secretary of the Navy. Between August 2017 and
January 2018, he discussed retirement plans with an AWS
recruiter. In October 2017, he attended a meeting of the
Cloud Executive Steering Group, which was planning the
JEDI Cloud procurement, to share the Navy’s experience
with cloud services. In January 2018, he submitted a Request for Disqualification from Duties, asking that he be
excluded from matters affecting the financial interests of
AWS. Later that month, he interviewed with AWS, and
on March 29, 2018, he was offered a position with AWS,
which he later accepted. On April 5, 2018, Mr. Gavin attended a meeting at which the attendees discussed the
Draft Acquisition Strategy for the JEDI Cloud procurement. The contracting officer attended the same meeting
and recalled that Mr. Gavin did not advocate for any particular vendor but instead advocated for a multiple-award
approach.
After beginning his employment with AWS, Mr.
Gavin was instructed by AWS that he was subject to an
information firewall that prohibited him from disclosing
any nonpublic information about the JEDI Cloud procurement to anyone at AWS. He agreed to comply with
the firewall requirement.
Following her investigation of the conflicts of interest
involving the JEDI Cloud procurement, the contracting
officer concluded that Mr. Gavin had violated FAR 3.101
and possibly 18 U.S.C. § 208. But the contracting officer
found that Mr. Gavin’s involvement in the JEDI Cloud
project did not taint the procurement. In particular, the
contracting officer found that Mr. Gavin had limited access to the Draft Acquisition Strategy, did not furnish any
input to that document, did not introduce bias into any of
the meetings that he attended, and did not disclose any
competitively useful information to AWS. Although Mr.

38a
Gavin spoke with one member of the AWS JEDI Cloud
proposal team before the firewall was instituted, that
member and Mr. Gavin represented that Mr. Gavin had
not disclosed any nonpublic information about the JEDI
Cloud procurement.
The Claims Court found that the contracting officer’s
conclusions regarding Mr. Gavin were “well-supported.”
Oracle, 144 Fed. Cl. at 121. In particular, the court concluded that the record supported the contracting officer’s
findings that Mr. Gavin was involved in the procurement
“only to offer his knowledge of the Navy’s cloud services
experience,” and was not a member of any team that was
working on the JEDI Cloud procurement. Id. at 121–22.
The court noted that Mr. Gavin did not “assist in crafting
the single award determinations or the technical substance of the evaluation factors.” Id. at 122. At most, the
court concluded, Mr. Gavin “attended a few JEDI Cloud
meetings.” Id. Moreover, the court added, Mr. Gavin did
not appear to have obtained any contractor bid or proposal information, nor did he appear to have introduced
any bias toward AWS in the meetings he attended. Id.
The court agreed with the contracting officer that Mr.
Gavin had acted improperly in having a conversation with
an AWS employee about the JEDI Cloud procurement after Mr. Gavin began working for AWS. The court found,
however, that the contracting officer had “reasonably determined that Mr. Gavin simply did not have access to
competitively useful information to convey to AWS.” Id.
at 122.
Oracle argues that the Claims Court’s statement that
Mr. Gavin did not have access to competitively useful information to convey to AWS is contrary to the contracting
officer’s findings that Mr. Gavin had access to the draft
Acquisition Strategy in April 2018. That draft Acquisition
Strategy, according to the contracting officer, contained
nonpublic information that could be competitively useful.

39a
The Claims Court observed, however, that by the time
Mr. Gavin began working at AWS, the draft request for
proposals had been released. The draft request for proposals, the court explained, provided AWS “access to the
relevant information that also appeared in the draft Acquisition Strategy.” Id. The court’s observation that the
information in the draft Acquisition Strategy had become
public by the time Mr. Gavin began working for AWS thus
provided support for the contracting officer’s finding that
Mr. Gavin did not disclose any competitively useful nonpublic information to AWS; it did not reflect a conflict between the findings of the contracting officer and the decision of the Claims Court.
In sum, notwithstanding the extensive array of claims
raised by Oracle, we find no reversible error in the Claims
Court’s decision.
AFFIRMED.

40a
APPENDIX B

UNITED STATES COURT OF FEDERAL CLAIMS
Filed July 19, 2019 Re-Filed July 26, 20191
No. 18-1880C
ORACLE AMERICA, INC.,
PLAINTIFF
v.
UNITED STATES,
DEFENDANT
AND

AMAZON WEB SERVICES, INC.,
INTERVENOR
Appeal from the United States Court of Federal Claims
(No. 1:18-cv-01880)
Craig A. Holman, Washington, DC, for plaintiff.
Kara L. Daniels, Dana E. Koffman, Amanda J. Sherwood, and Nathaniel E. Castellano, of counsel.
William P. Rayel, Senior Trial Counsel, United
States Department of Justice, Civil Division, Commercial
Litigation Branch, Washington, DC, with whom were Joseph H. Hunt, Assistant Attorney General, Robert E.
Kirschman, Jr., Director, Patricia M. McCarthy,
This opinion was originally issued under seal to permit the parties
an opportunity to propose redactions by July 25, 2019. The government and intervenor proposed two redactions; plaintiff opposed one.
Because both proposed redactions address protected information, the
court adopts both. The parties also identified several possible clerical
mistakes or omissions; to the extent we agree that they were clerical
mistakes or omissions, and not substantive changes, we corrected
them. RCFC 60(a).
1

41a
Assistant Director, for defendant. Christina M. Austin
and Andrew Bramnick, Washington Headquarters Service & Pentagon Force Protection Agency, United States
Department of Defense, Office of General Counsel, of
counsel.
Daniel R. Forman, Washington, DC, for intervenor.
Robert J. Sneckenberg, Olivia L. Lynch, James G.
Peyster, Christian N. Curran, and Gabrielle Trujillo, of
counsel.
BRUGGINK, Judge.
This protest involves the Department of Defense’s
(“DoD”) Joint Enterprise Defense Infrastructure
(“JEDI”) Cloud procurement. In the JEDI Cloud procurement, DoD is seeking an enterprise cloud services solution that will accelerate DoD’s adoption of cloud computing technology. Oracle America, Inc. (“Oracle”) initially
filed this as a pre-award bid protest on December 6, 2018.
After it was excluded from the competition during the
protest and DoD completed several conflicts of interest
determinations, Oracle amended its complaint. It currently has three primary challenges. First, it argues that
the decision to use a single award as opposed to multiple
awards was a violation of law. This argument has two components because the decision to use a single award had to
be made both by an Under Secretary of Defense and independently by the contracting officer (“CO”). Second, it
argues that the use of certain gate criteria, the application
of which led to Oracle’s exclusion, were improper for various reasons. Third, it contends that conflicts of interest
on the part of DoD employees and Amazon Web Services,
Inc. (“AWS”), one of the other bidders, prejudicially affected the procurement. AWS has intervened.
The parties filed cross-motions for judgment on the
administrative record. The matter is fully briefed, and we
held oral argument on July 10, 2019. As stated in the
court’s July 12, 2019 order, because we find that Gate

42a
Criteria 1.2 is enforceable, and Oracle concedes that it
could not meet that criteria at the time of proposal submission, we conclude that it cannot demonstrate prejudice
even if the procurement was otherwise flawed. Plaintiff’s
motion for judgment on the administrative record is
therefore denied. Defendant’s and intervenor’s respective
cross-motions for judgment on the administrative record
are granted.
One feature of the protest makes resolution somewhat awkward. Although we ultimately conclude that
Gate Criteria 1.2 is enforceable and thus a comprehensive
answer to all of plaintiff’s arguments, it is necessary to
provide a virtually complete recitation of the facts and arguments because Oracle contends that two of the asserted
errors—the decisions adopting a single award approach
and the conflict of interest determinations— influenced
the formulation of Gate Criteria 1.2. The critical question
as to those two arguments, therefore, is whether, if Oracle
is correct on the merits, they impacted the formulation of
the criteria on which Oracle concedes it fails. We ultimately conclude that they did not taint the formulation of
that criteria or other aspects of the solicitation.
BACKGROUND
DoD is ready to adopt an enterprise cloud services solution.2 It plans to award the vast majority of DoD’s cloud
2

The agency defines “cloud” as “[t]he practice of pooling physical
servers and using them to provide services that can be rapidly provisioned with minimal effort and time, often over the Internet.” Administrative Record (“AR”) Tab 25 at 478. The agency explains, “The
term is applied to a variety of different technologies (often without
clarifying modifiers), but, for the purpose of this document, cloud refers to physical computing and storage resources pooled to provide
virtual computing, storage, or higher-level services.” DoD explains
that “commercial cloud means that a commercial cloud service provider is maintaining, operating, and managing the computing, networking, and storage resources that are being made available to

43a
services business to a single vendor. Although DoD has
been developing the JEDI Cloud procurement for several
years, we enter the development timeline in August 2017,
when the Secretary of Defense traveled to Seattle, Washington, and Palo Alto, California, to visit cloud services
companies. Administrative Record (“AR”) Tab 91 at 5955.
Following this trip, Deputy Secretary of Defense Patrick Shanahan sent a memorandum on September 13,
2017, to the secretaries of the military departments. He
emphasized that certain technologies “are [1] changing
the character of war; (2) commercial companies are pioneering technologies in these areas; [and] (3) the pace of
innovation is extremely rapid.” Id. The Deputy Secretary
concluded that “accelerating [DoD’s] adoption of cloud
computing technologies is critical to maintain our military’s technological advantage.” Id. He explained that the
adoption of cloud computing technology was “a Department priority” in which “[s]peed and security are of the
essence.” AR 5956. His memo went on to broadly outline
the steps to set the JEDI Cloud procurement in motion.
To devise a strategy to accelerate the adoption of
cloud services, the Deputy Secretary established the
Cloud Executive Steering Group. The group would brief
the Deputy Secretary on a bi-weekly basis on progress toward adoption of cloud computing technology. The Cloud
Executive Steering Group consisted of Chair Ellen Lord,
Under Secretary of Defense for Acquisition, Technology,
and Logistics; Director Chris Lynch, Defense Digital Service; Director Will Roper, Strategic Capabilities Office;
Managing Partner Raj Shah, Defense Innovation Unit
Experimental; Executive Director Joshua Marcuse,

customers. Depending on the contract, the commercial cloud service
provider may be performing in commercial facilities or on premises.”
Id.

44a
Defense Innovation Board; and advisor John Bergin, DoD
Chief Information Officer Business Technology Office.
Adoption of an enterprise cloud would proceed in two
phases. First, DoD would use “a tailored acquisition process to acquire a modern enterprise cloud services solution that can support unclassified, secret, and top secret
information.” Id. The Deputy Secretary tasked the Defense Digital Service, under Mr. Lynch, with leading
phase one. The Defense Digital Service is a team within
DoD’s United States Digital Service. Members of Defense
Digital Service dedicated to the JEDI Cloud procurement
at that time included Mr. Lynch, legal counsel Sharon
Woods, industry specialist Deap Ubhi, Deputy Director
Timothy Van Name, and engineer Jordan Kasper. In the
second phase, the Cloud Executive Steering Group would
“rapidly transition select DoD Components or agencies to
the acquired cloud solution,” using cloud services as extensively as possible. Id.
Early Commitment to a Single Award and Tailored
Acquisition Plan
The Cloud Executive Steering Group held a meeting
the day after the Deputy Secretary issued his memo.3 AR
Tab 86. In attendance were Mr. Lynch; Ms. Woods; a Defense Digital Service engineer; Mr. Ubhi; two representatives from the Strategic Capabilities Office; Mr. Shah;
Mr. Marcuse; and a “C3 cyber and business systems
AT&L” representative. AR 5927. The meeting notes record that Mr. Lynch stated “[o]ver time there ha[ve] been
considerable changes to the tech world outside of the DoD
that are so fundamental that they are now serious constraints on delivering the mission of defense.” Id. Mr.
Lynch further noted, “If we feel uncomfortable moving
The government’s AR index states this meeting occurred on September 14, 2017. The meeting notes do not state the date of the meeting.
3

45a
forward, then we are probably headed in the right direction.” Id. The group noted that “Sec Deft DSD is afraid of
vendor lock in.” AR 5928.
The notes include the following comment: “Avoid
specifying that there is a single vendor. This will create
perception issues with vendors already in use.” Id. This
suggests that, from the beginning, the expectation was
that there would be a single award.
The Cloud Executive Steering Group met again on
September 28, 2017, and discussed when the problem
statement draft, RFI, Business Case Analysis, and RFP
would be developed. AR Tab 87. The meeting notes read:
“Questions and inquiries form [sic] industry should be directed to Deap [Ubhi].” AR 5932. Procurement documents, such as the ones discussed at this meeting, were
developed and stored in a Google Drive accessible by certain DoD personnel, including the Cloud Executive Steering Group and Defense Digital Service team.
In between meetings, members of the Defense Digital Service discussed the progress of the JEDI Cloud project on the agency’s internal communication medium,
Slack.4 During this period, Defense Digital Service members discussed what to include in the problem statement.
For instance, on October 2, 2017, they discussed whether
“metrics” should be included in the problem statement or
if they were too difficult to articulate at that point. Ms.
Woods wrote, “Let me put the metrics in this context. The
agreed upon measures drive what acquisition strategy
will be approved. So, if multiple cloud providers can meet
“Slack is a communication tool utilized by [the Defense Digital Service], and other authorized collaborators, to facilitate timely communication and coordination of work activities . . . . Slack channels are
comprised of distinct groups of Slack users and are organized by purpose.” AR Tab 221 at 58699. The government provided an index of
user names and the message timestamps can be converted using an
epoch time converter.
4

46a
the metrics, then we don’t get to one. The metrics drive
how we solve the problem.” AR 3123.
The “Draft Problem Statement” was complete October 3, 2017. The draft explained that DoD’s “current computing and storage infrastructure environment and approach . . . is too federated, too slow, and too uncoordinated to enable the military to rapidly utilize DoD’s vast
information to make critical, data driven decisions.” AR
60089. DoD envisioned acquiring services that “seamlessly extend[] from the homefront to the tactical edge.”5
Id. The authors concluded that DoD “cannot achieve this
vision without a coordinated enterprise approach that
does not simply repeat past initiatives.” Id. The document
repeated the ills of fragmented infrastructure in nearly
every paragraph.
On October 5, 2017, the Cloud Executive Steering
Group convened again.6 According to the meeting notes,
Under Secretary Lord explained that more than “600
cloud initiatives across” DoD currently exist and that the
“cloud initiative is about implementing an enterprise approach rather than an uncoordinated eclectic approach
that has resulted in pockets of cloud adoption.” AR 5933.
Mr. Lynch contributed: “[a] [s]ingle cloud solution [is]
necessary for this enterprise initiative to be successful
DoD defines tactical edge as “[e]nvironments covering the full range
of military operations, including, but not limited to forces deployed in
support of a Geographic Combatant Commander or applicable training exercises, on various platforms . . . and with the ability to operate
in austere and connectivity-deprived environments.” AR Tab 25 at
479.
5

DoD defines tactical edge as “[e]nvironments covering the full range
of military operations, including, but not limited to forces deployed in
support of a Geographic Combatant Commander or applicable training exercises, on various platforms . . . and with the ability to operate
in austere and connectivity-deprived environments.” AR Tab 25 at
479.
6

47a
and allow DoD to achieve its mission objectives with cloud
adoption.” AR 5934.
Slack messages among the Defense Digital Service
team members refer to a late October 2017 Cloud Executive Steering Group meeting at which Mr. Ubhi, along
with others, argued for a single award approach. AR
60100, 60229. The messages suggest that attendees either
already favored a single award or were persuaded at the
meeting.
On October 27, 2017, Defense Digital Service’s Mr.
Kasper sent the Deputy Secretary a two-page update on
the DoD Cloud efforts and the draft Request for Information (“RFI”). AR Tab 51. Under “Acquisition Strategy
Approach,” the update anticipated an Indefinite Delivery,
Indefinite Quantity (“IDIQ”) contract and “[f]irm-fixed
pricing with commercial catalog.” AR 4324. On “Single
versus Multiple Providers,” the update stated: “General
consensus is that we should press forward with a single
provider approach for now . . . The [Cloud Executive
Steering Group] acquisition strategy is focusing on a single-award.” AR 4325. The primary reasoning for a single
rather than multiple award was “reduced complexity, ensuring security of information to the greatest degree possible, ease of use and limited barriers to entry, virtual private cloud-to-virtual private cloud peering, and seamless,
secure sharing of data across the enterprise through cloud
peering.” Id.
Development of the Tailored Solicitation Approach
and Needs
DoD issued an RFI to the commercial world on October 30, 2017, inquiring into available cloud computing services. DoD emphasized its need to rely on “the cloud provider(s)” for all levels of data classification from the homefront to the tactical edge. AR 5936. Among other items,
DoD asked for information about responders’ third-party
marketplace, failover and data replication architecture,

48a
ability to operate “at the edge of connectivity,” and for an
example of “a large commercial customer with worldwide
presence that has migrated to your infrastructure and
platform services.” AR 5937-38.
Before DoD received responses, it completed a summary of the JEDI Cloud procurement effort to date on
November 6, 2017. This included an “Acquisition Strategy” description: “Single-award [IDIQ] contract using
full and open competitive procedures. A single Cloud Service Provider (CSP) to deliver services for cloud computing infrastructure and platform services. Up to ten-year
ordering period.” AR 5957.
The agency received RFI responses on November 17,
2017. Many responders questioned whether a single
award would offer the best cost model, whether one vendor could possibly be the leader in all areas, and whether
a single vendor would devalue investment made by existing vendors. Oracle argued that a single award would stifle adoption of market-driven innovation. Microsoft concurred: “DoD’s mission is better served through a multivendor cloud approach,” because “competition drives innovation,” and offers “greater flexibility.” AR 1545. Microsoft urged DoD to preserve its flexibility and agility to
adopt the latest cloud technology and to avoid “a single
point of failure.” Id. IBM likewise responded: “Limiting
the DoD to a single cloud provider will negatively impact
DoD’s source access to innovative cloud offerings and increase risk of deployment failure.” AR 1983. Google argued that DoD must not become “beholden to monolithic
solutions or single cloud providers.” AR 1924.
AWS, on the other hand, argued that, although multiple awards might decrease the likelihood of protests, a
single award would increase consistency, interoperability,
and ease of maintenance. AWS posited that commercial
parity requirements would guarantee innovation. AWS

49a
was not alone in noting that single awards had been used
in the past and that they might offer advantages.
On December 22, 2017, the Joint Requirements Oversight Council issued a memo to twenty-two DoD stakeholders to address “Joint Characteristics and Considerations for Accelerating to Cloud Architectures and Services.” AR Tab 17. The council “accept[ed] the Defense
Digital Service cloud brief” and acknowledged that “accelerating to the cloud [is] critical in creating a global, resilient, and secure information environment that enables
warfighting and mission command.” AR 321. The memo
repeated DoD’s expectations: data exchange across all
classification levels and DoD components; an environment
that is scalable and elastic; security from persistent adversary threats; use to the tactical edge; and industrystandard high availability.
The memo identified “cloud characteristics and elements of particular importance to warfighting missions.”
AR 323. Those characteristics were: cloud resiliency without a single point of failure, support of DoD’s cyber defenses, enabling cyber defenders, and role-based training.
The attached presentation referred to a single “cloud provider.” AR 330.
On January 8, 2018, Deputy Secretary Shanahan circulated a memorandum to the secretaries of the military
departments providing an “Accelerating Enterprise
Cloud Adoption Update.” AR Tab 94. This memo stated
that the Cloud Executive Steering Group had provided
recommendations as requested and that “the Deputy
Chief Management Officer (DCMO), in partnership with
Cost Assessment and Program Evaluation, Chief Information Officer, and Defense Digital Service, [would now]
take the lead in implementing the initial acquisition strategy.” AR 5978. The memo also directed the Deputy Chief
Management Officer to establish a Cloud Computing Program Manager. The Deputy Secretary directed the

50a
Deputy Chief Management Officer and the Chief Information Officer to work with “the Services; the Under Secretary of Defense for Intelligence; and the Under Secretary of Defense for Acquisition, Technology, and Logistics
to build cloud strategies for requirements related to military operations and intelligence support.” Id.
Three months later, DoD released the first draft RFP
and held an industry day on March 7, 2018. DoD provided
the draft RFP for “early and frequent exposure to industry of the Department’s evolving requirement.” AR 5995.
DoD anticipated awarding a single award IDIQ that
would issue firm fixed-price task orders. DoD would seek
Infrastructure as a Service (“IaaS”) and Platform as a
Service (“PaaS”).
IaaS is “[t]he capability provided to the consumer to
provision processing, storage, networks, and other fundamental computing resources where the consumer is able
to deploy and run arbitrary software, which can include
operating systems and applications.” AR Tab 25 at 478.
DoD explained, “The consumer does not manage or control the underlying cloud infrastructure but has control
over operating systems, storage, deployed applications,
and possibly limited control of select networking components (e.g., host firewalls).” Id.
PaaS is “[t]he capability provided through software,
on top of an IaaS solution, that allows the consumer to
replicate, scale, host, and secure consumer created or acquired applications on the cloud infrastructure.” AR 479.
As with IaaS, DoD explained, “The consumer does not
manage or control the underlying cloud infrastructure including network, servers, operating systems, or storage,
but has control over the deployed applications and possibly application hosting environment configurations.” Id.
The draft included a specially crafted “New Services”
clause, providing that “DoD may acquire new products
and/or services from the contractor for capabilities not

51a
currently provided in the Cloud Services Catalog Price
List under this contract.” AR 6013. The draft also introduced the concept of Factor 1 Gate Criteria, a number of
metrics which offerors would have to meet to advance to
consideration of other factors. Three of the criteria are at
issue in this protest. Gate Criteria 1.1 required the offeror
to “provid[e] a summary report for the months of January
and February 2018 that depicts each of the four metric
areas detailed below.” AR 6083. Gate Criteria 1.2 required
the offeror to have no fewer than three physical, unclassified data center locations at least 150 miles apart and to
document network availability. An additional criteria
(later numbered 1.6) required the offeror to provide a
marketplace for both native and third-party programs.
On March 27, 2018, the Cloud Computing Program
Office completed its Market Research Report, which DoD
used to “inform the overall acquisition strategy.” AR 366.
Market research included vendor meetings held from October 12, 2017 to January 26, 2018, focus sessions within
DoD and with industry leaders, intelligence community
meetings, and the RFI.
The Cloud Computing Program Office found that
“market research indicate[s] that multiple sources are capable of satisfying DoD’s requirements for JEDI Cloud.”
Id. The office found, however, that “[o]nly a few companies have the existing infrastructure—in both scale and
modernity of processes—to support DoD mission requirements, worldwide.” AR 369. The office concluded that “[i]f
the JEDI Cloud contract is sufficiently flexible and requires maintaining technical parity with commercial solutions,” DoD would be able to apply cloud solutions to the
tactical edge. AR 366. The office also found that providers’
information security and ability to operate in disconnected environments were still growing and that a “robust, self-service marketplace” is “essential.” AR 369. The
office found that the responses did not clearly

52a
demonstrate how multiple clouds benefitted the agency’s
security needs.
The Cloud Computing Program Office completed the
Business Case Analysis on April 11, 2018. The summary
provides that the Business Case Analysis, Acquisition
Strategy, Statement of Objectives, and Cybersecurity
Plan form the foundation of the procurement. The problem statement indicated that DoD’s operations are hampered by fragmented, outdated computing and storage infrastructure; tedious, manual management processes;
and lack of interoperability, seamless systems, standardization, and automation. “In short, DoD’s current computing and storage infrastructure critically fails DoD’s mission and business needs.” AR 403. This gloomy assessment led to eight objectives: available and resilient services; global accessibility; centralized management and
distributed control; ease of use; commercial parity; modern and elastic computing; storage; and network infrastructure, fortified security, and advanced data analytics.
The office turned to available alternatives. The analysis of alternatives was “based on outcomes when the
overarching goal is for JEDI Cloud to host 80% of all DoD
applications that currently reside in DoD on-prem[ise]
centers, existing cloud offerings, and legacy systems.” AR
405. The office assumed that the solution required “significant transformation,” because “DoD needs to extricate itself from the business of installing, managing, and operating data centers.” AR 406. The office also assumed that
a high degree of integration is necessary and using multiple vendors would increase complexity and cost.
Four alternatives were considered: DoD retaining
80% of the workload; DoD splitting its workload with
JEDI Cloud; a single JEDI Cloud provider managing
80% of the workload; and multiple JEDI Cloud providers
splitting 80% of the workload. The office concluded that a
single JEDI Cloud provider would fulfill seven of the

53a
eight objectives and partially fulfill the global accessibility
objective. Multiple JEDI Cloud providers, on the other
hand, would meet only four objectives and partially meet
four objectives. The DoD-focused options all failed at least
one objective.
The office did not see any disadvantage to adopting a
single JEDI Cloud provider approach. It found that
global accessibility is problematic in any scenario because
the technology is evolving. This section concluded: “There
are significant overlaps in the commercial cloud services
offered by the various providers, such that any provider
selected will meet the majority of Department needs.” AR
410.
The office acknowledged that DoD would “benefit
from the commercial parity, investment, innovation, and
technical evolution of commercial cloud offerings driven
by industry, and additional commercial service offerings
[that] will be made available” if it chose a multiple award
approach. AR 411. Ultimately, it concluded that this approach would be “technically more complex.” Id. Using
multiple vendors would “significantly complicate[] management,” “raise[] the risk profile,” compromise ease of
use, create new security vulnerabilities, and impede interoperability. Id. The office recommended that the
agency “proceed with the acquisition of services from a
single” cloud services provider. AR 412.
The analysis set out nine “high-level programmatic
success criteria” mapped to the eight objectives. AR 415.
Among the criteria were “a commercial [cloud services
provider] where total usage by DoD does not exceed 50%
of the provider’s total network, computing, and storage
capacity;” “ongoing parity with commercial offerings for
unclassified applications for pricing;” a “scalable, resilient, and accredited” cloud services solution that can manage needs from DoD’s users; and ability to operate in disconnected and austere environments. AR 415-16.

54a
The analysis addressed seven program risks. Oracle
highlights the sixth risk assessed, which it believes indicates a connection between the desire for a single awardee
and the metrics selected for the gate criteria:
The JEDI Cloud program schedule could be negatively impacted if source selection extends beyond the
planned timeline due to an unexpected number of
proposals or lengthy protest delays. To mitigate this
risk, the solicitation will use a gated evaluation approach that includes “go/ no-go” gate criteria. Offerors must meet the established minimum criteria in
order to be considered a viable competitor. Also, [the
Cloud Computing Program Office] will communicate
those criteria through a draft solicitation process.
AR 422.
On April 16, 2018, DoD issued the second draft RFP,
including a chart with DoD’s responses to questions received from industry. Although many potential offerors
questioned the gate criteria, DoD made only a few
changes. For Factor 1.1, the relevant measuring period
remained January through February 2018. For Factor
1.2, the location of the three data centers was broadened
from the continental United States to “the Customs Territory of the United States.” AR 6241. DoD added that the
proposed data centers must contain hardware used to provide IaaS and PaaS services “that are FedRAMP Moderate compliant.” Id. Factor 1.6, a marketplace containing
native services and third-party services, remained unchanged, as did the “New Services” provision, which allowed the introduction of new services during the ten-year
contract period.
CO’s Justification of Single Award Approach
The agency was required to explain its decision to use
a single award for the JEDI Cloud procurement. The
agency must satisfy both a regulatory requirement for the

55a
CO to consider whether a multiple award was appropriate
and a statutory requirement for the head of the agency to
determine if a single award was permissible in an acquisition of this size. We discuss those requirements below.
On July 17, 2018, the CO issued her memo stating that
the rationale for using a single award IDIQ contract overcame the multiple award preference stated in FAR
16.504(c) (2018). That regulation provides that, when planning an IDIQ acquisition, the CO must determine
whether multiple awards are appropriate, giving preference to multiple awards to the “maximum extent practicable.” FAR 16.504(c). The regulations set out six exceptions to the single award preference; if the CO determines
any of those conditions exist, the agency “must not” use a
multiple award approach. Id.
The CO relied on three exceptions to the multiple
award preference. First, “[b]ased on the CO’s knowledge
of the market, more favorable terms and conditions, including pricing, will be provided if a single award is
made.” AR 455. Second, “[t]he expected cost of administration of multiple contracts outweighs the expected
benefits of making multiple awards.” Id. Third, “[m]ultiple awards would not be in the best interests of the Government.” Id.
The CO explained that a vendor is more likely to offer
favorable price terms and make the initial investment to
serve DoD’s needs if it can be assured it will recoup its
investment through packaging prices for classified and
unclassified services. The CO next observed that administering multiple contracts is costlier and less efficient. Finally, she reasoned that “[p]roviding the DoD access to
foundational commercial cloud infrastructure and platform technologies on a global scale is critical to national
defense and preparing the DoD to fight and win wars.”
AR 461-62. “Based on the current state of technology,
multiple awards . . . i) increase security risks; ii) create

56a
impediments to operationalizing data through data analytics, machine learning (ML), and artificial intelligence
(AI); and iii) introduce technical complexity in a way that
both jeopardizes successful implementation and increases
costs.” AR 462.
She explained that “multiple awards increase security risks,” because a single cloud can offer data encryption but with the added benefit of seamless data transfer.
Id. Multiple clouds, on the other hand, would “frustrate
the DoD’s attempts to consolidate and pool data so data
analytics capabilities can be maximized for mission benefit.” AR 463. The CO iterated that “[o]ne of the primary
goals of” the procurement “is to decrease barriers to
adoption of modern cloud technology to gain military advantage.” Id. She found that multiple clouds inherently
raise barriers, because they require additional training,
interoperability, more space, and more investment. In the
conclusion, the CO stated that a single award solution
“achieves better security, better positions the DoD to operationalize its data, and decreases barriers to rapid adoption.” AR 464.
The Under Secretary’s Justification of Single
Award Approach
Just two days after the CO signed her single award
determination, on July 19, 2018, Under Secretary Lord
signed a separate Determination and Findings (“D&F”)
stating that DoD was authorized to award the JEDI
Cloud contract to a single cloud services provider. This
separate determination was required, because in 2008
Congress prohibited DoD, among other agencies, from
awarding task order contracts in excess of $112 million7 to
41 U.S.C. § 1908 (2012) (statutory inflation adjustment requirement); Inflation Adjustment of Acquisition-Related Thresholds, 80
Fed. Reg. 38293-01, 38997 (July 2, 2015) (adjusting the $100 million
single award prohibition).
7

57a
a single source. National Defense Authorization Act for
Fiscal Year 2008, Pub. L. No. 110-181, § 843(a)(1), 122
Stat. 3, 236 (2008) (“Limitation on Single Award Contracts”). This added another level of scrutiny unique to
large single award procurements in addition to the multiple award preference.
Exceptions are permitted, however, when the head of
the agency determines that one of four exceptions to the
single award prohibition exists. 10 U.S.C. §
2304a(d)(3)(A)-(D) (2012).
The Under Secretary based the D&F on one exception to the statutory prohibition: “the contract provides
only for firm, fixed price (FFP) task orders or delivery orders for services for which prices are established in the
contract for the specific tasks to be performed.” AR Tab
16 at 318. Although the statute offers three other exceptions to the single award prohibition, the D&F only applied this single exception to the JEDI Cloud procurement.
The D&F then set out seven findings. The fourth
through seventh findings provided more detail justifying
a single award. The findings set out that the successful offeror’s discount methodologies will be incorporated into
the contract, thus presumably minimizing concern over
pricing. The contract line item numbers for cloud offerings “will be priced by catalogs resulting from the full and
open competition, thus enabling competitive forces to
drive all aspects of [firm fixed] pricing.” AR 319. The catalogs will cover the “full potential 10 years.” Id. The successful offeror’s catalog will be incorporated in the contract.
The Under Secretary’s discussion acknowledged two
pricing-related clauses in Section H of the contract that
warranted mentioning: sections H2 and H3. Section H2
New Services, provides:

58a
1. Subsequent to award, when new (including improved) IaaS, PaaS, or Cloud Support Package services are made publicly available to the commercial
marketplace in the continental United States (CONUS) and those services are not already listed in the
JEDI Cloud catalogs . . . the Contractor must immediately (no later than 5 calendar days) notify the
JEDI Cloud Contracting Officer for incorporation of
the new services into the contract . . . . At its discretion, the Contractor may also seek to incorporate new
services into the contract in advance of availability to
the commercial marketplace. The JEDI Cloud Contracting Officer must approve incorporation of any
new services into the contract.
2. Any discounts, premiums, or fees . . . shall equally
apply to new services, unless specifically negotiated
otherwise.
3. The price incorporated into the JEDI Cloud catalog for new unclassified services shall not be higher
than the price that is publicly-available in the commercial marketplace in CONUS, plus any applicable
discounts, premiums or fees . . . .
a. New services that are proposed to be incorporated into the contract in advance of availability
to the commercial marketplace may potentially
be considered a noncommercial item. The JEDI
Cloud Contracting Officer will make a fact specific commerciality determination. If the new service is not a commercial item and no other exception or waiver applies, the JEDI Cloud Contracting Officer may require certified cost and pricing
data or other than certified cost and pricing data
under FAR Subpart 15.4 to make a fair and reasonable price determination.
i. If there are any new fees associated with a
new service that is proposed to be

59a
incorporated into the contract in advance of
availability to the commercial marketplace,
the new proposed fee must be provided to
the JEDI Cloud Contracting Officer for review and, if appropriate, approval and incorporation into the contract.
4. The price incorporated into the JEDI Cloud catalog for new classified services may include a price
premium as compared to unclassified services because of the additional security requirements. . . .
AR Tab 35 at 740-41 (Final Amended RFP). The net effect
of this provision is to permit the addition of wholly new
services to the contract over time.
Section H3 provides:
1. Within 45 calendar days of the Contractor lowering
prices in its publicly-available commercial catalog in
CONUS, the Contractor shall submit a revised catalog for incorporation into Attachment J-1, Price Catalogs as follows:
a. For unclassified services, the revised catalog
price shall match the commercially lower price.
b. For classified services, the revised catalog
price shall be lowered by to be completed by Offeror percentage of the net value difference for
the newly lowered rate for the unclassified service. . . .
2. Any discounts, premiums, or fees in Attachment J3: Contractor Discounts, Premiums, and Fees shall
equally apply to any services with price changes, unless specifically negotiated otherwise.
3. The Contractor may offer new or additional discounts at any time to be incorporated into Attachment J-3: Contractor Discounts, Premiums, and Fees
only upon JEDI Cloud Contracting Officer approval.

60a
4. When the JEDI Cloud Contracting Officer incorporates the revised price into the Attachment J-1,
Price Catalogs and/or Attachment J-3: Contractor
Discounts, Premiums, and Fees, as appropriate, the
Contractor shall update the listing of services and
corresponding prices in the online pricing calculator
and APIs for JEDI Cloud within 24 hours.
AR 741. This section would apparently offer some assurance that the prices of new services would be moderated.
The attraction of these clauses was that DoD could
take advantage of changes in new cloud services that
likely will emerge in the marketplace over the ten year
lifetime of the contract. They would also ensure that the
awardee could not price the new service “higher than the
price that is publicly-available in the commercial marketplace in the continental United States.” AR 740. The CO
could then choose to approve the addition of these services
to the contract. The Under Secretary reasoned that, because the CO had to approve the new service, once the
service was added, its unit price would be fixed, and that
the contract thus remained one in which all task orders
had “established” firm fixed prices within the terms required by the chosen exception.
JEDI Cloud RFP
On July 26, 2018, DoD issued the RFP for the JEDI
Cloud. DoD anticipated awarding a single IDIQ contract,
incorporating the awardee’s fixed unit price information
and catalog offerings to serve as the basis for firm-fixed
price task orders. The performance period could extend
over ten years: a two-year base period, two three-year option periods, and a final two-year option period.
Section M provides that the agency will evaluate proposals according to the RFP requirements and for best
value to the government. The evaluation includes two
phases. First, the agency will evaluate the offeror’s

61a
submission against the seven gate criteria. An offeror
which receives an “Unacceptable” rating for any gate criteria “will not be further evaluated.” AR 805.
The second phase begins with the agency evaluating
the remaining proposals against Factors 2 through 6 (nonprice) and Factor 9 (price). After applying those factors,
the agency will establish a competitive range. Offerors in
the competitive range will be invited to submit materials
for evaluation on non-price Factors 7 and 8 and to engage
in discussions. The agency will eliminate any offerors that
are rated “Marginal” or “Unacceptable” for Technical Capability or are rated “High” risk under Factor 8 Demonstration. Once any discussions conclude, remaining offerors will be permitted to submit a final proposal revision.
The agency will evaluate final proposals, eliminate any
proposals with a “High” risk rating or that are rated below “Acceptable” on non-price factors, and determine the
proposal that offers the best value.
We return now to phase one, application of the seven
gate criteria from Factor 1: 1.1 Elastic Usage; 1.2 High
Availability and Failover; 1.3 Commerciality; 1.4 Offering
Independence; 1.5 Automation; 1.6 Commercial Cloud Offering Marketplace; and 1.7 Data. The protest puts Gate
Criteria 1.1, 1.2, and 1.6 at issue.
Under Gate Criteria 1.1, the agency evaluates offers
for whether “the addition of DoD unclassified usage will
not represent a majority of all unclassified usage.” AR
806. To comply with this gate criteria, the offeror must
submit a summary report reflecting its capacity in terms
of “Network,” “Compute,” and “Storage” parameters for
the period of January to February 2018. AR 791. “JEDI
unclassified usage [must be] less than 50% of the [Commercial Cloud Offering] usage as demonstrated by” the
three metrics: Network, Compute, and Storage. Id. Under Network, for the selected two months, offerors had to
assume JEDI Cloud unclassified ingress was 10.6

62a
Petabytes and 6.5 Petabytes for unclassified egress. Under Compute, offerors had to assume the JEDI Cloud unclassified average physical compute cores in use by application servers was 46,000 cores. Under Storage, offerors
had to assume JEDI unclassified data storage usage averaged 50 Petabytes online, 75 Petabytes nearline, and
200 Petabytes offline across the 2 months.
Three days prior to the release of the JEDI Cloud
RFP, Timothy Van Name, Deputy Director of the Defense Digital Service, submitted a memorandum to the
CO justifying the use of the gate criteria. It states that
Gate Criteria 1.1 exists “to ensure that JEDI Cloud: 1) is
capable of providing the full scope of services even under
surge capacity during a major conflict or natural disaster
event; and 2) experiences ongoing innovation and development and capability advancements for the full potential
period of performance (10 years).” AR 944.
Mr. Van Name continued, “Not including this criteria
will risk future military operations that depend on the
overall ability of the Offeror to support surge usage at vital times.” Id. He explained that, “Limiting JEDI Cloud
to 50%, excluding the Offeror’s own usage, is essential to
ensuring the Offeror’s ability to support commercial innovation by requiring a critical mass of non-JEDI customers
and usage that will drive further development of the service offerings.” AR 945. Mr. Van Name justified the requirement for offerors to present summary reports based
on data from January 2018 and February 2018 as necessary in order “to facilitate fair competition, as this prevents potential Offerors from taking measures to change
their numbers once they became aware of this [Gate Criteria] requirement at the release of the draft RFP in
March 2018.” Id.
The next challenged Gate Criteria is 1.2. There are
four elements within Gate Criteria 1.2, but only the first
is relevant to this protest:

63a
No fewer than three physical existing unclassified
[Commercial Cloud Offering] data centers within the
Customs Territory of the United States . . . that are
all supporting at least one IaaS offering and at least
one PaaS offering that are FedRAMP Moderate “Authorized” by the Joint Authorization Board (JAB) or
a Federal agency as demonstrated by official
FedRAMP documentation.
AR 792.
Concerning Gate Criteria 1.2, Mr. Van Name wrote,
“The rationale for including these minimum requirements
in the RFP is to validate that JEDI Cloud can provide
continuity of services for DoD’s users around the world.”
AR 947. He notes that “[h]igh availability and failover requirements are long standing within the DoD, particularly around the critical infrastructure that supports
warfighters.” Id. Plaintiff specifically challenges the inclusion of the FedRAMP Moderate “Authorized” requirement, which it was admittedly unable to meet at the time
of proposal submission. Mr. Van Name explained at the
time that, even though the successful offeror would not
have to be FedRAMP Moderate “Authorized” during performance, such authorization “is the Federal cloud computing standard and represents the Department’s minimum security requirements for processing or storing
DoD’s least sensitive information.” Id. (emphasis added).
The authorization process “validates [that] the physical
data center security requirements are appropriately
met.” Id. Upon award, the offeror has thirty days to “meet
the more stringent security requirements outlined in the
JEDI Cyber Security Plan for unclassified requirements,
but being able to meet the more stringent requirements
are contingent on the underlying physical data center security requirements that are approved during the
FedRAMP Moderate review process.” Id.

64a
The third gate criteria at issue is 1.6. The marketplace will be used “to deploy [Commercial Cloud Offering]
and third-party platform and software service offerings
onto the [Commercial Cloud Offering] infrastructure.”
AR 793. It exists “to enable DoD to take advantage of the
critical functionality provided by modern cloud computing
providers to easily ‘spin up’ new systems using a combination of IaaS and PaaS offerings as well as offerings provided through the vendor’s online marketplace.” AR 95051. The marketplace provides ease of use and rapid adoption. Mr. Van Name concluded that “all [s]ub-factors under Factor 1 Gate Criteria are necessary and reflect the
minimum requirements for JEDI Cloud.” AR 952.
Post-Solicitation Events
Oracle filed a pre-bid, pre-award protest at the GAO
on August 6, 2018, challenging the single award approach.
The agency then amended the RFP, and Oracle filed a
supplemental protest on August 23, 2018, challenging the
three gate criteria discussed above. The agency amended
the RFP again on August 31, in relevant part permitting
an offeror to demonstrate that it met Gate Criteria 1.2,
FedRAMP Moderate “Authorized,” through authorization by the Joint Authorization Board or by an agency.
Oracle then filed a consolidated protest on September 6,
2018, raising its conflicts of interest argument (the facts
of which are discussed in the next section).
Four offerors, including Oracle, submitted proposals
on October 12, 2018. GAO subsequently denied Oracle’s
protest. Oracle filed its protest in this court on December
6, 2018. Oracle did not move for a preliminary injunction.
The agency informed the court that it did not intend to
make an award until midsummer 2019.
Meanwhile, the agency continued to perform its evaluation, starting with Factor 1 Gate Criteria. On December
12, 2018, the Technical Evaluation Board (“TEB”) found

65a
Oracle’s proposal “Unacceptable” under Factor 1 Gate
Criteria 1.1 and it ended evaluation of Oracle’s proposal.
Oracle was found “Unacceptable” under the Network
component of Gate Criteria 1.1 because its “proposal does
not specify a comparison of the aggregate network usage
as required, it only specifies a comparison against installed network capacity in the Summary Report.” AR
57848. The board also found Oracle’s proposal unacceptable for the Compute component, because Oracle placed its
table for JEDI Cloud and Cloud Commercial Offering average physical compute cores in use in its Tab A narrative
instead of in its Summary Report. For the Storage component, the board concluded, “The JEDI Cloud RFP requires that ‘JEDI unclassified usage must be less than
50% of the [Commercial Cloud Offering] [average storage] in use’. This proposal is found ‘Unacceptable’ for Subfactor 1.1(2) because the calculated JEDI Cloud daily average storage usage is 50.79%.” AR 57849. The proposal
also failed to provide detailed storage information in bytes
for each of the required categories, instead providing an
aggregate for all types of storage. Id. Because Oracle did
not meet Gate Criteria 1.1, the agency did not consider
whether it met the other five criteria.
The TEB also completed the gate criteria evaluations
for the other three offerors. The board found AWS and
Microsoft “Acceptable” under all gate criteria. It found
IBM “Unacceptable” under Gate Criteria 1.2 and ended
its evaluation.
On February 19, 2019, the TEB completed its evaluation of the only two remaining offerors, AWS and Microsoft, for non-price Factors 2-6. [redacted]
In late February 2019, the Source Selection Evaluation Board completed its Executive Summary Reports,
confirming that it had reviewed the technical evaluations.
The Source Selection Advisory Council then affirmed the
TEB’s consideration of the gate criteria submissions and

66a
completed the Executive Summary Report. The Source
Selection Advisory Council Chair concluded: “[I]t is not
recommended that the SSA make award based on the initial proposal, as both [AWS] and [Microsoft] proposals
have deficiencies that make them unawardable.” AR
58641. After discussion with the Source Selection Authority Council, however, the Chair recommended “that the
[Procuring Contracting Officer] make a competitive
range determination of two, to include both AWS and Microsoft.” Id. The CO determined that AWS and Microsoft
would be the competitive range. The evaluation process is
ongoing.
Conflicts of Interest Relating to the JEDI Cloud Procurement
Oracle alleges that, throughout this procurement,
three individuals with conflicts of interest (Deap Ubhi,
Tony DeMartino, and Victor Gavin) affected the integrity
of the JEDI Cloud acquisition and that AWS has an organizational conflict of interest. On July 23, 2018, the CO
completed a memo for the record stating her assessment
that the possible conflicts of interest of five individuals,
including Mssrs. Ubhi and DeMartino, had “no impact” on
the procurement. She applied FAR 3.104-7. Her initial
analysis is considered below.
Tony DeMartino
Mr. DeMartino was an AWS consultant prior to joining DoD. In January 2017, he became the Deputy Chief of
Staff for the Secretary of Defense. In March, he transitioned to Chief of Staff for the Deputy Secretary.
On April 24, 2017, a Senior Attorney in the Office of
General Counsel, Standards of Conduct Office, emailed
Mr. DeMartino a “Cautionary Notice.” AR 4345. The attorney wrote: “[Y]ou may have a regulatory prohibition
under 5 C.F.R. § 2635.502 on participating in matters
where one of the entities for whom you served as a

67a
consultant during the last year is or represents a party to
the matter.” Id. The attorney reminded Mr. DeMartino
that DoD does business with “Amazon” and that he must
“be vigilant and consult with our office before participating in any matters involving these entities until the oneyear period has expired.” Id. The email concluded, “If you
have potentially conflicting duties, please discuss with
your supervisor and coordinate with our office to ensure
that any conflicts are properly resolved.” Id.
As a part of his duties as Chief of Staff, Mr. DeMartino performed work related to the JEDI Cloud procurement. He did not, however, have access to the Google
Drive or the Slack channels. He coordinated staffing of
the September 13, 2017 Accelerating Enterprise Cloud
Adoption Memorandum. In October 2017, he participated
in editing an opinion piece for the Deputy Secretary regarding the procurement just before the release of the
RFI. He coordinated meetings for the Deputy Secretary
relating to the procurement through early 2018.
Mr. DeMartino’s position required him to communicate the Deputy Secretary’s questions to members of the
Cloud Executive Steering Group and the Defense Digital
Service, among others. He also attended meetings where
the development of procurement documents was discussed.
Mr. DeMartino worked for the Deputy Secretary
through March 2018. He then returned to his position as
Deputy Chief of Staff for the Secretary of Defense. Inquiries arose in 2018 regarding his former position as an
AWS consultant. Only then did Mr. DeMartino seek advice from the Standards of Conduct Office. The office determined that Mr. DeMartino had not participated in the
JEDI Cloud procurement in a manner covered by regulations. The office verbally advised Mr. DeMartino, however, that given the high visibility of the procurement, he
should consider recusing himself from anything to do with

68a
the acquisition. The office also notified those working on
the JEDI Cloud procurement of that warning.
On April 2, 2018, Mr. DeMartino communicated with
Defense Digital Service Director Lynch regarding a
JEDI Cloud Update document, providing comments and
questions on that document. Between April 4 and June 5,
he emailed with members of the Defense Digital Service
about an unrelated matter, received a final briefing paper
for the Secretary of Defense, and was copied on an email
from Ms. Woods regarding the second draft RFP. Mr. DeMartino resigned from federal employment in July 2018.
The record does not reflect Mr. DeMartino negotiating
for or returning to any form of AWS employment after his
resignation.
The CO considered whether Mr. DeMartino was impartial in performing his official duties. She found that he
did not have “input or involvement in the reviewing or
drafting of the draft solicitation package, the Acquisition
Strategy, Business Case Analysis, or other pre-decisional
sensitive documents relative to the JEDI Cloud acquisition.” AR 685. She also found that he “worked with
[Standards of Conduct Office] throughout his DoD employment to ensure compliance with all applicable ethical
rules.” Id. The CO concluded that his “involvement was
ministerial and perfunctory in nature” and he “did not
participate personally and substantially in the procurement. Therefore, Mr. DeMartino’s involvement did not
negatively impact the integrity of the JEDI Cloud acquisition.” Id. In her testimony during the GAO hearing in
Oracle’s bid protest, the CO repeated this conclusion. The
CO did not revisit her conclusion on Mr. DeMartino’s actions in her 2019 assessment.
Deap Ubhi
The CO also evaluated Mr. Ubhi’s impact on the
JEDI Cloud procurement. She listed five findings. First,
“Mr. Ubhi was previously employed with AWS, which

69a
ended in January 2016.” AR 686. Second, “Mr. Ubhi was
employed with Defense Digital Service from August 22,
2016 to November 27, 2017.” Id. Third, “Mr. Ubhi was involved with JEDI Cloud market research activities between September 13, 2017 and October 31, 2017.” Id.
Fourth, “[b]ecause greater than one year had lapsed between when his AWS employment ended and when his
participation in JEDI Cloud started, no restrictions attached to prohibit Mr. Ubhi from participating in the procurement.” Id. Her fifth finding was:
In late October 2017, AWS expressed an interest in
purchasing a start-up owned by Mr. Ubhi. On October 31[,] 2017, Mr. Ubhi recused himself from any
participation in JEDI Cloud. His access to any JEDI
Cloud materials was immediately revoked, and he
was no longer included in any JEDI Cloud related
meetings or discussions.
Id.
The CO detailed what the agency knew at the time.
Mr. Ubhi had access to the Google Drive and Slack channels. He attended meetings within DoD and with industry,
acting as a point of contact for industry representatives.
He participated in drafting and editing some of the first
documents shaping the procurement. He argued that
DoD should adopt a single award approach. In short, Mr.
Ubhi was involved in developing the JEDI Cloud procurement until he left DoD on November 24, 2017.
On October 31, 2017, Mr. Ubhi emailed Mr. Lynch
and Mr. Van Name, copying counsel for the Standards of
Conduct Office and Ms. Woods. Mr. Ubhi wrote:
As per guidance from [Standards of Conduct Office]
(Eric Rishel) and our in-house general counsel Sharon Woods, I am hereby recusing myself from the
[Defense Digital Service’s] further involvement in facilitating SecDef and [Defense Digital Service’s]

70a
initiative to accelerate adoption of the cloud for the
DoD enterprise, due to potential conflicts that may
arise in connection to my personal involvement and
investments. Particularly, Tablehero, a company I
founded, may soon engage in further partnership discussions with Amazon, Inc., which also owns and operates one of the world’s largest cloud service providers, Amazon Web Services, fulfilling that responsibility to my fullest. This project is critical to the national
security of our country, and I regret that I can no
longer participate and contribute.
AR Tab 45 at 2777. Although the agency was not aware at
the time, Mr. Ubhi’s reason for leaving DoD was fabricated. On November 13, 2017, Mr. Ubhi resigned.
Although the agency listed Mr. Ubhi on its list of individuals submitted to GAO who were personally and substantially involved in the JEDI Cloud procurement, the
CO nevertheless concluded that Mr. Ubhi’s participation
did not negatively affect the integrity of the procurement,
because (1) his impartiality restriction had expired prior
to working on the JEDI Cloud procurement; (2) his participation was limited; and (3) Mr. Ubhi “promptly
recused himself.” AR 687.
Oracle challenged the CO’s conclusions before GAO
and before this court. Oracle also raised a question as to
whether AWS had an organizational conflict of interest
and whether the actions of another individual, Anthony
DeMartino, tainted the integrity of the JEDI Cloud procurement. During the early stages of this protest, the
agency represented that it was evaluating whether AWS
had an organizational conflict of interest.
Shortly after Oracle filed its original motion for judgment on the administrative record, the agency filed a motion to stay this case, prompted by an unsolicited letter it
had received from AWS pointing out that some of the information provided by Mr. Ubhi to the agency was false.

71a
The agency therefore decided to reevaluate the impact of
Mr. Ubhi’s actions in light of the new information. The
agency also planned to complete its organizational conflict
of interest evaluation of AWS. The court granted the motion to stay. On April 15, 2019, the government filed a status report updating the court that the agency had completed those evaluations.
When she reassessed the facts, the CO determined
that, even with the new information, Mr. Ubhi’s conflict of
interest had not tainted the JEDI Cloud procurement.
The reassessment began with Mr. Ubhi’s involvement.
Mr. Ubhi was selected by Mr. Lynch to serve as “a product manager with a business focus” on the Defense Digital
Service JEDI Cloud team. AR 58699. Mr. Ubhi was involved in acquisition planning. He had administrative
privileges on the Google Drive and participated in vendor
meetings, although it was DoD’s practice to have two representatives present at those meetings.
The information supplied by AWS related to Mr.
Ubhi’s relationship with AWS during his Defense Digital
Service employment. AWS maintained throughout its
communication with the CO that it hired Mr. Ubhi without
knowing that he had lied to DoD about his reason for resigning and lied to AWS about complying with DoD ethics
rules. Mr. Ubhi in fact hid relevant information and misdirected both DoD and AWS. The CO recited: “‘AWS did
not offer to purchase Tablehero . . . at any time, while he
was engaged in market research activity or otherwise. . . .
Those discussions concluded (with no deal and no future
business relationship) in December 2016, long before the
JEDI Cloud procurement began.’” AR 58701-02. Mr.
Ubhi’s discussions with AWS regarding Tablehero thus
ended after he started at Defense Digital Service but before he began working on the procurement.
AWS further informed DoD that Mr. Ubhi had communicated with AWS as early as April 26, 2017, to discuss

72a
future AWS employment.8 Prior to beginning work on the
procurement, Mr. Ubhi had applied for, been offered, and
declined a job at AWS. Mr. Ubhi indicated in August 21
and 23, 2017 emails that he would be interested in future
employment at AWS.
At nearly the same time he began work on the JEDI
Cloud procurement, Mr. Ubhi had discussions “with his
former Supervisor at AWS regarding the possibility of rejoining AWS in a commercial startup role unrelated to
AWS’s government business.” AR 58702. On October 4,
2017, Mr. Ubhi made a “[v]erbal commitment to rejoin
AWS.” AR 58703.
Throughout October, Mr. Ubhi “[m]et with companies as part of market research” related to the JEDI
Cloud project. AR 58703. In that same period, on October
17, 2017, he applied for “an open position in AWS’s commercial organization.” AR 58702. On October 19, 2017,
Mr. Ubhi completed an AWS Government Entity Questions form on which he “specifically represented to AWS
that he ‘confirmed by consulting with [his] employer’s ethics officer’ that he was permitted to have employment discussions with AWS.” AR 58702 (alteration original). On
that form he also represented that he did not have “any
employment restrictions [preventing him] ‘from handling
any specific types of matters if employed by Amazon or
its subsidiaries.’” AR 58705. Both representations were
false.
AWS made Mr. Ubhi an offer on October 25, 2017,
which Mr. Ubhi accepted two days later. Mr. Ubhi sent
the email recusing himself to Mr. Lynch on October 31,
2017, which falsely represented his reason for leaving
DoD. He resigned on November 13, 2017. He worked at
Defense Digital Service until November 24, 2017. He
After AWS’s February 12, 2019 letter, the CO and AWS communicated through March 2019.
8

73a
rejoined AWS as “Senior Manager, Startup Programs
Management in AWS Business Development” on November 27, 2017. 9 Id.
When considering Mr. Ubhi’s impact on the procurement, the CO placed his actions in the context of the RFPdrafting process, which included multiple stages and involved various DoD offices. She noted, “[M]ore than 70 individuals participated personally and substantially in the
JEDI Cloud acquisition prior to the receipt of proposals.”
AR 58700. Under Secretary Lord considered many documents that “had extensive reviews,” including technical
and legal review. AR 58699. The draft RFP went through
a Defense Procurement and Acquisition Policy peer review in April 2018. The DoD Chief Information Officer
also performed “a full top-down, bottom-up independent
review of JEDI Cloud pre-solicitation acquisition documents, including the RFP.” Id. He consulted security,
technical, and acquisition experts. Additionally, industry
offered comment on the RFI and draft RFPs.
The CO held eight interviews and reviewed numerous
documents in an effort to determine whether anyone
knew that the information in the 2018 determination was
inaccurate, whether anyone would adjust their opinion
about Mr. Ubhi’s influence based on the new information,
and whether there was any other undisclosed information.
The CO spoke with Mr. Lynch, Mr. Van Name, Ms.
Beyond the 2019 investigation materials, the CO also refers to
AWS’s Organizational Conflict of Interest Mitigation Plan, submitted
with its proposal, which included an affidavit from Mr. Ubhi. In it he
stated that he was only involved in the planning stages of the JEDI
Cloud procurement and that he did not provide input regarding any
draft of the RFP. She relied on her personal knowledge of the procurement development to corroborate Mr. Ubhi’s statements. Mr.
Ubhi stated that he had complied with AWS’s information firewall
and had not and would not share nonpublic information or documentation with AWS.
9

74a
Woods, Mr. Kasper, Mr. Daniel Griffith, two other Defense Digital Service representatives, and an attorney
with the Standards of Conduct Office. The CO also spoke
with Ms. Christina Austin, who is Associate General
Counsel at the Washington Headquarters Service & Pentagon Force Protection Agency within DoD.
The CO reviewed documents that she believed “were
apropos to the timeframe when Mr. Ubhi was actively involved with JEDI Cloud related details.” AR 58707. She
reviewed the draft problem statement, the notes and
questions from vendor meetings that Mr. Ubhi attended,
the RFI, and Slack conversations. She also considered
AWS’s employment offer to Ubhi to determine if it reflected payment in exchange for information.
The CO reached six conclusions. First, Mr. Ubhi violated the FAR 3.101-1 requirement that officials “avoid
strictly any conflict of interest or even the appearance of
a conflict of interest in Government-contractor relationships” and the matter therefore had to be referred to the
DoD Inspector General. AR 58707-09. The CO reported
that interviewees were surprised by Mr. Ubhi’s lie that
AWS had or would be acquiring Tablehero. He apparently
did not mention any other communications with AWS.
The CO found that Mr. Ubhi had been aware of his ethical
obligations and had ignored them. She found that he
should have ceased work on the procurement after he began employment discussions with AWS. She was “disconcert[ed]” that Mr. Ubhi’s actions called into question the
integrity of the procurement. In this section, the CO also
found that the facts “warrant further investigation concerning whether Mr. Ubhi violated 18 U.S.C. § 208, 5 CFR
§ 2635.604, and 5 CFR § 2635.402.” AR 58709. She referred the issue for assessment to the Inspector General
and concluded, “Whether Mr. Ubhi’s conduct violated
these particular laws does not affect my determinations
below that his unethical behavior has no impact on the []

75a
pending award or selection of a contractor in the JEDI
procurement.” Id.
Second, she found that there was no violation of FAR
3.104-3(a) by Mr. Ubhi and no violation of FAR 3.104-3(b)
by AWS. FAR 3.104-3(a) prohibits officials with access to
contractor, proposal, or source selection information from
“knowingly disclos[ing] contractor bid or proposal information or source selection information before the award
of a Federal agency procurement to which the information
relates.” FAR 3.104-3(b) prohibits “knowingly obtain[ing]
contractor bid or proposal information or source selection
information before the award of a Federal agency procurement contract to which the information relates.”
The CO broadly investigated “whether there was any
evidence of quid pro quo between AWS and Mr. Ubhi.”
AR 58709. The CO examined the emails between Mr. Ubhi
and his former supervisor and that supervisor’s affidavit.
She found that it was apparent that “Mr. Ubhi wanted to
return to AWS dating back to at least February 2017,”
and AWS wanted him to return as of April 2017. AR
58710. She concluded that “the AWS hiring efforts, which
started long before the JEDI Cloud, were not related to
JEDI Cloud even though the hiring occurred after the
JEDI Cloud initiative started.” AR 58711.
The CO compared his employment offer to “a review
of Glassdoor and discussion with others about typical
AWS employment offers.” Id. She found that his [redacted] employment package was “relatively standard,”
even if the bonus was slightly higher due to his “personal
relationship with” his former supervisor. Id. Because the
offer did not appear connected to the JEDI Cloud procurement or the sharing of nonpublic information, the CO
found that neither Mr. Ubhi nor AWS entered into the
discussions or job offer for the exchange of non-public information.

76a
Regarding FAR 3.104-3(a)-(b), the CO noted that Mr.
Ubhi stated that he had not shared any non-public JEDI
Cloud information and that, in any event, he did not have
access to RFI responses, RFP drafts, or other acquisition
sensitive documents. The CO also evaluated AWS’s statements. Based on the company’s Organizational Conflict of
Interest Response and its emails with the CO, she concluded that it had not received non-public JEDI Cloud information. The Senior Manager of United States Federal
Business Development and JEDI Proposal Manager provided an affidavit stating that Mr. Ubhi had not provided
any information to him, or anyone else, on the AWS JEDI
team that would have affected AWS’s proposal. AWS’s
DoD Programs Director represented that no one from the
AWS Commercial Startup team had anything to do with
AWS’s JEDI proposal. AWS’s DoD Programs Director
also represented that Mr. Ubhi was “organizationally and
geographically” prevented from providing nonpublic information to her team. Id. She had “confidence that Mr.
Ubhi had absolutely no involvement whatsoever in the
AWS JEDI capture effort and that he has been truly firewalled.” Id. The Director of Startups at Amazon Web Services World Wide Commercial Sector Business Development stated that Mr. Ubhi “has never revealed or attempted to reveal nonpublic information to me about the
JEDI Cloud procurement or any of the offerors involved.”
Id. The CO noted that Mr. Ubhi has not been assigned to
any tasks or teams interacting with the AWS JEDI proposal team. Id. Based on this review, she found that neither Mr. Ubhi nor AWS violated FAR 3.104-3(a)-(b).
Third, she concluded that even if there had been a violation of FAR 3.104-3(a) and (b), Mr. Ubhi could not have
provided competitively useful information. Regarding the
vendor meetings, she found that the information would
not have been useful to AWS and, in any event, her research indicated that the information regarding a

77a
competitor such as Microsoft was publicly available. Nor
was the CO convinced that any DoD meetings in which
Mr. Ubhi participated were competitively useful, because
they occurred prior to the decisional documents and addressed individual needs rather than the actual procurement strategy. Furthermore, she concluded that much of
his information relating to costs or needs would be outdated.
Fourth, there was no violation of FAR 3.104-3(c).
FAR 3.104-3(c) requires officials such as Mr. Ubhi to
promptly report contacting or being contacted “by a person who is an offeror in that Federal agency procurement
regarding possible non-Federal employment for that official” and then to disqualify himself from further personal
and substantial participation in the procurement. The CO
found that although Mr. Ubhi failed to promptly report
the contact with AWS in writing to his supervisor and the
agency ethics official and failed to timely recuse himself
from JEDI Cloud activities, because the offers were not
submitted until October 12, 2018, AWS technically was
not an “offeror” until then and therefore Mr. Ubhi did not
violate the regulation. Id. She nevertheless found “Mr.
Ubhi’s actions to be unethical and improper.” Id.
Fifth, Mr. Ubhi’s participation in the preliminary
stages of the JEDI Cloud procurement did not introduce
bias in favor of AWS. Mr. Ubhi was involved in JEDI
Cloud for seven weeks during the preliminary stages of
planning and no “critical decisions” were made during this
period. AR 58716. The CO apparently asked “[a]ll individuals directly involved in the JEDI Cloud effort” whether
the revelations in the AWS letter changed their opinion
on Mr. Ubhi’s effect on the procurement. They uniformly
said no.
She reviewed Slack messages to determine whether
Mr. Ubhi expressed bias toward any potential offeror. She
determined that he did not, because, although Mr. Ubhi

78a
had strong, sometimes coarsely-expressed opinions, he
did not show bias in favor of AWS in particular.10 Instead,
he believed that there were very few companies who could
offer the services that DoD would need to adopt an enterprise cloud solution; those companies apparently included
both Microsoft and AWS. The CO also reviewed Mr.
Ubhi’s emails and found similar sentiments. The CO
pointed out that, if anything, the Slack channels demonstrate that no one person could have swayed the planning
decisions because so many people contributed.
Sixth, even if Mr. Ubhi had attempted to introduce
bias in favor of AWS, he did not impact the procurement,
for three reasons. First, Mr. Ubhi lacked the technical expertise to substantively influence the JEDI Cloud procurement. Second, his actual attempts to influence the
procurement were limited. “Third, and most importantly,
all the key decisions for the JEDI Cloud procurement,
such as the actual RFP terms and whether to award one
or multiple contracts, were made well after Mr. Ubhi
recused himself, after being vetted by numerous DoD
personnel to ensure that the JEDI Cloud RFP truly reflects DoD’s requirement.” AR 56719-23. The CO reiterated that Mr. Ubhi was a product manager focused on
market research, not an engineer. In her interview with
Mr. Lynch, Mr. Lynch explained that Mr. Ubhi was one
member of a large group of people including “engineers,
business owners, and entrepreneurs” who favored a single provider strategy absent Mr. Ubhi’s influence. AR
58720. The other interviewees expressed the view that
Mr. Ubhi was effective at his job, but he did not have the
The court reviewed hundreds of pages of Slack messages—generally an unedifying exercise, except as a cautionary tale about ill-considered use of instant messaging. One would have thought that in this
litigious culture, people would be less promiscuous about sharing
every stray mental hiccup. Mr. Ubhi, in particular, contributed any
number of banal, puerile, profane and culinary messages.
10

79a
ability to bias vendor meetings, RFI questions, or the single award decision.
The CO then turned to Mr. Ubhi’s contributions to
procurement documents. Regarding the problem statement, the CO found that Mr. Ubhi contributed 100
changes to the document, along with other collaborators.
She concluded that his contributions were outdated, because the Defense Digital Service Product Manager who
was tasked with drafting the Business Case Analysis after
Mr. Ubhi left found the Problem Statement tone helpful,
but the content too limited to form the basis of the Business Case Analysis. The CO determined that Mr. Ubhi’s
RFI edits were minor, relating to how responders discussed Tactical Edge abilities. Technical interviewees expressed the view that Mr. Ubhi lacked the technical expertise to contribute substantively to those documents.
Procurement documents created or received after
Mr. Ubhi’s departure included the RFI responses, Market Research Report, Joint Requirements Oversight
Council Memorandum, Single Award D&F, the CO’s justification for a single award, Business Case Analysis, Acquisition Strategy, RFP and draft RFPs, and justification
for the gate criteria. She iterated that multiple DoD teams
developed the documents. She concluded that, even if Mr.
Ubhi had exhibited bias in favor of AWS, he had not impacted the procurement. In summary, “[e]ven though I
find that Mr. Ubhi violated FAR 3.101-1 and may have violated 18 U.S.C. § 208 and its implementing regulations, I
determine that there is no impact on the pending award
or selection of a contractor in accordance with FAR 3.1047.” AR 58720.
Victor Gavin
The CO also investigated the potential impact of Victor Gavin on the integrity of this procurement and completed that investigation during the stay in the protest.
During the procurement, Mr. Gavin was a Deputy

80a
Assistant Secretary of the Navy for C41 and Space Programs. In the summer of 2017, Mr. Gavin discussed with
Navy ethics counsel future employment with defense contractors. He then discussed retirement plans with an
AWS recruiter and with AWS Director of DoD programs
from August 2017 to January 2018.
Mr. Gavin attended the October 5, 2017 meeting of
the Cloud Executive Steering Group to share the Navy’s
experience with cloud services. He submitted a Request
for Disqualification from Duties on January 11, 2018, requesting he be excluded from matters affecting the financial interests of AWS. He interviewed with AWS on January 15, 2018. On March 29, 2018, AWS offered Mr. Gavin
a position and he accepted.
Mr. Gavin then attended a JEDI Cloud meeting on
April 5, 2018, where, among other things, the attendees
discussed the draft Acquisition Strategy. The CO attended the meeting as well. She recalled that Mr. Gavin
did not show bias toward a particular vendor and advocated for a multiple-award approach. He did not edit the
Acquisition Strategy.
Mr. Gavin retired from the Navy on June 1, 2018. He
began work at AWS on June 18 as Principal, Federal
Technology and Business Development. After he began
work at AWS, but before AWS implemented an information firewall, he “had a few informal conversations with
AWS’s Director, DoD, Jennifer Chronis, in which JEDI
came up.” AR 24550. He “provided only general input on
DoD acquisition practices and Navy cloud usage based on
[his] years of experience as an information technology acquisition professional at the Navy.” AR 24550-51. He represented to DoD that he did not provide any JEDI Cloud
procurement information to AWS’s Director of DoD Programs.
AWS first informed Mr. Gavin of an information firewall on July 26, 2018. In separate emails on July 31, AWS

81a
informed Mr. Gavin that he is “strictly prohibited from
disclosing any non-public information about DoD’s JEDI
procurement (were he to have any) to any AWS employee” and informed the AWS JEDI team of the firewall.
AR 24544-45. Mr. Gavin said that he would comply with
the firewall.
The CO determined that, although Mr. Gavin’s attendance at the October 5, 2017 meeting did not constitute
personal and substantial participation in the JEDI Cloud
procurement, his attendance at the April 5, 2018 meeting
may have constituted such participation. The CO did not
consider his participation of any significance, however,
but referred the issue to ethics counsel for further review.
The CO decided that Mr. Gavin violated FAR 3.1011, and possibly 18 U.S.C. § 208 (2012), but that his involvement did not taint the procurement. The CO specifically
found that he had limited access to the draft Acquisition
Strategy and did not furnish any input on the document;
he did not disclose any competitively useful nonpublic information; he did not obtain or disclose other bid information to AWS; and he did not introduce bias into the
meetings he attended. Regarding AWS, she concluded
that it had not received any competitively useful information or an unfair advantage through Mr. Gavin.
Organizational Conflict of Interest
Finally, the CO determined that AWS did not receive
an unfair competitive advantage in the JEDI Cloud procurement and that no organizational conflict of interest
exists. She relied on FAR 9.505 as she considered whether
a significant potential conflict exists, particularly whether
AWS has received an unfair competitive advantage. She
considered whether AWS possesses “[p]roprietary information that was obtained from a Government official without proper authorization; or [s]ource selection information (as defined in 2.101) that is relevant to the contract
but is not available to all competitors, and such

82a
information would assist that contractor in obtaining the
contract.” FAR 9.505(b).
When submitting a proposal, the offeror was required
to disclose any actual or perceived conflicts of interest and
identify measures to avoid or mitigate those conflicts. The
CO reviewed the AWS Organizational Conflicts of Interest Response and supplemental materials. She considered
whether Mr. Ubhi, Mr. Gavin, and two other individuals,
Brandon Bouier and Cynthia Sutherland, could provide
information to AWS that would give it an unfair competitive advantage.
The CO began with AWS’s plan as it relates to Mr.
Ubhi. Due to Mr. Ubhi’s misrepresentations, she understandably “did not give much weight or credibility to the
statements Mr. Ubhi provided in his declarations.” AR
58750. Instead, she relied on AWS’s Organizational Conflicts of Interest Response, which offered three assurances: (1) Mr. Ubhi has not supported the AWS sector
handling its JEDI Cloud proposal and has not been involved in any JEDI Cloud proposal activities. (2) He has
not had “any substantive communications” with any AWS
employee regarding the JEDI Cloud procurement and
has not disclosed nonpublic information. Id. (3) AWS implemented an information firewall on May 11, 2018, sending the notice to both Mr. Ubhi and the AWS JEDI Cloud
team. It prohibited any contact, disclosure, or discussion
of information between Mr. Ubhi and AWS’s JEDI Cloud
team.
AWS’s letter provided more information regarding
the information firewall. The letter represents that, upon
arrival, Mr. Ubhi “‘informally firewalled himself by duly
notifying his manager that he should not be involved in
JEDI Cloud activities because of potential conflict issues.’” AR 58751. The formal information firewall has
functional, organizational, and geographic components.
The AWS Senior Lead Recruiter, the Director of Startups

83a
of AWS Commercial Sector Business Development, the
AWS JEDI Proposal Team Lead, and the Director of
DoD Programs at AWS each provided an affidavit regarding whether Mr. Ubhi shared nonpublic information. The
materials consistently described Mr. Ubhi’s exclusion
from working with AWS’s JEDI Cloud proposal team.
The AWS Senior Lead Recruiter stated that Mr.
Ubhi represented during the hiring process, falsely as it
turned out, that he had spoken with DoD ethics officials
and was engaging in employment discussions with AWS.
The recruiter also stated that Mr. Ubhi did not provide
detail regarding his work at Defense Digital Service; this
was consistent with Mr. Ubhi’s application materials. The
Director of Startups of AWS Commercial Sector Business
Development—Mr. Ubhi’s manager—stated that no one
on his team, including Mr. Ubhi, worked with the AWS
JEDI Cloud proposal team. Although the CO could not
determine exactly when Mr. Ubhi’s manager became
aware of Mr. Ubhi’s conflict, she explained that the exact
date did not matter since the manager was aware of the
conflict and his sector did not overlap with the AWS JEDI
Cloud proposal team. Both the AWS JEDI Proposal
Team Lead and the Director of DoD Programs at AWS
stated that Mr. Ubhi had not communicated information
to them and that they would not seek any in the future.
Based on the mitigation plan and AWS’s representations, the CO determined that “Mr. Ubhi’s employment
with AWS Commercial Sector Business Development
does not create an [organizational conflict of interest].”
AR 58752. The CO also found that “AWS did not receive
any nonpublic information or documentation JEDI Cloudrelated, including potential competitors, from Mr. Ubhi.”
AR 58753. She iterated that, even if Mr. Ubhi had shared
the early planning information, that information would
not have been competitively useful.

84a
The CO next turned to AWS’s Organizational Conflicts of Interest Plan as it related to Mr. Gavin. The plan
stated that Mr. Gavin was not involved in the AWS JEDI
Cloud proposal preparation; had not seen AWS proposal
materials; had not provided input on the AWS proposal;
and had not disclosed nonpublic information to anyone at
AWS. AWS emailed notices to Mr. Gavin and the AWS
JEDI Cloud proposal team on July 31, 2018, establishing
an information firewall. Mr. Gavin provided an affidavit
stating that he participated in only one JEDI Cloud procurement meeting while he was with the Navy (which was
an inaccurate statement because he attended a second
meeting); he had no access to competitively useful information; and he has not shared JEDI Cloud procurement
information. The CO concluded that Mr. Gavin’s employment at AWS did not create a potential organizational
conflict of interest and that Mr. Gavin had not provided
competitively useful information to AWS because he did
not have any to provide.
Reaching beyond the AWS Organizational Conflicts
of Interest Plan, the CO requested information relating to
Brandon Bouier, who was employed at Defense Digital
Service in 2017. He resigned from Defense Digital Service
on August 18, 2017 and concluded his employment there
on September 1, 2017. He began work at AWS on September 25, 2017. AWS submitted an affidavit from him. The
CO noted that Mr. Bouier departed Defense Digital Service prior to the Deputy Secretary’s September 14, 2017,
Accelerating Enterprise Cloud Adoption Memorandum.
The CO, and others at Defense Digital Service, did not recall him working on the JEDI Cloud procurement. She
thus found that he did not have nonpublic information related to the procurement and that his employment at
AWS did not create an organizational conflict of interest.
The CO considered one last person: Cynthia Sutherland. Dr. Sutherland worked for the Cybersecurity and

85a
Defenses Branch, Cyberspace Division, Joint Chiefs of
Staff. Dr. Sutherland reached out to the CO on February
26, 2019. She was the cloud expert for the Joint Staff Chief
Information Officer. Dr. Sutherland was personally and
substantially involved in the JEDI Cloud procurement,
“principally” in November and December 2017. AR 58755.
She contributed work to the Joint Requirements Oversight Council Memorandum. She addressed cloud concerns from council members and adjusted the memo
based on the council’s feedback. Dr. Sutherland attended
the Cloud Cybersecurity Working Group’s initial conversations, recommended how to shape cybersecurity requirements, and provided a data dictionary to that group.
She “led the development of the cloud characteristics/requirements for the JEDI Cloud based on the needs of the
Combatant Commands, warfighter.” Id. After the Joint
Requirements Oversight Council Memorandum was
signed, she provided bi-weekly updates to the Vice Chief
of the Joint Chiefs of Staff regarding the JEDI Cloud procurement and other cloud efforts through April 2018. At
that point she only relayed information without providing
input on decisions.
Dr. Sutherland applied to be an AWS Public Sector
Specialist on January 9, 2019, approximately a year after
her work on the JEDI Cloud procurement. Between her
application date and February 26, 2019, she completed
four interviews with AWS. During those interviews, she
discussed “‘her level of understanding and creation of
cloud requirements for her current customers, the warfighter.’” Id. She had a final interview on February 27,
2019. Dr. Sutherland represented that she did not discuss
the JEDI Cloud procurement in any of her conversations
with AWS, instead sticking to her understanding of cloud
computing generally and her work developing cybersecurity requirements for “global customers.” AR 58756.

86a
AWS offered Dr. Sutherland the position of Industry
Specialist on AWS’s Security Assurance team on March
11, 2019. She accepted on the same day. When she was
communicating with the CO, she had not started working
at AWS. The AWS JEDI Proposal Team Lead and the
Director of DoD Programs at AWS stated that they were
unaware that AWS had interviewed Dr. Sutherland. AWS
represented that Dr. Sutherland had not contributed to
the AWS JEDI Cloud proposal submitted in October
2018.
The CO found that, other than the drafts of the Joint
Requirements Oversight Council Memorandum and the
initial conversations of the Cloud Cybersecurity Working
Group, Dr. Sutherland did not have access to nonpublic
information related to the JEDI Cloud procurement. The
CO concluded that Dr. Sutherland had not provided nonpublic information to AWS, that Dr. Sutherland’s prospective employment did not create an organizational conflict of interest, and that AWS’s plan to institute an informational firewall when Dr. Sutherland began work was
reasonable.
In conclusion, the CO decided that AWS had proposed a reasonable risk mitigation plan, did not have an
organizational conflict of interest, and had not received
nonpublic information. In its amended complaint and supplemental motion for judgment on the administrative record, Oracle challenges the 2019 conflicts of interest determinations.
After we lifted the stay in this protest, the parties
briefed cross motions for judgment on the administrative
record. We held oral argument on July 10, 2019. On July
12, 2019, we issued an order denying plaintiff’s motion and
granting defendant’s and intervenor’s motions because
Oracle has not shown prejudice as a result of the errors
discussed below.

87a
DISCUSSION
This court has jurisdiction over actions “objecting to
a solicitation by a Federal agency for bids or proposals for
a proposed contract . . . or any alleged violation of statute
or regulation in connection with a procurement or a proposed procurement.” 28 U.S.C. § 1491(b)(1) (2012). We review such actions for whether the agency decision was
“arbitrary, capricious, an abuse of discretion, or otherwise
not in accordance with law.” 5 U.S.C. § 706(2)(A) (2012);
28 U.S.C. § 1491(b)(4). In other words, the court’s “task is
to determine whether the procurement official’s decision
lacked a rational basis or the procurement procedure involved a violation of a regulation or procedure.” Tinton
Falls Lodging Realty, LLC v. United States, 800 F.3d
1353, 1358 (Fed. Cir. 2015) (citation omitted).
If we conclude that DoD’s conduct fails under this
standard of review, we then “proceed[] to determine, as a
factual matter, if the bid protester was prejudiced by that
conduct.” Bannum, Inc. v. United States, 404 F.3d 1346,
1351 (Fed. Cir. 2005). To show that it was prejudiced by
an error, the protestor must demonstrate “that there was
a ‘substantial chance’ it would have received the contract
award but for the [agency’s] errors.” Id. at 1353. The “substantial chance” standard has been applied in pre-award
bid protests in which offerors have submitted their proposals, the protestor has been evaluated and excluded
from competition, and the agency has established the
competitive range. E.g., Orion Tech., Inc. v. United
States, 704 F.3d 1344, 1348-49 (Fed. Cir. 2013); Ultra Elecs. Ocean Sys., Inc. v. United States, 139 Fed. Cl. 517,
526 (2018).
Plaintiff argues that, in a pre-award bid protest, the
court applies the “non-trivial competitive injury” standard articulated in Weeks Marine, Inc. v. United States,
575 F.3d 1352, 1358 (Fed. Cir. 2009). But the court in
Weeks Marine applied the “non-trivial competitive injury

88a
test” where the potential offeror had not submitted a bid,
“because at that stage it is difficult, if not impossible, to
establish a substantial chance of winning the contract
prior to the submission of any bids.” Orion, 704 F.3d at
1348. Here, on the other hand, we cannot ignore the fact
that it is now possible to determine whether Oracle had a
substantial chance of winning this award. We have the
necessary factual predicate, because Oracle’s proposal
was evaluated and excluded from competition based on its
failure to meet Gate Criteria 1.1 and Oracle concedes that
it also could not meet Gate Criteria 1.2. Thus, while Oracle
meets the most basic element of standing—it submitted a
serious proposal—we have to consider whether it was
prejudiced, even if some of its substantive arguments are
valid.
For this reason, defendant contends that it is pointless to consider most of plaintiff’s arguments. Plaintiff responds, however, that its inability to meet the gate criteria
is not dispositive if the gate criteria are unenforceable, either because they violate the law or because they would
have been drafted differently if the agency had not employed a single award strategy. That question, in turn, depends in part, on whether the single award determination
was tainted by the participation of, among others, Mr.
Ubhi. In short, the merits of Oracle’s arguments are
wrapped around the axle with the prejudice question. We
believe the tidiest approach, therefore, is to deal with the
merits of Oracle’s arguments, and if any survive, determine if they are nevertheless off limits because Oracle
cannot demonstrate that it was prejudiced. We begin with
Oracle’s initial contention that the single award determinations of the Under Secretary and the CO were flawed.
We conclude that one was, and one wasn’t.

89a
I.

The Contracting Officer Reasonably Justified Her
Determination Under 10 U.S.C. § 2304a(d)(4) And
FAR 16.504(c) To Use A Single Award Approach.
As discussed in the background, two single award determinations were made, by different officials under different standards. This is because, as currently codified, 10
U.S.C. § 2304a (2012) is a mixture of different legislative
efforts at promoting competition in IDIQ contracts. Separate legislative and regulatory efforts have been layered
on top of one another over time, resulting in the two distinct single award determinations in the JEDI Cloud acquisition.
First, Congress directed that regulations be developed to implement a multiple award preference that
would “establish a preference for awarding, to the maximum extent practicable, multiple task or delivery order
contracts for the same or similar services or property.” 10
U.S.C. § 2304a(d)(4). The implementing regulation is FAR
16.504(c)(1)(i) (2018), which states the multiple award
preference and sets out the circumstances in which a single award is appropriate for an IDIQ contract of any
value. The CO made her singe award determination under
this regulation.
Section 2304a(d)(3), discussed in the next section, followed after the codification of the multiple award preference. In that section, Congress prohibited single awards
in task or delivery order contracts valued at more than
$112 million in the absence of a written finding from the
head of the agency that one of four conditions exist. For
aught that appears, these requirements operate independently—different officials make the determination
considering different factors—although they involve very
similar subject matter. The underlying goal is certainly
the same: to protect competition.
With respect to the CO’s decision under FAR
16.504(c)(1)(i), when the agency is considering using an

90a
indefinite-quantity contract, “the CO must, to the maximum extent practicable, give preference to making multiple awards of indefinite-quantity contracts under a single
solicitation for the same or similar . . . services to two or
more sources.” But FAR 16.504(c)(1)(ii)(B) adds that
“[t]he contracting officer must not use the multiple award
approach if—
(1) Only one contractor is capable of providing performance at the level of quality required because the
supplies or services are unique or highly specialized;
(2) Based on the contracting officer’s knowledge of
the market, more favorable terms and conditions, including pricing, will be provided if a single award is
made;
(3) The expected cost of administration of multiple
contracts outweighs the expected benefits of making
multiple awards;
(4) The projected orders are so integrally related
that only a single contractor can reasonably perform
the work;
(5) The total estimated value of the contract is less
than the simplified acquisition threshold; or
(6) Multiple awards would not be in the best interests of the Government.
Here, the CO found that multiple awards must not be
used for three reasons: “(2) Based on the CO’s knowledge
of the market, more favorable terms and conditions, including pricing, will be provided if a single award is
made;” “(3) The expected cost of administration of multiple contracts outweighs the expected benefits of making
multiple awards;” and “(6) Multiple awards would not be
in the best interests of the Government.” AR 455.
The regulation is unambiguous: even in light of the
multiple award preference, “[t]he contracting officer must
not use a multiple award approach if” one of six listed

91a
conditions exist. FAR 16.504(c)(1)(ii)(B) (emphasis
added). The question is whether the CO rationally determined that any of the three chosen conditions exist. We
believe she did.
Oracle argues that the CO’s memorandum did not
properly balance the multiple award preference against a
single award approach. It contends that the CO “did not
meaningfully consider the benefits of competition, arbitrarily inflated the cost of competition, and violated Congressional policy.” Pl.’s Suppl. Mot. at 26. Oracle challenges the CO’s assessment of whether more favorable
terms and conditions are available if a single award is
made, but “the CO’s knowledge of the market” is the
standard set out in the regulation. She explained her understanding of cost and vendor investment in a multiple
award and single award context and drew the reasonable
conclusion that a single award was more likely to result in
favorable terms, including price. The CO also considered
the fact that even if price might not be more favorable in
a single award, two other conditions also exist that mandate a single award.
She asserted that multiple awards are costlier to administer and that multiple awards simply cannot meet
DoD’s expectations from cloud services, whether security
concerns, interoperability, or global, seamless reach. In
particular, the CO considered which approach would best
serve the agency’s security needs and concluded that a
single cloud services provider would be best positioned to
provide the necessary security for the agency’s data. She
was careful to document several conditions that led the
agency to conclude it must not use multiple awards and
we will not second guess her conclusion. Plaintiff offers us
no real no basis for questioning any of these conclusions.
They were completely reasonable, and we have no
grounds to disturb her conclusion that multiple awards
cannot be used.

92a
II. The D&F Relies On An Exception To The 10 U.S.C.
§ 2304a(d)(3) Single Award Prohibition That Does
Not Accurately Reflect The Structure Of The JEDI
Cloud Solicitation.
Separate from the CO’s single award determination,
DoD was also required to decide whether it was permitted
to use a single award approach in a procurement of this
size. DoD anticipates awarding a task order contract for
cloud services to a single vendor that, including the full
ten-year period, is valued at $10 billion. This triggers the
application of 10 U.S.C. § 2304a(d)(3), which prohibits
awarding such large task order contracts to a single vendor, unless the agency finds that one of four exceptions to
the prohibition exist. Section 2304a(d)(3) states,
No task or delivery order contract in an amount estimated to exceed [$112 million] (including all options) may
be awarded to a single source unless the head of the
agency determines in writing that—
(A) the task or delivery orders expected under the
contract are so integrally related that only a single
source can efficiently perform the work;
(B) the contract provides only for firm, fixed price
task orders or delivery orders for—
(i) products for which unit prices are established in
the contract; or
(ii) services for which prices are established in the
contract for the specific tasks to be performed;
(C) only one source is qualified and capable of performing the work at a reasonable price to the government; or
(D) because of exceptional circumstances, it is necessary in the public interest to award the contract to a
single source.
DoD, through Under Secretary Lord’s D&F, decided
that the second exception applies to this procurement:

93a
“the contract provides only for firm, fixed price (FFP)
task orders . . . for services for which prices are established in the contract for the specific tasks to be performed.” AR 318.
At first blush, DoD’s D&F tracks precisely with the
chosen exception: the JEDI Cloud RFP provides only for
firm, fixed price task orders. It solicits IaaS, PaaS, and
support services for which offerors will propose a catalog
of prices; that catalog will be incorporated into the contract, i.e., established, at the time of award. If the prices
of all possible tasks were “established” in this fashion,
then we would agree that exception (B)(ii) could be relied
upon. That is not the case, however.
The D&F acknowledged that, during the possible
ten-year life of the contract, services not contemplated at
the time of initial award would likely be needed and added
to the contract through the technology refresh provision,
Section H2 New Services. Section H2 was crafted because
DoD knows that the cloud computing sector is constantly
evolving. E.g., AR Tab 130 at 8721 (“IaaS/PaaS offerings
are not static and will be updated overtime both in terms
of available services and applicable pricing. The clauses
are necessary to maintain commercial parity with how
cloud services evolve and are priced.”); AR Tab 137 at
9603 (“The landscape of cloud offerings is evolving. . . .
With growing demand comes an evolving landscape of
supply. It seems new cloud providers are emerging
monthly, and the service offerings of the vendors are rapidly shifting.”).
If at some point over the ten years of the contract the
cloud services provider creates a new service, Section H2
requires it to offer that new service to DoD at a price not
“higher than the price that is publicly-available in the
commercial marketplace in the continental United
States.” AR 318. The CO will then decide whether to add
the new service. The clause also permits DoD to acquire

94a
services before they are available on the commercial market or that will not be offered on the commercial market.
After the award, and perforce, after any competition,
these new services could only be obtained from the single
awardee. Of necessity, then, these services could not be
identified as “specific tasks,” much less priced, at the time
of the award.
Recognizing the apparent inconsistency between Section H2 and the requirements of § 2304a(d)(3)(B)(ii), the
D&F attempted to reconcile the use of Section H2 with
the exception DoD chose to justify a single award: “As
with any other cloud offering, once the new service is
added to the catalog, the unit price is fixed and cannot be
changed without CO approval.” Id. In other words, even
though the tasks are different than those described and
priced in the original contract, the contract eventually will
still use only firm, fixed price task orders. The agency
found that its custom-made technology refresh provision
therefore is consistent with “[firm, fixed price] task orders
for services for which prices are established in the contract for the specific tasks to be performed.” Id. It is difficult to treat this as anything more sophisticated than the
assertion that “these are established fixed prices for specific services because we say they are.”
As Oracle points out, there is a logical disconnect between claiming that prices are “established in the contract” for “specific tasks” while simultaneously acknowledging that those tasks, and their accompanying prices,
do not yet exist. While the government and intervenor respond that Oracle is improperly reading a term into the
text of § 2304a(d)(3)(B)(ii) that is not present, namely “at
the time of entering the contract,” plaintiff does not have
to “read” this interpretation into the statute. It is already
present in the use of the term, “established,” and in the
language of the prohibition itself that “no contract may be
awarded.” Reading this as a present tense description of

95a
the status of the contract terms is much less tortured than
inserting a phrase with a future spin: “or which may be
established in the contract prior to placing future task orders.” We see no ambiguity in the language. In an ordinary reading, prices for specific services must be “established” at the time of contracting. Prices for new, additional services to be identified and priced in the future,
even if they may be capped in some cases, are not, by definition, fixed or established at the time of contracting. It
should go without saying that the exception must be true
at the time of award—no task order contract exceeding
$112 million “may be awarded”— and exception (B)(ii)
speaks of prices and specific tasks as “established in the
contract,” not that “will be” established in the future.
Given the tenor of the language employed in describing
the need for cloud computing, Section H2 is not a trivial
addition.
The government argues that requiring prices for specific tasks to be established at the time of contracting
would prevent DoD from modifying the contract during
performance in any way. This is not entirely accurate. It
is true that the statutory prohibition prevents a particular
type of change—the contractor and agency cannot add
new tasks at new prices after entering the contract. Other
types of modifications that fall outside of the bespoke Section H2 are not affected, however. The use of a technology
refresh provision thus appears to be at odds with §
2304a(d)(3)(B)(ii), and the Under Secretary apparently
chose an exception under § 2304a(d)(3) which does not fit
the contract.
This conclusion is obviously somewhat in tension with
our previous decision upholding the CO’s decision that
multiple awards are not allowed. This peculiar state of affairs is an artifact of a code section which is a mixture, rather than an alloy, of various pieces of legislation. Not surprisingly, the parties have different views about the

96a
implications of this possible result and whether Oracle is
prejudiced by the flawed D&F.
III. Oracle Cannot Demonstrate Prejudice As A Result
Of The Flawed D&F.
Oracle argues that the requirements are independent
and that it is prejudiced by the agency’s failure to comply
with 10 U.S.C. § 2304a(d)(3) because Oracle could have
competed in a properly structured multiple award procurement. Oracle’s argument assumes there would be
some purpose to remanding to the agency to obtain a new
D&F, despite the CO’s conclusion. And not operating on
that assumption treats § 2304a(d)(3) as superfluous, which
the court is reluctant to do. Moreover, Oracle argues that
it is prejudiced because the agency’s needs, as expressed
in the gate criteria, could well be different in a multiple
award procurement. It argues that the single award determination and the gate criteria are necessarily connected: the agency improperly decided to award the majority of its cloud computing business to one provider and,
thus, the agency must have a monolithic provider to meet
its minimum needs.
The government and AWS first respond that if the
CO’s decision is upheld, the Under Secretary could not
have sanctioned the use of multiple awards, so a remand
would be pointless. This assertion strikes us as a tad sophistical, but, in any event, and fortunately for the defendant, we think their next argument concerning prejudice
has merit.
The government and intervenor argue that Oracle
cannot demonstrate prejudice as a result of the flawed
D&F because the agency’s minimum needs would not
have changed in a multiple-award scenario. In other
words, Gate Criteria 1.1 and 1.2 are enforceable, Oracle
cannot meet them, and there is no connection between the
single award determination, the gate criteria, and possible

97a
ethics violations. Under any scenario, Oracle would be out
of the competition.
In substance we agree, at least with respect to Gate
Criteria 1.2. While Oracle may well be correct that some
aspects of the gate criteria are driven by the agency’s insistence on using a single provider to manage an immense
amount of data, one critical aspect of the gate criteria is
not connected to the choice of a single provider: data security.
The security concern is explicit in Gate Criteria 1.2.
The security component of Gate Criteria 1.2 is based on
DoD’s “minimum security requirements for processing or
storing DoD’s least sensitive information.” AR 947. Mr.
Van Name explained that the challenged portion of Gate
Criteria 1.2 reflects the “minimum criteria necessary for
DoD to have confidence that the Offeror’s proposed data
centers have met the underlying physical security requirements necessary to successfully perform the contract.” Id. Many of the acquisition documents bolster the
agency’s conviction that use of multiple cloud service providers exponentially increases the challenge of securing
data. We have no reason to doubt the agency’s many representations that the Gate Criteria 1.2 security requirements are the minimum that will be necessary to perform
even the least sensitive aspects of the JEDI Cloud project.
In other words, although this criteria presumes a single award, the only logical conclusion is that, if multiple
awards were made, the security concerns would ratchet
up, not down. They are, indeed, minimally stated. If Oracle cannot meet Gate Criteria 1.2 as currently configured,
it is thus not prejudiced by the decision to make a single
award. The agency’s needs would not change, so Oracle
would not stand a better chance of being awarded this contract if the agency determined that the procurement must
be changed to multiple award.

98a
Thus, in order to prevail, Oracle must show that both
Gate Criteria 1.1 and Gate Criteria 1.2 are otherwise unenforceable. It would not be sufficient for Oracle to
demonstrate that Gate Criteria 1.1 alone is unenforceable,
because it also cannot not meet Gate Criteria 1.2. We need
not consider Gate Criteria 1.1, or 1.6 for that matter, because we are satisfied for reasons set out below, that Gate
Criteria 1.2 is enforceable.
IV. Gate Criteria 1.2 Is Enforceable.
Oracle argues that Gate Criteria 1.2 is unenforceable
because it exceeds the agency’s minimum needs, that it is
in fact an unauthorized qualification requirement, and it
amounts to the use of “other than competitive procedures” without proper justification.
Oracle first argues that DoD did not identify an underlying need before imposing Gate Criteria 1.2. When
preparing to procure services, the agency must “specify
the agency’s needs and solicit bids or proposals in a manner designed to achieve full and open competition for the
procurement.” 10 U.S.C. § 2305(a)(1)(A)(i) (2012). The solicitation must “include specifications which[,] consistent
with the provisions of this chapter, permit full and open
competition; and include restrictive provisions or conditions only to the extent necessary to satisfy the needs of
the agency or as authorized by law.” § 2305(a)(1)(B). The
specifications “shall depend on the nature of the needs of
the agency and the market available to satisfy such
needs.” § 2305(a)(1)(C). The agency may state specifications for “(i) function, so that a variety of products or services may qualify; (ii) performance, including specifications of the range of acceptable characteristics or of the
minimum acceptable standards; or (iii) design requirements.” Id.
Oracle alleges that the requirement in Gate Criteria
1.2 that certain offerings must be FedRAMP Moderate
“Authorized” by the proposal deadline exceeds DoD’s

99a
minimum needs. Oracle does not challenge any other aspect of Gate Criteria 1.2 in terms of the agency’s need. Oracle also does not argue that the agency could not require
some security assurance at the time of proposal, just that
the agency improperly chose FedRAMP authorization.
The government responds that the agency has properly
justified the criteria based on its needs.
We agree with the government that Gate Criteria 1.2
is tied to the agency’s minimum needs. Mr. Van Name’s
memorandum explained that “FedRAMP Moderate is the
Federal cloud computing standard and represents the Department’s minimum security requirements for processing or storing DoD’s least sensitive information.” AR
947. The cloud services provider will be required to work
with the agency to meet the “more stringent security requirements outlined in the JEDI Cyber Security Plan”
shortly after award, and if the cloud services provider cannot meet even the FedRAMP Moderate standard at the
time of proposal the agency will not be able to move forward with implementing the JEDI Cloud in a timely manner. Id. Furthermore, even though the JEDI Cyber Security Plan is a separate requirement, Mr. Van Name explained that “FedRAMP Moderate is the minimum criteria necessary for DoD to have confidence that the Offeror’s proposed data centers have met the underlying
physical security requirements necessary to successfully
perform the contract.” AR 947-48. It is a useful proxy, in
other words, for the agency’s real need. If an offeror were
unable to meet the lower threshold, it could not hope to
meet the higher.
Oracle argues by pointing to Slack messages and risk
statements that DoD’s security requirements are not the
real reason for this Gate Criteria 1.2 component; rather
the agency wanted to decrease the possibility of too many
proposals or protests. E.g., AR 422, 3123. The Slack messages and risk sections in acquisition planning documents

100a
that Oracle points to do not, however, undermine Mr. Van
Name’s justification. The agency’s concern about being inundated with too many unqualified offers or protests does
not reveal a nefarious purpose for the gate criteria; that
concern can coexist with legitimate security risks. The
agency’s justification provides a rational basis for why it
chose FedRAMP Moderate “Authorized” to satisfy itself
that a bidder’s offerings would be eligible to house DoD
data.
Alternatively, Oracle argues that Gate Criteria 1.2 is
a qualification requirement subject to the provisions of 10
U.S.C. § 2319 (2012). The government responds that Oracle waived this argument, because it had the opportunity
to object to the terms of Gate Criteria 1.2 as improperly
imposed qualification requirements prior to the close of
the bidding process and failed to do so. See Blue & Gold
Fleet, LP v. United States, 492 F.3d 1308, 1313 (Fed. Cir.
2007). The government is correct—Oracle’s more generalized challenges to the criteria did not raise this precise
argument until post-hearing comments submitted to GAO
on October 18, 2018, after the close of bidding. In any
event, even if the qualification requirement argument was
timely raised, Gate Criteria 1.2 is not a qualification requirement.
A qualification requirement is “a requirement for
testing or other quality assurance demonstration that
must be completed by an offeror before award of a contract.” 10 U.S.C. § 2319(a). If using one, the agency must
prepare a written justification stating the requirement
and explaining why it must be completed pre-award, specifying a cost estimate, providing for a prompt opportunity
for an offeror to demonstrate its ability, and ensuring that
the offeror is provided specific information if it fails the
qualification requirement. A qualification requirement is
generally “a qualified bidders list, qualified manufacturers list, or qualified products list.” § 2319(c)(3).

101a
This distinguishes a specification from a qualification
requirement. Specifications, the subject of 10 U.S.C. §
2305(a)(1)(A)(i)-(B)(ii), “are the requirements of the particular project for which the bids are sought, such as design requirements, functional requirements, or performance requirements.” W.G. Yates & Sons Const. Co., Inc.
v. Caldera, 192 F.3d 987, 994 (Fed. Cir. 1999). “Qualification requirements, on the other hand, are activities which
establish the experience and abilities of the bidder to assure the government that the bidder has the ability to
carry out and complete the contract.” Id.
In W.G. Yates, the Federal Circuit found that the
Army had improperly established a qualification requirement. The Army required a potential bidder “to have designed, manufactured, and installed ten similar door systems in satisfactory operation for a minimum of five
years” prior to award. Id. at 993. The Federal Circuit concluded that the requirement was not a specification, because it pertained to “to successful completion of other,
similar hangar door projects,” unrelated to the Army’s solicitation. Id. at 994. A specification would relate to the
project at hand, such as “the size of the doors, structural
steel requirements, ability to withstand wind loads, and
the like.” Id.
By comparison, in California Industries Facilities
Resources, Inc. v. United States, this court considered
whether the Air Force improperly imposed qualification
requirements when it required liner system, wind gust,
and snow load testing for certain military shelters prior to
award. 80 Fed. Cl. 633, 641-43 (2008). The court compared
the Air Force’s requirement to the Army’s requirement in
W.G. Yates and also explored GAO’s explanations of qualification requirements. GAO considers a qualification requirement “a systematized quality assurance demonstration requirement on a continuing basis as an eligibility for
award,” Aydin Corp.—Reconsideration, B–224185, 87–1

102a
CPD ¶ 141 (Feb. 10, 1987), or “a system [that] is intended
to be used prior to, and independent of, the specific procurement action.” Scot, Inc., B– 292580, 2003 CPD ¶ 173
(Oct. 3, 2003). The court concluded that the Air Force’s
testing requirements were specifications, because they
did not relate to other contracts, products, or a system independent of the procurement but were focused on the
particular features of the shelters that the offerors would
propose.
Oracle argues that the FedRAMP Moderate “Authorized” requirement in Gate Criteria 1.2 is a qualification requirement, specifically because that authorization
would have been acquired in the past through either the
Joint Authorization Board or from another agency. The
substance of this requirement is that an offeror must show
that a sampling of its offerings, at datacenters 150 miles
apart, have certain security features. Oracle contends
that this is a backwards-looking, independent quality assurance mechanism because the awardee will not be subject to the FedRAMP approval process and DoD described using FedRAMP as a “mechanism to validate that
the core architecture is extensible and likely to be able to
meet the JEDI Cloud requirements across all service offerings.” AR Tab 43 at 955.
The FedRAMP authorization requirement does resemble an independent quality assurance system in some
respects, but a few facts distinguish this component of
Gate Criteria 1.2 from the “ten similar door systems in
satisfactory operation for a minimum of five years” requirement in W.G. Yates. First, the agency did not require
an offeror to prequalify in order to submit a proposal or
to be on qualified bidders list prior to submitting its proposal. In that way the JEDI Cloud gate criteria are distinctly unlike classic qualification requirements. Second,
as Oracle acknowledges, FedRAMP authorization is not
an independent, systematic requirement that DoD

103a
imposes in its procurements. Third, the security features
that FedRAMP authorization includes are the security
features that DoD believes are in fact the minimum necessary to store DoD data for the JEDI Cloud project itself. The agency is not using the FedRAMP process as a
way to examine the offeror’s past performance storing
government data. Rather it is a uniform way to determine
which offerors have certain security capabilities on a number of their cloud offerings. The offeror cannot store even
the least secure data without such security features. DoD
can specify that an offeror must show that some of its offerings can meet certain security baselines, using a uniform tool to measure that security baseline, without triggering a qualification requirement.
Finally, Oracle argues that Gate Criteria 1.2 transforms this procurement into one that uses other than competitive procedures. The agency “(A) shall obtain full and
open competition through the use of competitive procedures in accordance with the requirements of this chapter
and the Federal Acquisition Regulation; and (B) shall use
the competitive procedure or combination of competitive
procedures that is best suited under the circumstances of
the procurement.” 10 U.S.C. § 2304(a)(1). The agency
“may use other than competitive procedures,” when one
of seven conditions is present. § 2304(c).
Relevant here, the agency may forgo competitive procedures when the services “are available . . . only from a
limited number of responsible sources and no other type
of property or services will satisfy the needs of the
agency,” § 2304(c)(1), or the agency’s need “is of such an
unusual and compelling urgency that the United States
would be seriously injured unless the agency is permitted
to limit the number of sources . . . .” § 2304(c)(2).
Even if the agency has grounds to forgo competitive
procedures, it must not award a contract under such circumstances “unless the contracting officer . . . justifies the

104a
use of such procedures in writing and certifies the accuracy and completeness of the justification;” the justification is properly approved; and any required notice is
given. § 2304(f)(1).
Oracle alleges that the agency chose the gate criteria
specifically to limit the number of bidders, effectively resulting in “other than competitive procedures.” The statements that Oracle points to, however, are not in the gate
criteria justification memorandum. They appear either in
Slack messages between members of Defense Digital Service, or in the risk section of acquisition planning documents.
The Federal Circuit recognized in National Government Services, Inc. v. United States, “the unremarkable
proposition that “a solicitation requirement (such as a
past experience requirement) is not necessarily objectionable simply because that requirement has the effect of excluding certain offerors who cannot satisfy that requirement.” 923 F.3d 977, 985 (Fed. Cir. 2019). The few record
statements Oracle highlights are insufficient to demonstrate that the agency is using “other than competitive
procedures” in the JEDI Cloud procurement. The agency
structured this procurement to use full and open competition and the gate criteria are just the first step in the
evaluation of proposals. The government aptly pointed
out that the substance of the gate criteria evaluation could
have occurred at any point in evaluation of proposals; the
agency simply put the gate criteria first to ensure its evaluation was not wasted on offerors who could not meet the
agency’s minimum needs. As Mr. Van Name’s memorandum reflects, the gate criteria are based on more than the
agency’s awareness that its timeline would be delayed if it
received too many proposals. While the gate criteria certainly had the effect of excluding some offerors, that does
not transform the procurement into less than full and
open competition.

105a
Specific to the Gate Criteria 1.2 component that certain offerings must be FedRAMP Moderate “Authorized,” Oracle argues that the agency knew at the time of
issuing the RFP that only two companies could meet that
gate criteria. As such, the agency knew that the necessary
cloud services are available from only a limited number of
responsible sources. Because the agency knew that only a
limited number of responsible sources could offer the services, the agency necessarily chose less than open competition without following the proper procedure. Oracle bases this argument on the fact that “the FedRAMP approval process is government-run (with DoD involvement). DoD necessarily knew that only two offerors could
meet this requirement—Microsoft and AWS.” Pl.’s Suppl.
Mot. 41. In its response and reply brief, Oracle adds that
“[b]ased on its market research, DoD necessarily knew
that only two cloud service providers had the existing infrastructure with FedRAMP authorized offerings to meet
the gate.” Pl.’s Resp. & Reply 23.
The government is correct, however, that evaluation
criteria which have the effect of limiting competition do
not necessarily trigger the procedures required by §
2304(c). Full and open competition “means that all responsible sources are permitted to submit sealed bids or competitive proposals on the procurement.” 41 U.S.C. § 107
(2012); 10 U.S.C. § 2302(3)(D) (2012). Here, they were.
The solicitation permitted all responsible sources to submit proposals. Four offerors submitted proposals. Even if
the agency knew that as of early 2018 only certain firms
would survive the gate criteria, it nevertheless chose to
accept proposals from all responsible sources. Indeed, the
CO in her memorandum documenting the rationale for a
single award contract stated, “The results of market research indicate that multiple sources are capable of satisfying DoD’s requirements for JEDI Cloud and that commercial cloud services customarily provided in the

106a
commercial marketplace are available to meet a majority
of DoD’s requirements.” AR 457. The FedRAMP authorization component does not transform the solicitation into
one for less than full and open competition.
Having considered both the single award determinations and Gate Criteria 1.2, we can return to the question
of prejudice. Assuming the agency relied on a flawed
D&F, would Oracle have had a better chance of competing
for this contract? We can confidently answer, no, because
Oracle could not meet the agency’s properly imposed security requirements.
This conclusion might normally be the natural stopping point in our decision, but Oracle raises a few other
arguments that it contends present an independent prejudicial error requiring this procurement to be set aside.
We thus address the competitive range briefly before
turning to the conflicts of interest determinations.
V. The CO Rationally Set The Competitive Range.
Oracle’s next argument is that, regardless of the propriety of the gate criteria, the agency unequally considered offerors when she permitted Microsoft and AWS to
advance to a competitive range, despite the fact that they
were both considered unawardable on several factors.
Since all four offerors failed some factors, Oracle contends
that the agency should have established a range of all four
offerors.
Oracle is incorrect. DoD reasonably evaluated the offerors according to the terms in Section M of the solicitation. Section M unambiguously provided that any offeror
who failed Factor 1, the gate criteria, would be immediately eliminated from consideration. Oracle and IBM
failed Factor 1 and were thus properly eliminated. According to the terms of Section M, only AWS and Microsoft were eligible for further evaluation. The agency
took the next step of evaluating both under the non-price

107a
factors and, finding both unawardable and in need of significant revisions, chose to set the competitive range of
those two offerors and continue on to discussions and revisions. The evaluation thus equally treated all offerors in
accordance with the process set out in Section M.
VI. The CO’s Determinations Regarding Conflicts Of Interest Are Rational And Consistent With FAR Subparts 3 And 9.
Oracle challenges the CO’s determination that the involvement in the procurement by Mssrs. Ubhi, DeMartino, and Gavin did not taint the process. It also argues
that the CO irrationally determined that AWS does not
have an organizational conflict of interest. Oracle contends that its conflicts of interest arguments are independent bases on which to set aside this procurement, because the individual conflicts tainted the structure of the
procurement, particularly the single award determinations and the substance of the gate criteria.
The facts on which Oracle rests its conflicts of interest allegations are certainly sufficient to raise eyebrows.
The CO concluded that at least two DoD officials disregarded their ethical obligations by negotiating for AWS
employment while working on this procurement. Through
lax oversight, or in the case of Ubhi, deception, DoD was
apparently unaware of this fact. AWS, for its part, was too
prepared to take at face value assurances by Mr. Ubhi
that he had complied with his ethical obligations. While
there is nothing per se illegal about capitalizing on relevant experience in moving to the private sector, the larger
impression left is of a constant gravitational pull on
agency employees by technology behemoths. The dynamic apparently is real enough that one would hope the
agency would be more alert to the possibilities of an erosion of public confidence, particularly given the risk to the
agency in having to redo procurements of this size.

108a
The limited question, however, is whether any of the
actions called out make a difference to the outcome. And
in particular, the even narrower question before the court
is whether the CO’s conclusion of no impact is reasonable.
The court is fully prepared to enforce the agency’s obligation to redo part or all of this procurement if the CO’s conclusion that there was no impact was unreasonable in any
respect, but our ultimate conclusion, after a detailed examination of the record, is that the CO’s work was thorough and even-handed. She understood the legal and factual questions and considered the relevant evidence. It is
unfortunate that the employees in question gave her so
much evidence to consider, making it is easy for Oracle to
cherry pick from the vast amount of communications and
isolate a few suggestive sound bites. But that volume
should not compel an unreasoned leap to the conclusion
that there was fire as well as smoke.
1. Individual Conflicts of Interest
We review the CO’s determinations for a rational basis and consistency with the applicable law. Regarding the
personal conflicts of interest, “[a] contracting officer who
receives or obtains information of a violation or possible
violation of 41 U.S.C. 2102, 2103, or 2104 (see 3.1043) must
determine if the reported violation or possible violation
has any impact on the pending award or selection of the
contractor.” FAR 3.01-7(a) (2018). If the CO determines
that there is no impact on the procurement, she must forward the information to a designated individual within the
agency. Id. If that individual concurs with the CO, the procurement may proceed.11 Id.
Oracle argues that the court must go beyond the CO’s determinations in this matter and consider whether these personal conflicts of
interest constitute a violation of certain statutes, particularly 18
U.S.C. § 208 as it relates to Mr. Ubhi. We disagree. Our standard of
review is explicitly set out in 28 U.S.C. § 1491(b)(4) and does not include this court holding a mini criminal trial in the course of deciding
11

109a
Here, the CO determined that, although there were
some violations or possible violations of law relating to
conflicts of interest, those conflicted individuals did not
impact the decision to use a single award approach or the
substance of the evaluation factors. It is easy to critique
uncritically her analysis and characterize it as, “there
were lots of people involved in the decisions here, so it’s
unlikely the persons in question impacted the result.” We
are satisfied that would be a simplistic and inaccurate critique. In fact, there were a lot of people involved in this
procurement, and the ones called out by the ethics investigations indeed were a very small part of the substance
of the procurement, both as a result of their limited roles
and as a result of the timing of important decisions.
We think that the conclusion the CO in effect asks us
to draw, that these individuals were bit players in the
JEDI Cloud project, is correct. They were not members
of the Cloud Executive Steering Group, the Cloud Computing Program Office, the Joint Requirements Oversight
Council, or the Cost Assessment and Program Evaluation, and that is only a partial list of the many DoD offices
and officials who had a role in the structure of this procurement. See, e.g., AR Tab 64, 91, 94. Nor were they acting as the CO, Under Secretary, the Chief Information
Officer, the Deputy Chief Management Officer, or other
official who developed or signed off on challenged components of this procurement. While they should not have had
the opportunity to work on the JEDI Cloud procurement
at all, or at least for certain periods of time, nevertheless,
their involvement does not taint the work of many other
persons who had the real control of the direction of the
JEDI Cloud project.
a bid protest. In any event, the CO here considered possible violations
of 18 U.S.C. § 208 and performed an “even if” analysis as a part of her
FAR Subpart 3 determination.

110a
A. Mr. DeMartino
The CO considered all of the relevant facts regarding
Mr. DeMartino’s involvement. None of the facts contradict her ultimate conclusion that his involvement with
JEDI did not impact the procurement. While we might
view the CO’s characterizations as a bit generous (for instance, Mr. DeMartino clearly did not work with government ethics personnel “throughout” his DoD employment), nevertheless, she rationally determined that he
was merely a go-between for the Deputy Secretary and
did not have substantive input into the structure or content of the solicitation. Specifically, Mr. DeMartino did
not have a voice in whether DoD should use a single or
multiple award approach and did not craft the substance
of the evaluation factors. His employer, the Deputy Secretary, was expressly “open” to either single or multiple
award at least into late 2017. AR 4352. Moreover, DeMartino did not leave DoD to work for AWS during, or apparently after this procurement. We view him as not relevant
to the AWS organizational conflict of interest analysis.
B. Mr. Gavin
The CO likewise considered all of the relevant facts
regarding Mr. Gavin’s involvement. First, her conclusion
that “Mr. Gavin violated FAR 3.101-1, and possibly violated 18 U.S.C. § 208 and its implementing regulations,”
is well-supported. The CO properly went on to ask
whether, in light of the conflict, Mr. Gavin impacted the
procurement. The record supports her conclusion that
Mr. Gavin was involved only to offer his knowledge of the
Navy’s cloud services experience. He was not a member
of the Cloud Executive Steering Group, Defense Digital
Service, the Chief Information Office, or any other team
tasked with spearheading aspects of this procurement. As
far as we can tell from the record, he did not assist in crafting the single award determinations or the technical substance of the evaluation factors. At most, he attended a

111a
few JEDI Cloud meetings. He does not appear to have
obtained any contractor bid or proposal information nor
does he appear to have introduced any bias toward AWS
into the meetings he attended. It would have been proper
for the CO to discount Mr. Gavin’s affidavit as she did Mr.
Ubhi’s, because she felt he had violated FAR 3.101-1.
Even when his involvement is considered without his own
assurances that he did not act improperly, the CO’s review of the record was reasonable that Mr. Gavin was involved solely to offer his past experience with cloud computing contracts.
Oracle is correct that we do not know exactly what
Mr. Gavin communicated to AWS’s JEDI proposal team
lead prior to the information firewall. Mr. Gavin acted improperly in that regard, as did the AWS employee who
spoke with him. But the CO reasonably determined that
Mr. Gavin simply did not have access to competitively useful information to convey to AWS. By the time Mr. Gavin
began working at AWS, the draft RFP had been released,
providing AWS access to the relevant information that
also appeared in the draft Acquisition Strategy. We thus
find that the CO’s conclusion regarding Mr. Gavin was rational.
C. Mr. Ubhi
The last individual who worked on the procurement
despite a personal conflict of interest was Mr. Ubhi. We
agree with the CO that his behavior was disconcerting.
Despite being aware of his ethical obligations, he ignored
them. The CO drew six conclusions regarding Mr. Ubhi;
we will consider each in turn.
First, the CO reached the obvious conclusion that Mr.
Ubhi violated the FAR 3.101-1 requirement that officials
“avoid strictly any conflict of interest or even the appearance of a conflict of interest in Government contractor relationships” and thus the matter had to be referred to the
DoD Inspector General. AR 58707-09. She also considered

112a
related prohibitions and reasonably concluded that Mr.
Ubhi’s behavior must be referred to the Inspector General for investigation of “whether Mr. Ubhi violated 18
U.S.C. § 208, 5 CFR § 2635.604, and 5 CFR § 2635.402.”
AR 58709. The CO continued her analysis, as FAR 3.1047 directed her to do, assuming that Mr. Ubhi’s participation was unethical and might have impacted events he
participated in. We find nothing irrational in this first conclusion.
Next, the CO concluded both that Mr. Ubhi’s employment package did not reflect a quid pro quo for nonpublic
information relating to the JEDI Cloud procurement and
that there is no evidence that Mr. Ubhi shared nonpublic
information with AWS. To reach this conclusion, she considered all of the employment negotiations between Mr.
Ubhi and AWS (beginning before the JEDI Cloud procurement) and his employment offer. Based on discussions and research, she concluded that AWS was interested in hiring Mr. Ubhi regardless of his JEDI Cloud involvement and that his substantial employment package
did not appear to be tied to receiving nonpublic information. Her conclusion here is reasonable and highlights
an important aspect of Mr. Ubhi’s post-DoD work: he did
not return to AWS to work on its JEDI Cloud proposal
team, for its Federal Business Sector, or for the DoD Programs section.
She went on to consider the communications DoD had
with AWS and the affidavits submitted from AWS employees stating that they had not received, or hoped to receive, any information from Mr. Ubhi. She considered affidavits from individuals both within AWS’s commercial
sector (where Mr. Ubhi is now employed) and AWS’s federal business sector (where the AWS JEDI Team works).
None of those affidavits suggest that Mr. Ubhi shared any
information with the JEDI Cloud team or that the team
would welcome his input. The CO did not find any

113a
evidence to suggest that he had shared nonpublic information with AWS or that AWS had solicited such information. The CO took the whole record into account, discounted Mr. Ubhi’s assurances, and considered AWS’s apparent motivations and the statements made by its employees under penalty of perjury. We did not find any critical facts that she overlooked in reaching this conclusion
and thus find no reason to disturb it.
The CO’s third conclusion was that even if Mr. Ubhi
had disclosed nonpublic information, none of it would have
been competitively useful. The CO detailed both potential
offeror information and DoD information that Mr. Ubhi
had access to as a member of the Defense Digital Service
team. She detailed her analysis that the vendor meeting
information would not have been competitively useful to
AWS and that much of the DoD information was premature, based on incorrect assumptions, and, in any event,
was revealed to the public during meetings and industry
research. Again, the CO considered this question closely
and we have found nothing in the record to suggest that
her explanation was unsatisfactory.
Oracle takes issue with the fact that the CO, in her
fourth conclusion, applied FAR 3.104-3(c) too literally.
The section requires officials such as Mr. Ubhi to
promptly report contacting or being contacted “by a person who is an offeror in that Federal agency procurement
regarding possible non-Federal employment for that official” and then to disqualify himself from further personal
and substantial participation in the procurement. FAR
3.104-3(c) (emphasis added). The CO repeated that Mr.
Ubhi was personally and substantially involved. She found
that Mr. Ubhi failed to “promptly report the contact with
AWS in writing to his supervisor and the agency ethics
official” and failed to timely recuse himself from JEDI
Cloud activities. But Mr. Ubhi did not violate this particular section of FAR Subpart 3 because AWS was not an

114a
offeror at the time. The CO repeated that Mr. Ubhi behaved unethically and improperly and she read and applied FAR 3.104-3(c) as written. We find nothing objectionable in her analysis under FAR 3.104-3(c).
Fifth, the CO concluded that Mr. Ubhi’s seven-week
contribution to the planning stage of the JEDI Cloud procurement did not introduce bias in favor of AWS. The CO
reviewed Mr. Ubhi’s work and found that, despite often
expressing vehement opinions about various people and
companies, he did not lobby in favor of a particular cloud
services provider. Her conclusion is supported in the record.
Sixth, the CO concluded that even if Mr. Ubhi tried to
introduce bias into the procurement process, he failed. Oracle argues that the reasoning behind this determination
was flawed. First, the CO found that Mr. Ubhi did not
have the technical expertise to substantially influence the
procurement. Second, she concluded that his actual attempts to influence the procurement were limited. Third,
the key decisions were made after Mr. Ubhi recused himself.
As to Mr. Ubhi’s technical expertise, or lack thereof,
the record reflects that Mr. Ubhi’ specialty was lead product manager. The CO placed Mr. Ubhi’s participation in
the broader context of the Defense Digital Service team,
which was only one team among at least half a dozen DoD
organizations that contributed to and reviewed the content of the JEDI Cloud solicitation. Mr. Van Name explained in his GAO testimony that Mr. Ubhi was indeed
conversant in cloud computing, as one must be to work as
an industry specialist in cloud computing. But his involvement early in the planning stage of this procurement does
not reflect any meaningful role in crafting the technical
aspects of this solicitation, particularly the gate criteria.
We are not aware of any step in the procurement that required his approval. By the time DoD finished its

115a
decisions and amendments to Gate Criteria 1.2, Mr. Ubhi
had long since left DoD. In reality, the gate criteria, particularly the security requirements, were crafted by a
number of DoD teams which focused on technical and security requirements. Mr. Ubhi’s primary role was industry liaison; the record does not warrant attributing to him
any serious involvement in the technical or security aspects of the gate criteria.
While Oracle points to Mr. Ubhi’s loud advocacy for a
single award approach, real DoD decisionmakers had
been independently in favor of a single award approach
both before and after Mr. Ubhi’s involvement. As early as
September 14, 2017, the Cloud Executive Steering Group
(of which Mr. Ubhi was not a member) expressed a preference for a single award approach. On the other hand,
after Mr. Ubhi left DoD, the Deputy Secretary remained
unconvinced regarding which approach to use; he was
“[o]pen to the first cloud contract being single source OR
multiple source” and asked for a “layout [of] all options
and recommendations from Team Cloud” in November
2017. AR 4352. The CO recalled being in a meeting in
April 2018 in which “the single award decision was still being vigorously debated.” AR 58721. Nor is it credible to
suggest that Mr. Ubhi was steering DoD toward AWS.
Our narrative began with the visit to AWS (among other
cloud service providers) by DoD top brass, before Mr.
Ubhi’s involvement surfaces.
Ultimately, we find that the CO correctly concluded
that although Mr. Ubhi should have never worked on the
JEDI Cloud procurement, his involvement did not impact
it. We are left with the firm conviction that the agency was
headed in the direction of a single award from the beginning, indeed probably before Mr. Ubhi was enlisted to
participate in the JEDI Cloud project. The CO is fundamentally correct: if there was a high speed train headed
toward a single award decision, Mr. Ubhi was merely a

116a
passenger on that train, and certainly not the conductor.
Moreover, he exited DoD prior to the substance of the
evaluation factors being crafted. Although the CO correctly found the assurances in his affidavit to be untrustworthy, we ultimately agree with the substance of her
conclusion that his self-promoting, fabulist and often profanity-laced descriptions of his own role were merely that.
2. Alleged Organizational Conflict of Interest
Finally, Oracle turns to the CO’s assessment of AWS.
Oracle argues that the CO’s determination that AWS did
not violate procurement integrity law and does not have
an unfair advantage lacks a rational basis. While Oracle’s
argument focuses on Mr. Gavin’s and Mr. Ubhi’s relationship with AWS, even though the CO properly considered
both Mr. Bouier’s and Dr. Sutherland’s relationship with
the company as well.
FAR Subpart 9 prescribes rules and responsibilities
regarding organizational conflicts of interest. “An organizational conflict of interest may result when factors create an actual or potential conflict of interest on an instant
contract, or when the nature of the work to be performed
on the instant contract creates an actual or potential conflict of interest on a future acquisition.” FAR 9.502(c)
(2018). It is the CO’s responsibility to “[i]dentify and evaluate potential organizational conflicts of interest as early
in the acquisition process as possible” and to “[a]void, neutralize, or mitigate significant potential conflicts before
contract award.” FAR 9.504(a). The CO “should avoid creating unnecessary delays, burdensome information requirements, and excessive documentation. The [CO’s]
judgment need be formally documented only when a substantive issue concerning potential organizational conflict
of interest exists.” FAR 9.504(d).
The CO should examine “[e]ach individual contracting situation . . . on the basis of its particular facts and the
nature of the proposed contract.” FAR 9.505. “The

117a
exercise of common sense, good judgment, and sound discretion is required in both the decision on whether a significant potential conflict exists and, if it does, the development of an appropriate means for resolving it.” Id. Relevant here, the CO should seek to prevent “unfair competitive advantage.” Id. Such unfair advantage “exists where
a contractor competing for award of any Federal contract
possesses—(1) Proprietary information that was obtained
from a Government official without proper authorization;
or (2) Source selection information . . . that is relevant to
the contract but is not available to all competitors, and
such information would assist that contractor in obtaining
the contract.” Id.
Oracle argues that there can be no question that AWS
had a significant, actual conflict and that only extreme
measures would eliminate the conflict at this stage. It contends that the CO irrationally determined that AWS could
not derive an unfair competitive advantage from the information Mr. Ubhi or Mr. Gavin brought with them to AWS.
The government responds that the CO properly determined that a significant potential conflict did not exist, because there is no evidence—in the CO’s determination or
that she missed—that indicates AWS possesses proprietary information or source selection information not available to all competitors.
The CO’s conclusion that a conflict of interest did not
exist was sufficiently supported based on the facts presented to her. She specifically considered whether the
DoD employees who accepted jobs at AWS could have,
and did, communicate information to AWS that would give
AWS an unfair competitive advantage. She concluded that
the information the three individuals had could not offer
an unfair competitive advantage and that, in any event,
there is no evidence that protected information was communicated to AWS.

118a
Her assessment began with whether AWS obtained
source selection information that is relevant, not available
to all competitors, and would assist AWS in winning the
JEDI Cloud contract. The pertinent facts she considered
are that Mr. Ubhi participated in many JEDI Cloud meetings and assisted in drafting several pre-RFP documents;
he had access to the contents of the Google Drive; Mr.
Gavin participated in two meetings and viewed a limited
set of documents; and Dr. Sutherland apparently had access to some documents through her work with the Joint
Requirements Oversight Council. The substance of the
documents to which they had access, however, along with
the meeting notes, concerns DoD’s need to adopt cloud
computing, the disadvantages of not being able to access
an enterprise cloud, the list the cloud services DoD would
need, and the processes for how to get to closure in the
procurement.
AWS could have contemporaneously gathered such
information through the November 2017 JEDI Cloud
summary, the RFI, meetings with the JEDI Cloud procurement team, and later through the draft RFP and the
final solicitation package, not to mention DoD’s 2017
meeting with AWS prior to the kickoff of the JEDI Cloud
procurement process. DoD was not particularly secretive
about its cloud services needs or its plan for the solicitation. In fact, DoD involved industry from the beginning of
this procurement. At the time Mr. Ubhi and Mr. Gavin
sought AWS employment, no bids or other source selection information existed. We find nothing irrational in the
CO’s conclusion that Mr. Gavin and Mr. Ubhi did not offer
AWS an unfair competitive advantage based on their
knowledge of nonpublic information relating to the procurement.
Oracle also argues that Mr. Ubhi had nonpublic information regarding AWS’s potential competitors, implying
that he had imparted to AWS “[p]roprietary information

119a
that was obtained from a Government official without
proper authorization.” FAR 9.505(b)(1). There is no real
support for this supposition. The CO considered this issue
and concluded that the information Mr. Ubhi had access
to could be accessed publicly. She also concluded that Mr.
Ubhi’s knowledge of Microsoft’s proprietary information,
submitted to DoD during its one-on-one meeting with the
JEDI Cloud team, could be accessed publicly. Moreover,
none of the information Oracle points out appears to be
sensitive to Microsoft’s future offer or approach to tackling the JEDI Cloud project. It is a reasonable conclusion
that AWS had access to the information with or without
Mr. Ubhi.
In this case, there was a significant amount of communication and negotiation between AWS and DoD employees. As in the case of the individual conflicts of interest, the individuals, the company, and the agency were
slow to identify the potential this created for an organizational conflict, particularly as it might relate to a procurement of this magnitude, and less than aggressive in heading off potential harm. Nevertheless, our review is not de
novo. The question is whether the procurement was
tainted, so as to warrant a redo or possible exclusion of
AWS, a question that lies, in the first instance, in the
hands of the CO. The issue for the court is whether she
properly exercised her discretion in concluding that AWS
does not have an organizational conflict of interest based
on the facts as presented. We believe she correctly focused on the significance of the potential conflict and
whether it gave AWS any competitive advantage. Her
conclusion that the errors and omissions were not significant and did not give AWS a competitive advantage was
reasonable and well supported.
CONCLUSION
Because the court finds that Gate Criteria 1.2 is enforceable, and because Oracle concedes that it could not

120a
meet that criteria at the time of proposal submission, we
conclude that it cannot demonstrate prejudice as a result
of any other possible errors. Plaintiff’s motion for judgment on the administrative record is therefore denied.
Defendant’s and intervenor’s respective cross-motions for
judgment on the administrative record are granted. The
Clerk is directed to enter judgment for defendant. No
costs.

121a
APPENDIX C

10 U.S.C. § 2304a(d):
(d) SINGLE AND MULTIPLE CONTRACT AWARDS.—
(1) The head of an agency may exercise the authority provided in this section—
(A) to award a single task or delivery order contract; or
(B) if the solicitation states that the head of the
agency has the option to do so, to award separate task
or delivery order contracts for the same or similar
services or property to two or more sources.
(2) No determination under section 2304(b) of this title is required for award of multiple task or delivery order
contracts under paragraph (1)(B).
(3)(A) Except as provided under subparagraph (B),
no task or delivery order contract in an amount estimated
to exceed $100,000,000 (including all options) may be
awarded to a single source unless the head of the agency
determines in writing that—
(i) the task or delivery orders expected under the contract are so integrally related that
only a single source can efficiently perform the
work;
(ii) the contract provides only for firm, fixed
price task orders or delivery orders for—
(I) products for which unit prices are established in the contract; or
(II) services for which prices are established in the contract for the specific tasks to
be performed;
(iii) only one source is qualified and capable
of performing the work at a reasonable price to
the government; or

122a
(iv) because of exceptional circumstances, it
is necessary in the public interest to award the
contract to a single source.
(B) A task or delivery order contract in an
amount estimated to exceed $100,000,000 (including
all options) may be awarded to a single source without
the written determination otherwise required under
subparagraph (A) if the head of the agency has made
a written determination pursuant to section 2304(c) of
this title that procedures other than competitive procedures may be used for the awarding of such contract.
(4) The regulations implementing this subsection
shall—
(A) establish a preference for awarding, to the
maximum extent practicable, multiple task or delivery order contracts for the same or similar services
or property under the authority of paragraph (1)(B);
and
(B) establish criteria for determining when
award of multiple task or delivery order contracts
would not be in the best interest of the Federal Government.
18 U.S.C. § 208:
(a) Except as permitted by subsection (b) hereof,
whoever, being an officer or employee of the executive
branch of the United States Government, or of any independent agency of the United States, a Federal Reserve
bank director, officer, or employee, or an officer or employee of the District of Columbia, including a special Government employee, participates personally and substantially as a Government officer or employee, through decision, approval, disapproval, recommendation, the

123a
rendering of advice, investigation, or otherwise, in a judicial or other proceeding, application, request for a ruling
or other determination, contract, claim, controversy,
charge, accusation, arrest, or other particular matter in
which, to his knowledge, he, his spouse, minor child, general partner, organization in which he is serving as officer,
director, trustee, general partner or employee, or any
person or organization with whom he is negotiating or has
any arrangement concerning prospective employment,
has a financial interest—
Shall be subject to the penalties set forth in section
216 of this title.
(b) Subsection (a) shall not apply—
(1) if the officer or employee first advises the
Government official responsible for appointment
to his or her position of the nature and circumstances of the judicial or other proceeding, application, request for a ruling or other determination,
contract, claim, controversy, charge, accusation,
arrest, or other particular matter and makes full
disclosure of the financial interest and receives in
advance a written determination made by such official that the interest is not so substantial as to be
deemed likely to affect the integrity of the services
which the Government may expect from such officer or employee;
(2) if, by regulation issued by the Director of
the Office of Government Ethics, applicable to all
or a portion of all officers and employees covered
by this section, and published in the Federal Register, the financial interest has been exempted
from the requirements of subsection (a) as being
too remote or too inconsequential to affect the integrity of the services of the Government officers
or employees to which such regulation applies;

124a
(3) in the case of a special Government employee serving on an advisory committee within
the meaning of the Federal Advisory Committee
Act (including an individual being considered for
an appointment to such a position), the official responsible for the employee’s appointment, after review of the financial disclosure report filed by the
individual pursuant to the Ethics in Government
Act of 1978, certifies in writing that the need for
the individual’s services outweighs the potential
for a conflict of interest created by the financial interest involved; or
(4) if the financial interest that would be affected by the particular matter involved is that resulting solely from the interest of the officer or employee, or his or her spouse or minor child, in birthrights—
(A) in an Indian tribe, band, nation, or
other organized group or community, including any Alaska Native village corporation as
defined in or established pursuant to the
Alaska Native Claims Settlement Act, which is
recognized as eligible for the special programs
and services provided by the United States to
Indians because of their status as Indians,
(B) in an Indian allotment the title to
which is held in trust by the United States or
which is inalienable by the allottee without the
consent of the United States, or
(C) in an Indian claims fund held in trust
or administered by the United States,
if the particular matter does not involve the Indian
allotment or claims fund or the Indian tribe, band,
nation, organized group or community, or Alaska
Native village corporation as a specific party or
parties.

125a
(c)(1) For the purpose of paragraph (1) of subsection (b), in the case of class A and B directors of Federal
Reserve banks, the Board of Governors of the Federal
Reserve System shall be deemed to be the Government
official responsible for appointment.
(2) The potential availability of an exemption
under any particular paragraph of subsection (b)
does not preclude an exemption being granted pursuant to another paragraph of subsection (b).
(d)(1) Upon request, a copy of any determination
granting an exemption under subsection (b)(1) or (b)(3)
shall be made available to the public by the agency granting the exemption pursuant to the procedures set forth in
section 105 of the Ethics in Government Act of 1978. In
making such determination available, the agency may
withhold from disclosure any information contained in the
determination that would be exempt from disclosure under section 552 of title 5. For purposes of determinations
under subsection (b)(3), the information describing each
financial interest shall be no more extensive than that required of the individual in his or her financial disclosure
report under the Ethics in Government Act of 1978.
(2) The Office of Government Ethics, after
consultation with the Attorney General, shall issue
uniform regulations for the issuance of waivers and
exemptions under subsection (b) which shall—
(A) list and describe exemptions; and
(B) provide guidance with respect to the
types of interests that are not so substantial as
to be deemed likely to affect the integrity of
the services the Government may expect from
the employee.

